<html>
<title> - THE IMPLEMENTATION OF NATIONAL STANDARDS IN FISHERIES MANAGEMENT</title>
<body><pre>[Senate Hearing 108-995]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-995

    THE IMPLEMENTATION OF NATIONAL STANDARDS IN FISHERIES MANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON OCEANS, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
20-083 PDF                    WASHINGTON : 2016                          

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  



          SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 
                                 ------                                

           SUBCOMMITTEE ON OCEANS, FISHERIES, AND COAST GUARD

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia, Ranking
KAY BAILEY HUTCHISON, Texas          ERNEST F. HOLLINGS, South Carolina
GORDON H. SMITH, Oregon              DANIEL K. INOUYE, Hawaii
JOHN E. SUNUNU, New Hampshire        JOHN B. BREAUX, Louisiana
                                     MARIA CANTWELL, Washington
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 22, 2003.................................     1
Statement of Senator Lott........................................     9
Statement of Senator Snowe.......................................     1
Statement of Senator Stevens.....................................     7
Statement of Senator Sununu......................................     4
    Prepared statement...........................................     5

                               Witnesses

Hogarth, Dr. William, Assistant Administrator, National Marine 
  Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    12
    Prepared statement...........................................    14

                                Appendix

Collins, Hon. Susan M. Collins, U.S. Senator from Maine, prepared 
  statement......................................................    40
Frank, Rep. Barney, U.S. House of Representatives, prepared 
  statement......................................................    41
Kerry, Hon. John F., U.S. Senator from Massachusetts, prepared 
  statement......................................................    39
Letter dated September 15, 2003 to Hon. Donald L. Evans, 
  Secretary of Commerce, from Sen. Edward M. Kennedy, Rep. Barney 
  Frank and Rep. John F. Tierney.................................    42
Letter dated October 18, 2003 to Hon. Olympia Snowe from Hank 
  Soule, General Manager, Portland Fish Exchange.................    48
Letter dated October 19, 2003 to Hon. Olympia Snowe from Dr. 
  Ilene M. Kaplan, Woods Hole Oceanographic Institution and Union 
  College........................................................    49
Letter dated October 20, 2003, to Hon. Olympia Snowe from Maggie 
  Raymond, Associated Fisheries of Maine.........................    50
Letter dated October 21, 2003 to Hon. Olympia Snowe, from James 
  F. Cloutier, Mayor, Portland City Council......................    51
Letter from Nils Stolpe, FishNet USA to Hon. Olympia Snowe.......    52
Lewandowski, Corey R., Executive Director, New England Seafood 
  Producers Association, prepared statement......................    44
Nunes, Robert, from New Bedford, Massachusetts, prepared 
  statement......................................................    47
Response to written questions submitted to Dr. William Hogarth 
  by:
    Hon. John F. Kerry...........................................    62
    Hon. Gordon H. Smith.........................................    61
    Hon. Olympia J. Snowe........................................    56
Testimony on behalf of the Trawler's Survival Fund...............    43

 
    THE IMPLEMENTATION OF NATIONAL STANDARDS IN FISHERIES MANAGEMENT

                              ----------                              


                      WEDNESDAY, OCTOBER 22, 2003

                               U.S. Senate,
Subcommittee on Oceans, Fisheries, and Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:32 a.m. in 
room SR-428A, Russell Senate Office Building, Hon. Olympia J. 
Snowe, Chairman, presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. The hearing will come to order.
    I would first of all like to thank Dr. Hogarth for being 
here today to testify in today's hearing on fisheries 
management. The purpose of this hearing is to examine the 
National Marine Fisheries' implementation of the National 
Standards under the Magnuson-Stevens Act. I want to focus on 
the implementation of the act as it relates to Amendment 13 in 
New England and how it affects the New England groundfish 
industry.
    I have convened this hearing today because, I have some 
very serious concerns with the way in which the National Marine 
Fisheries Service is interpreting the Act. Certainly, I believe 
that it is a manner which is inconsistent with Congressional 
intent. I think it will come as no surprise to you the depth of 
frustration and despair with the groundfish industry concerning 
this process in my state of Maine and I think throughout New 
England. There is no single issue today of greater significance 
to Maine's fishermen and it is no exaggeration to say that 
their livelihoods are on the line.
    The National Marine Fisheries Service's management has been 
driven by lawsuits. It has been a litigation-centered 
management process that often has been erratic and I think has 
contributed to the depth of frustration that exists within the 
industry, and particularly in response to Amendment 13.
    This is not what Congress intended when it enacted the 
Sustainable Fisheries Act of 1996. This critical legislation 
was based on two overarching goals. One was to end the 
overfishing of U.S. stocks and the other was to rebuild the 
fisheries that had been depleted as a result of overfishing. 
Most importantly, Congress also recognized that within the 
Sustainable Fisheries Act overfishing and rebuilding fisheries 
would in many cases be extremely difficult to achieve due to 
ecosystem complexities and the potential upheaval of fisheries 
communities. Therefore, Congress determined that the regional 
fisheries management councils and the Secretary of Commerce had 
to be provided a larger degree of flexibility in order to craft 
management plans appropriate for the needs of each fishery or 
region.
    This flexibility which we deliberately and specifically 
incorporated into the Sustainable Fisheries Act would enable 
the agency and the councils to address overfishing and rebuild 
fisheries in ways that avoid imposing unnecessarily rigid 
regulatory measures upon fishermen and their communities.
    When the Council and the agency began implementing the 
Sustainable Fisheries Act, I along with several other Members 
of the Congress observed that the flexibility in the Act was 
not being fully utilized. In making a series of policy 
decisions to implement the Sustainable Fisheries Act, the 
agency demonstrated a more rigid interpretation of the Act than 
was necessary, such as defining overfishing in a more 
restrictive way than it had been defined in previous 
interpretations of Federal fisheries law.
    My colleagues and I made repeated efforts through hearings, 
regulatory comment, letters, and personal meetings to clarify 
Congress' intent for flexibility. Unfortunately, the agency has 
continued to make a series of highly questionable policy 
decisions related to Amendment 13 that run counter to 
Congressional intent.
    First, National Standard 3 requires, to the extent 
practicable, interrelated stocks of fish be managed as a unit. 
The New England groundfish complex consists of over a dozen 
interrelated species that are often treated as a unit, except 
in Amendment 13, which would impose distinct management 
measures for different species and stocks. This could result in 
an overly complicated and highly restrictive regulatory regime, 
while the approach itself may be wholly unnecessary.
    Under the Act, fisheries managers have the option of 
managing these stocks in the aggregate, which could result in 
easier to implement regulations and a wider range of options. 
Yet they have chosen not to do so.
    Second and critically, National Standard 8 states that 
managers shall take into account the importance of fishery 
resources to fishing communities in order to provide for the 
sustained participation of such communities and, to the extent 
practicable, minimize adverse economic impacts on such 
communities. Again, in Amendment 13 the agency has offered 
little more than a minimal cursory assessment of how stock size 
relates to landings and income.
    Consider this: Within the 1,500 pages of analysis in the 
draft environmental impact statement there is only limited 
evidence that the agency attempted to accurately understand 
these effects and even less evidence of an attempt to balance 
fisheries rebuilding measures with the need to minimize harmful 
social and economic impacts. Indeed, instead of presenting 
comprehensive analyses on the full range of approaches for 
alleviating them, the environmental impact statement only 
outlines how much fishermen stand to lose, and with the 
alternatives estimated to result in anywhere from $94 million 
to $217 million in lost sales and from $38 million to $88 
million in lost personal income, our fishing community stands 
to lose a great deal. In fact--and these are the agency's own 
numbers--anywhere from 1,300 to 3,000 jobs in the region will 
be affected.
    This is far from what Congress intended. To the contrary, 
we directed fishery managers to recognize that their actions 
impact the livelihoods of an untold number of fishermen. We 
intended for managers to fully identify and analyze the effects 
of regulations on the social fabric of communities and then to 
factor that information into their management approach, so that 
fishing-dependent businesses in small coastal communities would 
not be unnecessarily harmed by Federal fisheries management.
    Due to my concern with the economic analysis, I have asked 
the National Marine Fisheries to have the economic data 
independently analyzed.
    Third, the Sustainable Fisheries Act established a maximum 
rebuilding time that should be as short as possible and not to 
exceed 10 years, unless certain conditions warrant otherwise. 
Again, the needs of the fishing communities are supposed to 
factor into this decision. However, for the New England 
groundfish the agency originally interpreted this to mean that 
most species within the groundfish complex had to be rebuilt 
within 10 years regardless of the difficulties in rebuilding 
mixed stocks and the resultant severe impacts on fishing 
communities.
    Not only was this interpretation overly restrictive, but 
the agency decided to make it even more limiting last year. In 
the midst of a court case and 3 years into a rebuilding 
program, incredibly, the agency's fisheries scientists 
determined that the rebuilding targets for some stocks should 
be doubled or even tripled in size. Meeting these goals in the 
remaining rebuilding time-frame would have led to even further 
reductions for our fishermen.
    Last year the Senate unanimously passed my amendment to the 
Fisheries Conservation Act of 2002 that clarified, not amended, 
Congress' intent for allowing more time under specific 
conditions. Fortunately, the agency has since agreed to at 
least restart the clock when Amendment 13 is implemented. But 
as helpful as this is, it is still not a permanent solution to 
the problem in terms of minimizing the impact on fishing 
communities.
    With Amendment 13 we are rapidly approaching the court- 
ordered deadlines for selecting an alternative. Yet the choices 
we have been offered are profoundly objectionable, offering 
only a 13 percent increase in landings at best, at the cost of 
thousands of jobs and hundreds of millions of dollars. The fact 
is the Council limited the four alternatives to those that the 
National Marine Fisheries Service would find acceptable. In the 
process, the agency is limiting what the final outcome may be 
and our fishing communities will bear the brunt.
    We must remember that thousands of fishing crew, 
processors, ice and fuel suppliers, and other dependent 
businesses will be impacted by these regulations. Congress 
passed each National Standard for a reason and it is 
unacceptable to see the agency and the courts select, pick, and 
choose which ones they want to implement and how. These 
standards were intended to be taken as a whole and utilized in 
a manner that allows fishing stocks and the communities to 
prosper.
    Consider what is happening in the fishing-dependent coastal 
communities of Maine from Port Clyde to Birch Harbor. Just a 
few years ago this area was buzzing with groundfish activity. 
The Deer Isle-Stonington area, which was once home to 50 
groundfish vessels, is now home to just one. All of Down East 
Maine, which is thousands of miles on Maine's coastline, has 
merely 17 groundfishing permits. These small communities form 
the backbone of our coastline and they cannot weather the storm 
of additional and onerous fishing restrictions.
    Also consider the fact that today's hearing is occurring in 
the shadow of the Candy B II tragedy, which cost the lives of 
four Maine fishermen. The Candy B II, although it was recently 
lost while scalloping, was originally purchased to go 
groundfishing. However, a month after the vessel was purchased 
it went from being allowed to fish 88 days to 8 days and then 
the owner decided to outfit the vessel for scalloping in order 
to stay profitable.
    Although fishing is clearly one of the riskiest 
professions, this tragedy illustrates the tensions and the 
pressures fishermen are under in today's fishery management 
environment. We must be cognizant of these facts as we go 
forward and recognize that we need management to work with 
fishermen as well as the fish.
    The bottom line is I am committed to working with my 
colleagues to strengthen fishery managers' abilities to achieve 
economic and ecological balance. I believe that we must clarify 
that rebuilding does not have to be done in ways that result in 
such drastic upheaval of fishery-dependent communities. We need 
a flexible, common sense, reasonable approach that preserves 
the fishermen as well as the fish.
    Let me be clear. I fully expect at the end of this process 
that this fishery will return to full council control. The cost 
of adopting any one of the four current proposals is too high. 
Neither Maine, the New England groundfish industry, nor the 
Nation will benefit. Our groundfishermen deserve better than 
these four proposed alternatives. I want to convey to you the 
urgency of the situation and I am looking for a commitment from 
you, Dr. Hogarth, in the limited time that we have to implement 
Amendment 13 that you will do everything you can to act in 
accordance with the Congressional intent and to use the 
flexibility that Congress has granted your agency.
    I thank you for being here and I am looking forward to your 
testimony and responses to our questions.
    I see a number of my colleagues. I know Senator Sununu has 
to go to another hearing, so I will recognize Senator Sununu.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you very much, Madam Chair. Thank you 
very much for convening this hearing and for your excellent 
opening comments that I think very accurately, very succinctly, 
have got to the heart of the matter, the issue that we are 
trying to deal with today.
    I ask unanimous consent that my written statement be 
included in full.
    Senator Snowe. Without objection, so ordered.
    [The prepared statement of Senator Sununu follows:]

              Prepared Statement of Hon. John E. Sununu, 
                    U.S. Senator from New Hampshire
    I thank Chairwoman Snowe for calling this hearing.
    The subject of today's hearing is of vital importance to the 
fishing interests in the New England area. In the next few weeks, the 
New England Fisheries Management Council is scheduled to make critical 
decisions that will have a significant impact on the fishing industry 
in New England. To be clear, the Council's November 4th to 6th meeting 
and resulting decisions will have a direct impact on the future of the 
fishery, the livelihoods of countless fishermen, the sustainability of 
the fishing industry, and the economic vitality of the surrounding 
region. In some respects, the Members of the Council are being asked to 
choose the least harmful options to inflict painful consequences on 
their neighbors, friends, and fellow citizens.
    The reason the Council is being asked to make these decisions rests 
squarely with the provisions of the Magnuson-Stevens Act, as amended by 
the Sustainable Fisheries Act of 1996. Many Members of this Committee 
played a role in constructing the provisions of the statute and 
hopefully will provide insight into Congressional intent. I was not in 
Congress during the crafting of that statute, but I have closely 
followed, and have been engaged with, the implementation of law since 
its inception.
    One of the fundamental premises of the Sustainable Fisheries Act 
was the need to eliminate overfishing and return fisheries stocks to 
healthy levels. This is a sound concept and a necessary goal. For too 
long, fish stocks were looked upon as an unlimited resource; fishermen 
focused upon maximizing their catch and profits. This produced a 
negative correlation: the harder the fishermen worked the less resource 
available. Stocks were unable to recoup from staggering catch and 
bycatch levels. Fortunately, this has not been the perspective of the 
fishermen in the New England region for many years.
    Fishing is an important component of our communities and culture in 
many parts of New England, including the Seacoast of New Hampshire. 
While it is true that the New Hampshire fishing fleet is smaller than 
some neighboring states, fishing is historically ingrained in our 
seacoast communities and has a significant bearing on the character of 
those communities. Fishing in New Hampshire is primarily done with 
small boats and small crews intent on earning a sustainable income for 
their families. We all should recognize that fishing is not a luxury 
profession filled with high paying jobs and easy hours. It is a 
difficult livelihood filled with adversity, and it is not for the faint 
of heart. But fishing brings many rewards to both the New Hampshire 
fishermen and their communities. The small boat nature of the fishery 
represents an entrepreneurial identity that cannot be measured by 
economic analysis. Given this, it is all the more important that we not 
summarily dismiss or overlook the concerns of our fishermen as they 
face the consequences of new fishing restrictions.
    By all accounts the New England fishery is slowly and steadily 
improving. The fishery is experiencing significant increases in the 
stock levels of many species. Credit should and must be given to the 
hard steps that have already been taken by the fishermen of that area. 
It is accurate that some species have not rebounded to desired levels. 
I agree that more work needs to be done. However, the fishermen I speak 
with on a regular basis recognize that a healthy fishery provides 
greater levels of catch, which will benefit consumers and the long-term 
interests of fishermen. They are willing to take the tough steps to 
improve and strengthen the fishery. The difficulty occurs, however, 
when fishery management techniques are imposed to address the depletion 
of the resource that occurred in the past, perhaps a generation or two 
ago; to rebuild the stocks to historic or perhaps prehistoric levels 
all in a matter of a narrow time frame; or to enact stringent 
requirements that effectively eliminate the ability of many fisherman 
to continue.
    In August of this year, I visited the Portsmouth Fisherman's 
Cooperative and heard firsthand from the local fishermen on the 
potential devastating impact of the new restrictions proposed by the 
Council through Amendment 13. The concerns outlined significant 
consolidation and bankruptcies were in store for the fishing community 
of New Hampshire due to the impact of the newly proposed restrictions. 
From their perspective the end result of the restrictions would be the 
domination of the New England fishery by a few large fishing entities 
and the collapse of the fishing infrastructure and secondary 
industries.
    Amendment 13 is an effort by the Council to bring fishing behavior 
or practices in line with the goals and requirements of the statute. 
Unfortunately, Amendment 13 is not being driven by an orderly process 
that recognizes or balances this effort with the need to maintain a 
viable fishing community, as the statute requires. Instead, Amendment 
13 is being driven by the court system and by an interpretation of the 
law by the Federal District Court for the District of Columbia, which 
seems to place some priorities of the statute at a higher value than 
others. In my opinion, the statute is being read without context, 
without a view of what the potential decisions will have on the 
fishermen, without a view of reality or a view of necessity. Most 
important, the statute is being read with complete ignorance of the 
obligation ``to take into account the importance of fishery resource to 
fishing communities. . .'' as required by National Standard 8. There 
also seems to be lack of consideration given to the phrase ``to the 
extent practicable'' which is explicitly provided in a number of the 
National Standards within the Act.
    Significant questions have been raised regarding the underlying 
science and assumptions used to build Amendment 13. It has always been 
my position that fishing management decisions must be based on the most 
accurate and sound science available. Clearly, all parties involved try 
to use the data to reflect their position. This does not mean, however, 
that all the complex mathematical formulations and extrapolations used 
for Amendment 13 are accurate. To the extent that there are 
discrepancies in the data presented by different interest groups, we 
must take our time to determine the correct course of action. It makes 
no sense to proceed on a path built on faulty predictions.
    This notwithstanding, the fishing industry has tried to come to 
agreement on how best to alter the options presented in the draft 
Amendment 13 document by the Council. New proposals were presented to 
the Council last week at the close of public comments. These proposals 
reflect a deep commitment by the industry to try to find a workable 
solution, in many instances, within the tough parameters of Amendment 
13. In some instances, the fishing community sought revisions in the 
assumptions and targets that went into the draft document. I believe 
that the Council, and subsequently the National Marine Fisheries 
Service (NMFS), should give these proposals serious consideration. I do 
not accept the premise that the options provided in the draft document 
are written in stone. Accordingly, I fully support the concept that the 
Council is free to mix and match from the various options, and 
potentially others, to craft the most optimum solution. I also expect 
some significant flexibility by the Council and NFMS regarding 
consideration and potential adoption of the industry proposals. A rigid 
viewpoint is not helpful to their cause, will not help the fishermen, 
will not help the fishing resource, and will likely cause an immediate 
reaction from Congress.
    In the coming months, I plan to examine the decisions of the 
Council and NFMS on Amendment 13. Clearly, the court case has placed 
the Council and NMFS in a difficult situation. To the extent these 
entities are forced to approve a plan that will have the effect of 
devastating the fishermen of New England or will lead to the 
elimination of our small boat fleet, I will consider all options. For 
instance, there seems to be some question as to the magical reverence 
provided to the 10 year time frame contained in the Act. It seems 
feasible to consider extending this time frame for a few years if doing 
so will protect the fishing communities in New England, while not 
undermining the goals of the Act. This may provide sufficient 
transition time without causing massive consolidation by the industry. 
There also needs to be review of the National Standard 8 as it 
interacts with NS 1. The testimony of Dr. Hogarth raises additional 
questions regarding the value or effectiveness of NS 8.
    Again, I thank the Subcommittee Chairman's leadership on this issue 
and look forward to working with her and other Members of the 
Subcommittee on this issue in the future.

    Senator Sununu. Thank you very much, Administrator Hogarth, 
for being here as well.
    Fisheries are tough issues, very tough issues, because they 
deal with an intersection of economic needs that are very 
sizable and very important to many of the States represented 
here, but really for the entire country. It is a multi-billion 
dollar industry. We have environmental needs and the concerns 
of the fisheries. There we have heard some promising news 
recently with the rebuilding of many of the groundfish stocks.
    We have community needs and cultural needs. The social 
fabric of a lot of cities and towns on the Eastern Seaboard and 
all around the country really depend on the livelihood of these 
fishermen for their vibrancy and for their growth. We need to 
work to deal with all of these interest groups and 
stakeholders, and I think it is important to recognize, to 
begin with the recognition, that Magnuson-Stevens does just 
that, tries to strike that important balance. And as we work to 
apply Amendment 13 we need to focus on striking a balance 
between these different interest groups. We need to be sure 
that what is being applied is consistent with Congressional 
intent.
    If we look at the statute, if we try to be fair-minded 
about the statute and fair-minded about the impact that some of 
these proposed regulations will have on communities, I think we 
will see that we need to do a better job of balancing the 
various interests and being flexible in ensuring that we meet 
Congressional intent.
    New Hampshire is largely a small boat community. Our 
fishing community, our business owners, are entrepreneurs. What 
they are looking for first and foremost is a little bit of 
consistency and fairness in dealing with the application of 
Amendment 13. I think they have been frustrated with some of 
the rigid and doctrinaire approaches to applying this Amendment 
13.
    I have seen recently some optimistic, encouraging 
statements from the Administrator and others to try to work 
more flexibly among the four options that are offered, to try 
to work out an alternative arrangement that might be more 
consistent in dealing with Congressional intent. We need to 
work together to apply whatever formulation comes out of the 
work of the Administrator's office and the New England 
Fisheries Management Council. But I think we can do a much 
better job in recognizing the importance of these fishing 
communities to their culture, to their local economy, and to 
the vibrancy of our national economy as well.
    Again, Madam Chair, I thank you for your leadership and I 
appreciate the time of Mr. Hogarth here today.
    Senator Snowe. Thank you, Senator Sununu, for your 
statement.
    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Senator Snowe.
    When Senator Magnuson and I devised the act that is named 
after the two of us, we envisioned that there would be 
differences in management throughout the country and the areas 
off the shores of our country because of the different 
circumstances. We have a different problem in the North Pacific 
as you have, from what you have in New England. We have an 
overabundance of fishery resources and you have those that have 
been suffering and have been shut down.
    I think when we look at the two, however, the problem they 
both face is this overabundance of litigation from various 
groups that are not involved in the fishery at all. I think 
there is a concerted effort now by what I call the extreme 
environmental groups to shut down commercial fishing off our 
shores.
    The new Pew Commission--it is called the Pew Oceans 
Commission Report--recommended increased Federal oversight and 
wants to establish a network of marine reserves or no-take 
zones in U.S. waters. Those would not be decided by the 
councils. They would be decided by the Pew Commission. When we 
look at it, what we have is a situation where your fishing 
stocks have increased substantially, but these new regulations 
are being implemented and Dr. Hogarth is forced to make them 
even more strict because of excessive litigation where a single 
Federal judge decided that he or she is going to take on the 
management of fisheries off our shores.
    I think we have to take a good look at how much we allow 
the courts to listen to the environmental community as opposed 
to Dr. Hogarth listening to the scientific community. We have 
listened to the scientific community off Alaska and the North 
Pacific and we now have, our stocks are increasing. They are 
increasing in substantial numbers. Yet the litigation is also 
increasing to try and cut back commercial fishing.
    I am sure that you have your problems. We lost several 
boats and one crewman in the crab fishing just this last month. 
You lost a boat not too long ago.
    Senator Snowe. Yes, we did.
    Senator Stevens. I really think that what we need to do is 
to sit down with Dr. Hogarth--and I understand your feelings 
about it because sometimes we have sort of a tendency to blame 
the people who are writing the regulations rather than blaming 
the people that are moving the pen. The people moving the pen 
are the Federal judges. I really think something has to be done 
to make certain the Federal judges listen to the scientists too 
and not the environmental litigants who make money off of 
excessive litigation.
    I do hope that as we go through this hearing everyone will 
realize that there are unique fishing management plans. The one 
for New England would not fit the North Pacific and vice versa. 
As a matter of fact, neither one of them would fit the area off 
of Senator Lott's shores or the areas off of Oregon, 
Washington, and California. They are designed by people in the 
area and by scientists who know the area and working with the 
National Marine Fisheries Service to find a way to achieve the 
objective of the Magnuson-Stevens Act, and that is to protect 
the reproductive capability of the fisheries off our shores, 
not the fishermen and not the consumer and not the 
environmentalists, but to protect the reproductive capability 
of the fisheries.
    If we do that, we will have a sustainable commercial 
fishery off our shores forever. But the difficulty is--look at 
the litigation we face on the Steller sea lion. Thank God you 
and others and Senator Lott helped us to try and prevent that 
judgment going further. He wanted to shut down fishing from 
Cordova to the end of the Aleutian chain--that is like from Key 
West to Canada on the East Coast--in order to protect the 
Steller sea lion, based upon the assertion of the 
environmentalists, when the scientists have found that the 
problem was not what the environmentalists asserted, and that 
was that the fishermen were taking the food supply of the 
Steller sea lion.
    I hope that in this hearing--I have to go to the conference 
on the military construction appropriations bill and I do not 
want to take any more of your time. But I do think we have to 
slow down and find some way to deal with excessive litigation. 
I have been a lawyer now for over 50 years, but there are 
lawyers out there who raise money from the public, use that 
money to pay their own fees, and go out and file more suits 
against the commercial fishing industry. That is a vicious 
circle. Even when they lose, they get some award of attorneys 
from the Federal court, attorney's fees from the Federal court.
    I think our problem is to deal with--by the way, 
incidentally, I think, left alone, Dr. Hogarth and his people 
would find a way to recognize the needs of New England and to 
allow some fishing to start in the areas where there is a 
substantial increase in population. But when you have the 
difficulty of the litigation, that holds them up. In one 
instance where they were issuing regulations by the year it was 
taking 18 months to pursue the litigation. We never did get 
around to regulations.
    I hope that the hearing is productive from your point of 
view. I hope it will signify to everyone that it is time that 
we recognize that what we need is a balanced review of the 
programs and plans of regional councils from the point of view 
of sufficiency for their area and not how they compare to other 
areas in the country or how they compare to the plans that have 
been devised by people who have other objectives, such as the 
Pew Commission.
    Thank you very much.
    Senator Snowe. I thank you, Senator Stevens, for your 
comments and for taking the time to be here today despite your 
busy schedule. There is no one that knows more about the 
fisheries as the author of the Magnuson-Stevens Act. Senator 
Stevens, I appreciate your comments and they are certainly 
legitimate and valid with respect to the extremely litigious 
nature that we are involved in in the environment concerning 
the fisheries. That is obviously something that we face in 
managing our fisheries. Something that we have to explore with 
Dr. Hogarth here today is how we can avoid that in the future 
in implementing the Act.
    Senator Lott.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Madam Chairman. He has left the 
room now, but I want to join you in thanking Senator Stevens 
for what he has done for the fisheries industry in America over 
the years. He has been a real leader, and he has looked at all 
aspects of it, including the need to be careful how we fish our 
species and that we have proper management. He has just been a 
great leader.
    I appreciate you having this hearing. Administrator 
Hogarth, we appreciate your being here to give us a chance to 
hear from you, but a chance for you to hear from us.
    I represent the other fisheries area, otherwise known as 
the stepchild sometimes with regard to the National Marine 
Fisheries application of the laws and the funds. Now, I might 
get disagreement from the Senator from Maine or the Senator 
from Alaska, but as a matter of fact we have a lot of common 
interests and I have over the years tried very hard to get you 
and your predecessors to give some equal consideration to the 
importance of the industry in the Gulf of Mexico.
    I want to work, as I have, with Senator Snowe on her needs 
and feelings in the Northeast, and you certainly cannot ignore 
whatever it is Senator Stevens wants to do up there in the 
Northwest. But I do feel like sometimes we have gotten the 
short end of the stick when it comes to attention from the 
National Marine Fisheries.
    I would remind you and everybody else, this is the Bush 
Administration, he is from Texas and he is on the Gulf of 
Mexico, and so it might be a good idea to pay a little more 
attention to the region as a matter of fact.
    I have discussed a lot of my concerns here with you and I 
will not repeat them all, but I will just touch on them 
lightly. Obviously, I have become very concerned about the loss 
of balance in the fisheries management councils, particularly 
in the Gulf of Mexico. The council has just become totally 
dominated by sports fishermen and by so-called 
conservationists, and commercial fishermen and women have been 
pushed aside and we have had a hard time, not all your fault or 
the Secretary's fault. The Governors have not been giving us a 
good list of nominees to choose from.
    But there needs to be balance. I want to make sure that 
sports fishermen are well represented on these management 
councils. I guess I am one and all my neighbors are. The 
problem is they do not, my neighbors do not, want the 
commercial fishermen out there making a living, messing up the 
waters where they can go out in their yachts and fish. So I do 
not share that point of view. I think that commercial fishermen 
deserve equal representation on these management councils, 
particularly in the Gulf.
    Now, it got down to, I think, it got down to 3 in the Gulf 
commission out of 11 secretarial appointments. Working with you 
and working with the Secretary, we did add one more, so we are 
now up to four. But that number needs to be at least five, and 
I want you to continue to work with me on that. In fact, I feel 
very strongly that we should have legislation that ensures that 
the Governors in the Gulf States submit balanced council 
nominations, and if they do not to give the Secretary some 
option. I have been working with Senators Hutchison, Breaux, 
and Nelson to find a way to address the problem there.
    When I was practicing law in that little fisheries 
community Pascagoula, Mississippi, in 1967, the senior partner 
of my law firm was also a marine surveyor and he did the marine 
survey work on the Oregon II. Well, 35 years later the Oregon 
II is still the main vessel in the Gulf of Mexico for fisheries 
research. I mean, are we ever going to get any help? Are we 
ever going to get a new vessel? I mean, it is unbelievable: in 
America today, as important as this industry is in the Gulf of 
Mexico, we are dependent on a 35-year-old fisheries vessel.
    Yet when we tell the National Marine Fisheries that we have 
to have new fisheries research vessels and we can build them 
and that we need some shallow draft versions in order to get 
into the areas where the research has to be done in the Gulf of 
Mexico, you would think we were trying to steal the king's 
jewels. What we have seen happen is the first of the four--two 
of the four planned vessels, one went to Alaska, one went to 
New England. Ted is happy, Olympia is happy.
    Senator Snowe. It is funny how that works.
    [Laughter.]
    Senator Lott. We have got two more and we are being jerked 
around, saying the third might go somewhere else and the fourth 
might go somewhere else. I want to urge that we get the third 
RV while we work to get the shallow draft later on. I realize 
maybe being third out of three, but when you are fifth out of 
three it hurts a little bit. I hope that you will pay attention 
to this need here.
    We also need to maintain the Administration's funding 
support for the red snapper research, seafood inspection, Gulf 
shrimp product quality and marketing, the Gulf oyster 
initiative, and other important Gulf fisheries programs. The 
turtle excluding device continues to be a ridiculous thing that 
is causing all kind of problems for our beleaguered shrimp 
fishermen. There is no real help offered to them to assist them 
with having to comply with these turtle excluding devices.
    Also, we are now having serious problems from imported 
farm-raised shrimp that put the industry on the brink of 
bankruptcy. Again, we get a blank stare: Oh, really? You have a 
problem?
    So I think that the National Marine Fisheries needs to 
engage actively to look at what is happening to the shrimp 
industry in the Gulf of Mexico. We need to get the Gulf red 
snapper IFQ referendum going to give the Gulf fishermen a voice 
in not only whether to have the IFQ program, but also a voice 
in what kind of program it is going to be.
    Also, we need to go forward with the Atlantic billfish 
research. You and I have talked about that. We need to make 
sure that research is done by National Marine Fisheries 
Services to strengthen the position on these international 
negotiations and not allow this to get into hands that will not 
really do the work in a cost-effective way.
    So these are just a few issues I wanted to mention to you. 
I hope that we can work with you and I want to support the 
industry, but unless we can get more help in the Gulf of Mexico 
I am going to have to reevaluate my whole attitude about the 
National Marine Fisheries department, administration.
    Thank you, Madam Chairman.
    Senator Snowe. Thank you, Senator, for your outstanding 
statement. You make some excellent points, and certainly the 
fisheries in the Gulf of Mexico should get due consideration.
    With respect to the research vessels, that is a fundamental 
issue, that we need to be appropriating more resources for the 
purposes of research. That would enable us to validate some of 
the rationale and the reasoning for the ultimate regulations 
that affect the industries, and that has been a serious 
problem. We have been extremely deficient in that regard and we 
need to do considerably more. So you make a great point.
    Dr. Hogarth, you have heard a breadth of concerns here. I 
do not know where you want to begin. Your statement will be 
included in the record, but I think that there are a variety of 
concerns and a depth of concern about some of the issues that 
we need to address.
    I appreciate your being here today. I know you were at the 
Council meeting yesterday in New England. I would also 
appreciate your comments on that and what your perspective on 
what they will be attempting to draft in response to Amendment 
13. So welcome, Dr. Hogarth, and you may begin.

               STATEMENT OF DR. WILLIAM HOGARTH,

             ASSISTANT ADMINISTRATOR FOR FISHERIES,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Hogarth. Thank you, Madam Chairman, Senator Lott. It is 
always nice to come and talk fisheries. I think the U.S. has a 
great fishery. It adds about $60 billion to the gross national 
product. I am really concerned that we do have to manage it 
more as a business and we are looking forward to trying to do 
that.
    I have submitted a written statement, but I would like to 
take the opportunity to highlight a few points concerning 
Amendment 13, which was brought up. I am very much aware of the 
importance of this historic fishery both to the fishing 
communities of New England and to the Nation. I am committed to 
seeing it rebuilt.
    The council voted in its July 2003 meeting to approve 
Amendment 13. The comment period ended on October 15, 2003, and 
we are now working with the Council to try to meet the court-
ordered date of May 1. I do not think we have much choice but 
to meet that date. Although many of the 19 stocks of the New 
England groundfish fishery have been rebuilding steadily in 
recent years, several stocks remain at very low levels. 
Overfishing is still occurring on eight of the stocks and 
current fishing mortality rates in some of these eight stocks 
are more than twice the level that defines overfishing.
    I believe that there is a reasonable range of alternatives 
proposed in Amendment 13 and we have worked with the Council to 
find creative solutions to difficult problems within the scope 
of the law. During the development of Amendment 13 we explored 
with the Council such ideas as reinitiating the rebuilding 
times starting in 2004 for 10 years, the use of FMSY targets 
rather than F-rebuild targets in the beginning years of the 
plan. We have also assisted the Council in the development of 
an adaptive rebuilding strategy.
    Our objective is, was, is and will be to support the 
Council in developing a workable management regime for this 
fishery that will restore it to its full potential by 
minimizing adverse impacts on the industry and fishing 
communities that depend on them.
    Some critics of the four existing alternatives to the draft 
Amendment 13 document believe that the proposed measures were 
crafted solely to address National Standard 1 at the expense of 
other national standards, particularly National Standard 4 and 
National Standard 8. The analysis and alternatives on Amendment 
13 do address impacts on fishing communities, as required by 
National Standard 8. The relative priorities of National 
Standard 1 and National Standard 8 have been clarified in the 
guidance language of the statute, the regulatory guidance, and 
recent litigation. We have many recent court decisions dealing 
with National Standard 8 challenges that have concluded that, 
while NOAA Fisheries is required to comply with National 
Standard 8 guidelines, such compliance cannot compromise the 
achievement of conservation requirements and goals in the 
fisheries management plan as required by National Standard 1.
    In other words, if all things are equal we do choose the 
alternative that has the least economic impact, but the 
national standard guideline to rebuild and stop overfishing 
takes precedence over the economics.
    All our constituents have engaged in the debate over 
potential economic impacts of Amendment 13. Some have suggested 
that the projected long-term economic benefits that will result 
from the rebuilt stocks do not justify the short-term 
sacrifices. In our view, the need for a substantial reduction 
of fishing efforts to achieve the rebuilding targets and 
timetables is indisputable. Lower levels of fishing effort are 
necessary to end overfishing on some stocks, to rebuild the 
fisheries, and to create the conditions for increased revenues 
and improved economic viability in future years. Only with 
recovered and sustainable resources can we ensure and stabilize 
the fisheries infrastructure and participation.
    The economic benefits associated with the alternatives in 
Amendment 13 are substantial. Average annual revenues will be 
$30 to $40 million higher than under the no-action alternative. 
Projected revenues would be greater than revenues reported in 
2002, as will the projected landings. Finally, sustained U.S. 
groundfish landings will increase threefold to over 320 million 
pounds.
    Amendment 13 has a wide range of management alternatives 
that were developed over the course of several years. Four 
rebuilding alternatives were on the table and they included 
several options under each one. It may be possible for the 
Council the consider a new alternative during the public 
hearing and comment period so long as the alternative is within 
the information and analytical framework of the DSEIS, the 
draft environmental impact statement, and it meets the 
fisheries management and conservation goals of the fisheries 
Management Act.
    Finally, I would suggest we all need to think more 
creatively about the overall direction in which we would like 
to see the New England groundfishery move in future years. What 
is our vision of this traditional fishery to look like in 10 
years or 20 years? Should it be a much smaller fishery with 
fewer but more economically viable vessels? Or should it be a 
fishery in which a large number of smaller boats operate and 
all or most of the ports continue to participate at or near 
historical levels? And what are the most appropriate means for 
accommodating recreational and conservation interests in the 
fishery?
    Depending on the answers to these questions and their 
vision of the future, long-term remedies could include a wide 
variety of programs, such as limited entry, IFQs, cooperatives, 
community-based arrangements, trading and leasing of effort 
quotas, and vessel buyouts. The alternatives and options under 
Amendment 13, while critically important, probably do not 
provide the complete long-term answer.
    We will continue to work with the council, the States, and 
all of our constituents as we address these issues.
    To add onto this provided testimony, because I went to the 
hearing yesterday, I would just like to add a statement based 
on that. I had a series of constituent meetings over the last 
few months and while I was doing this I took the opportunity to 
hold a special session at the request of the Northeast Region 
and the fishermen. In fact, Acting Science Director John 
Boreman met with me and representatives of the New England 
groundfish fishery.
    At this meeting we encouraged the industry to get together 
and develop an alternative of their own. We felt like that 
through the four alternatives that there was a lot of leeway in 
there and we asked them to go out and try to devise an 
alternative that met what they felt like met the rebuilding 
goal, but also would maybe be better for the industry itself.
    Yesterday I attended the New England Council's special 
meeting and encouraged the Council to keep an open mind and 
consider industry proposals. I understand that there are four 
proposals that they looked at yesterday and I am happy to 
report that the Council did so and I am encouraged by the 
council's actions and their willingness to be flexible as we 
move through this difficult but important process. I know at 
least one of the fishermen's proposals has been sent to the PDT 
to be looked at further in preparation from the November 
meeting. So I am hoping that the flexibility built in here will 
maybe give us a better answer than the four alternatives that 
we have on the table.
    Thank you.
    [The prepared statement of Dr. Hogarth follows:]

  Prepared Statement of Dr. William Hogarth, Assistant Administrator, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
    Good morning, Madame Chair and Members of the Committee. I am Dr. 
William T. Hogarth, Assistant Administrator for NOAA's National Marine 
Fisheries Service (NOAA Fisheries). I appreciate this opportunity to 
discuss the Magnuson-Stevens Act National Standards and recent 
developments in the Federal management of New England groundfish. I am 
very much aware of the importance of this historic fishery, both to the 
fishing communities of New England and to the Nation, and I am 
committed to seeing it rebuilt to its full potential.
    There are several issues that I will cover in my testimony, 
including NOAA Fisheries' overall implementation of the National 
Standards, as well as the application of the National Standards 
relative to the development of Amendment 13 to the Northeast 
Multispecies Fishery Management Plan (FMP). This amendment is being 
developed by the New England Fishery Management Council (Council) to 
bring the FMP into compliance with the Magnuson-Stevens Act, and to 
rebuild the groundfish stocks in New England. I will also discuss other 
issues that have been raised throughout the public discussion of 
Amendment 13.
The Sustainable Fisheries Act (SFA) Amendments and the National 
        Standards
    NOAA Fisheries has made a major and sustained effort over the last 
6 years to implement all aspects of the 1996 SFA amendments to the 
Magnuson-Stevens Act, and I believe that we have succeeded in bringing 
our regulations and fishery management plans into conformity with 
Congressional intent. Some of the most important changes brought about 
by the SFA were: (1) stricter provisions relating to overfishing and 
rebuilding of overfished stocks; (2) requirements to reduce bycatch; 
(3) new requirements regarding essential fish habitat (EFH); and (4) 
the addition of three new National Standards.
    With the passage of the SFA, there are now 10 National Standards in 
the Magnuson-Stevens Act, all of which must be carefully considered in 
the development and approval of any fishery management action taken 
under the authority of that Act. However, several of the National 
Standards--National Standard 1 (NS1), National Standard 4 (NS4), and 
National Standard 8 (NS8)--are of particular relevance to issues that 
have been raised publicly in the Council's development of Amendment 13, 
and I will focus my remarks on those.
    During the last several years, NOAA Fisheries has expended 
considerable effort in reviewing and updating the guidelines for 
applying the National Standards to ensure that they are useful, clear, 
and consistent with requirements of the Magnuson-Stevens Act. NOAA 
Fisheries began a review of NS1 in the spring of 2003, and requested 
public comments on the need to clarify or modify the guidelines. NS1, 
which addresses overfishing and optimum yield, is a critical provision 
that guides the development and approval of decisions in all of our 
fishery management actions. The February 2003 advance notice of 
proposed rulemaking (ANPR) that was published in the Federal Register 
expressed our willingness to reconsider the NS1 guidelines in several 
important respects, including (1) the appropriate use of minimum stock 
size thresholds, (2) the inclusion of environmental conditions in 
determining rebuilding targets, and (3) the calculation of rebuilding 
timeframes for overfished stocks. As noted in the ANPR, the National 
Standards have not changed since the passage of the SFA; we seek only 
to clarify, simplify, and amplify our guidelines, as appropriate. NOAA 
Fisheries is also studying the need for changes in the NS2 guidelines. 
NS2 requires the use of the ``best scientific information available,'' 
and a formal review by the National Research Council (National Academy 
of Sciences) is currently underway.
    During the recent public hearings on Amendment 13, many comments 
have referred to NS8, which addresses impacts of management measures on 
fishing communities. This standard has also been the subject of much 
recent study and review, and I believe that NOAA Fisheries is in a much 
better position now to assess the impacts of management actions on 
fishing communities than we were in the years immediately after passage 
of the SFA. We have bolstered our social science program, improved the 
collection of social and economic data, and have conducted training and 
workshops on how best to assess the impacts of management measures on 
small business entities and fishing communities.
    At the same time, we acknowledge that data limitations have the 
potential to affect the robustness of our socio-economic analyses. A 
general and persisting problem is the lack of adequate, up-to-date, and 
comprehensive information, particularly fishery and fishery dependent 
community economic and social data. For example, we do not have 
adequate information on the costs and earnings of fishing and 
processing operations. Statutory restrictions still protect 
confidential and proprietary business information and processors' 
economic data. Although we have worked hard to do a better job in this 
area, without this information, a more thorough analyses of the socio-
economic impacts on fishermen and their communities will be difficult 
to develop.
    As evidence of the progress NOAA Fisheries and the Councils have 
made in implementing the SFA and complying with all of the National 
Standards, we now have approved rebuilding plans in place for 
practically all federally managed fisheries that require them. In the 
last several years, the overall trends in stock biomass have been 
positive, and overfishing has been ended for 26 stocks. Notably, some 
of these successes have occurred in federally managed fisheries that 
significantly affect fishermen in New England: Silver hake in the Gulf 
of Maine and northern Georges Bank have been rebuilt; Georges Bank and 
Mid-Atlantic scallops have recovered impressively; North Atlantic 
swordfish is no longer overfished; Gulf of Maine haddock is no longer 
being subjected to overfishing; Atlantic pollock has shown significant 
improvement; and the summer flounder fishery has rebounded. Over the 
past 6 years, the implementation of rebuilding programs, as required by 
the SFA, has yielded very tangible benefits to the New England region, 
as well as to other regions of the country. I am confident that fishery 
management works.
Background on Amendment 13
    As I am sure you are aware, NOAA Fisheries has been involved in the 
Conservation Law Foundation (CLF) et al., v. Evans et al., litigation 
regarding the management of the New England groundfish fishery for 
several years. After a ruling in favor of the Plaintiffs in December 
2001, the U.S. District Court for the District of Columbia (Court) 
ordered the parties to engage in discussions to address issues relating 
to the remedial phase of the litigation. In an effort to respond to the 
Court's requirements, NOAA Fisheries entered into a Settlement 
Agreement with a majority of the parties to the lawsuit. The Settlement 
Agreement, which was ordered to be implemented by the Court, requires 
NOAA Fisheries to implement a series of interim rules to reduce 
overfishing on groundfish stocks in the short term. In addition, the 
Settlement Agreement calls on NOAA Fisheries to work with the Council 
in its development of Amendment 13, for managing the New England 
groundfish fishery in the long term. NOAA fisheries quickly put in 
place the interim measures necessary to reduce overfishing while 
Amendment 13 was being fully developed by the Council. Through that 
timely action, we brought fishing mortality down and reduced latent 
effort in the fishery, which made good progress in stabilizing the 
fishery. Without such action, the measures in Amendment 13 would have 
had to reduce fishing mortality even more.
    The Council voted at its July 2003 meeting to approve the Amendment 
13 document, including the Draft Supplemental Environmental Impact 
Statement (DSEIS), to go out for public comment. Public hearings were 
completed on September 30, 2003, and the public comment period closed 
on October 15, 2003. The Council and NOAA Fisheries are on track to 
meet the May 1, 2004, Court-ordered implementation deadline. It is 
imperative that we continue to support the Council in its effort to 
complete Amendment 13, to meet the terms of the Court order and to 
continue the rebuilding of the New England groundfish stocks.
    I am very proud of the efforts that the Council and NOAA Fisheries 
have made in working on this very complex and important amendment. The 
fact that we are still in a position to meet the deadline is a 
testament to the hard work that many, many people, including members of 
the affected public, have contributed to this process.
Condition of the New England Groundfish Fishery
    Although much of the New England groundfish fishery, consisting of 
19 managed stocks, has been rebuilding steadily in recent years, 
several stocks remain at very low levels. Overfishing is still 
occurring on 8 of 18 assessed stocks, and current fishing mortality 
rates for some of these stocks are more than twice the level that 
defines overfishing.
    Had more effective management actions been taken in the mid-1990s 
to end overfishing and start the rebuilding of all of the overfished 
groundfish stocks as required by the SFA, the current situation would 
not be quite so difficult. Important progress has been made in the last 
several years, but that progress has been somewhat uneven. Although 
catches from the entire groundfish complex increased by 40 percent from 
1996 to 2002, catches of the 10 stocks that are not currently 
overfished increased by 132 percent. In contrast, catches of the 8 
stocks that are still overfished increased by only 3 percent during 
that time. In other words, virtually the entire increase in groundfish 
catches over that period was driven by improved harvests of the 10 
stocks that are no longer subject to overfishing. During the same 
period, the aggregate biomass of these 10 stocks increased threefold, 
while the biomass of the stocks that were still overfished increased 
much more slowly.
    If overfishing of all groundfish stocks had been eliminated 
earlier, consistent with the SFA, the landings and biomass of the eight 
overfished stocks would have increased significantly compared to 
current levels. This is supported by the increases in spawning stock 
biomass and yield per recruit that have resulted from reduced fishing 
mortality rates, and from improved fishing selection patterns that have 
resulted from larger minimum mesh sizes and other gear modifications. 
Due to better management, most stocks for which overfishing was 
eliminated have experienced significant improvement in recruitment, 
which is critical for allowing them to rebuild to their full 
potentials. Since these are living resources that are being managed, it 
will take time and additional short-term reductions in fishing effort 
to reach these rebuilt levels. However, I am confident that once the 
fishery is managed consistent with the requirements of the Magnuson-
Stevens Act, the expected long-term gains can be achieved. Our economic 
analyses clearly demonstrate that such rebuilding will be beneficial to 
the fishing communities that depend on the groundfish fishery.
Balancing the Goals of the National Standards
    Amendment 13 is intended to achieve statutory rebuilding targets 
and deadlines, to reduce bycatch in the New England groundfish fishery, 
to consider and address any adverse impacts of fishing on EFH, and to 
conform with all of the other provisions of the Magnuson-Stevens Act 
and other applicable law. Any proposed conservation and management 
measures must be consistent with all 10 of the National Standards to be 
approvable under the Act.
    I believe there is a reasonable range of alternatives proposed in 
Amendment 13. We have worked hard with the Council to find creative 
solutions to difficult fishery problems within the scope of the law. 
During the development of Amendment 13, we explored with the Council 
such ideas as establishing the start of the rebuilding periods upon 
implementation of Amendment 13; a uniform start date for rebuilding 
periods; and the use of harvest rate targets higher than Frebuild for 
the beginning years of the rebuilding plan. We also assisted the 
Council in the development of an adaptive rebuilding strategy. Our 
objective was, and still is, supporting the Council in developing a 
workable management regime for this fishery that will restore it to its 
full potential, simultaneously minimizing the short-term adverse 
impacts on the industry and fishing communities.
    Some critics of the four existing alternatives in the draft 
Amendment 13 document believe that the proposed measures were crafted 
solely to address NS1 (overfishing and optimum yield), at the expense 
of consideration of the other National Standards, particularly NS4 
(fair allocations) and NS8 (impacts on fishing communities). As a 
result, allegations have been made that the Amendment 13 alternatives 
would create an ``imbalance'' in the administration of NS1, as opposed 
to NS4 and NS8.
    Based upon our preliminary review, the existing alternatives in 
Amendment 13 appear to be consistent with NS4. This standard states 
generally that ``(c)onservation and management measures shall not 
discriminate between residents of different States'' and, more 
precisely, deals with ``fishing privileges,'' or ``allocations.'' The 
groundfish fishery occurs off the coasts of many states but, as a 
practical matter, certain overfished groundfish stocks reside mainly in 
specific locations that are closer to some states and communities than 
to others. It is to be expected, then, that restrictive measures to 
rebuild those stocks will have the greatest impact on those nearby. 
Virtually any conservation and management measure designed to address 
overfishing must consider where and when the most benefits can be 
achieved (for example, to protect spawning concentrations, nursery 
areas, etc.). Though such measures may differentially impact fishermen 
from certain areas or ports, they do not constitute discrimination, but 
effective and necessary science-based management.
    The analyses and alternatives in Amendment 13 consider impacts on 
fishing communities, as required by NS8. The relative priorities of NS1 
and NS8 are clarified in the language of the statute, the regulatory 
guidance, and recent litigation. The Magnuson-Stevens Act states that 
implementation of NS8 must be ``consistent with the conservation 
requirements of this Act (including the prevention of overfishing and 
rebuilding of overfished stocks).'' Even more explicitly, 50 CFR 
600.345 advises that ``(d)eliberations regarding the importance of 
fishery resources to affected fishing communities . . . must not 
compromise the achievement of conservation requirements and goals of 
the FMP.'' Many recent court decisions dealing with NS8 challenges have 
concluded that, while NOAA Fisheries is required to comply with the NS8 
guidelines, such compliance cannot compromise the achievement of 
conservation requirements and goals of an FMP, as required by NS1. 
Moreover, these courts have supported NOAA Fisheries' position that, 
although the agency is required to consider the economic effects of 
management measures, the conservation requirements of NS1 should take 
precedence over the requirements of NS8. In particular, the Court of 
Appeals for the D.C. Circuit's decision in the 2000 NRDC v. Daley 
summer flounder litigation, supports this view, stating that ``the 
Service must give priority to conservation measures. It is only when 
two different plans achieve similar conservation measures that the 
Service takes into consideration adverse economic consequences.'' The 
mandate of NOAA Fisheries and the Council is to comply with NS1 by 
preventing overfishing for the long-term production of sustainable 
optimum yield from the groundfish fishery, and to do so in a way that 
takes into account the importance of these fishery resources to fishing 
communities.
    Taking decisive action on fishery management measures now, while 
minimizing negative impacts on fishing communities, is the best and 
most effective means to ensure that fishermen and fishing communities 
can function viably in the future. By contrast, any significant 
relaxation of the proposed management actions would risk postponing or 
even preventing stock recovery, thereby forgoing the benefits of a 
fully rebuilt fishery. The mandate of NOAA Fisheries and the Council, 
therefore, is to ensure that each of the National Standards is taken 
into consideration during the development of a fishery management 
action. However, NOAA Fisheries and the Council are required to do so 
in a way that does not compromise the achievement of conservation 
requirements and goals of an FMP, as required by NS1.
Economic Impacts of the Amendment 13 Options
    All of our constituents, including commercial and recreational 
users and other interested parties, have engaged in the debate over the 
potential economic impacts of Amendment 13. Some have suggested that 
the projected longer-term economic benefits that will result from the 
rebuilt stocks do not justify potential short-term sacrifices. In our 
view, the need for substantial reductions in fishing effort to achieve 
the rebuilding targets and timetables is indisputable. Lower levels of 
fishing effort are necessary to end overfishing on some stocks, to 
rebuild the fisheries, and to create the conditions for increased 
revenues and improved economic viability in future years. Only with 
recovered and sustainable resources can we ensure and stabilize the 
fishery's infrastructure and participation. But even with Amendment 13 
measures in place, under any of the alternatives, gross revenues to the 
fishery are projected to increase over their present level or to 
essentially remain the same from 2003 to 2004.
    The economic benefits associated with the alternatives in Amendment 
13 are substantial. Based on our best assessments, once most of these 
stocks are rebuilt, the average annual revenues are estimated to be $30 
to $40 million higher than under the No Action alternative. In fact, 
under all rebuilding alternatives in Amendment 13, projected revenues 
will be greater than revenues reported in 2002, the most recent year 
for which complete data is available. By 2014, sustained U.S. landings 
of New England groundfish will increase threefold, to over 320 million 
pounds. These are significant gains that will increase overall benefits 
to the New England fishing industry and coastal areas for years to 
come.
    Our economic analyses, particularly the long-term projections, 
cannot tell us which vessels and which shore-side businesses will 
continue to operate in the future. However, history has shown that, in 
spite of significant management actions that reduced groundfish 
landings, such as Amendments 5 and 7 to the FMP, vessels do continue to 
fish, and processors continue to process fish. The groundfish fishery 
is only one of several important fisheries that are supported by the 
shoreside infrastructure. Though groundfish are very important to many 
vessels, it is only one source of revenue for the majority of them. 
Therefore, while Amendment 13 may result in temporary reductions in 
groundfish activity, it will not remove all business opportunities for 
the great majority of vessels, processors, or other fishing-related 
infrastructure.
    We acknowledge the questions that have been raised regarding the 
quality of our economic analyses and projections of long-term economic 
impacts and are seriously considering initiating an independent peer 
review to examine and comment on the quality, reliability, and 
comprehensiveness of the economic analyses. I would be happy to report 
to Congress as soon as we decide how best to carry out this independent 
review.
Another Alternative Under Amendment 13?
    Amendment 13 currently includes a wide range of management measures 
that were developed over the course of several years. Four rebuilding 
alternatives are included in the Amendment 13 public hearing document:

        1. Reductions in fishing effort, i.e., days-at-sea (DAS) 
        allocated; 2. Combined reductions in fishing effort (DAS), 
        additional restrictions on gear, and a hard Total Allowable 
        Catch (TAC) limit; 3. Area management, focusing the most 
        restrictive measures on specific areas (e.g., inshore Gulf of 
        Maine or Western Georges Bank), including hard TACs; and 4. 
        Hard TACs as the primary measure.

    In summary, the first alternative relies on effort management 
through restrictions on DAS. Alternatives two through four make use of 
hard quotas as either the primary management measure or as a backstop 
to ensure that the fishing mortality objectives are met. All four 
alternatives include several subsidiary options. In our judgment, these 
alternatives and their associated options provide a broad range of 
measures with a fair amount of flexibility from which the Council may 
choose to achieve the necessary resource management goals.
    These alternatives have been developed through a public process 
over the course of several years, and reflect input from the industry, 
academics, the environmental community, and other members of the 
public. Many ideas were explored, and some were incorporated and 
modified, as necessary, to achieve the desired and necessary 
objectives. Other suggestions were not accepted because they were 
unworkable, overly burdensome, or otherwise unsuitable. Additionally, 
NOAA holds the view that there is still room for flexibility, provided 
that any new alternative meet the following two conditions:

        (1) Any new alternative must be constructed from, and fall 
        within the scope of, alternatives that have already been 
        assessed in the DSEIS. It would not be possible to develop and 
        analyze an entirely new alternative (i.e., one whose impacts 
        have not been analyzed or considered by the public), and still 
        meet the Court-ordered deadline of May 1, 2004, for 
        implementation of Amendment 13.

        (2) The management measures in any viable new alternative would 
        have to meet the fishery management and conservation goals of 
        the FMP, especially with respect to rebuilding, the primary 
        objective of Amendment 13, as well as all other provisions of 
        the Magnuson-Stevens Act and other applicable law.

    Thus, it may be possible for the Council to consider a new 
alternative submitted during the public comment period, as long as that 
alternative is within the information and analytical framework of the 
DSEIS. NOAA Fisheries will continue to work side-by-side with the 
Council, to provide as much flexibility as possible in the limited time 
available to meet the Court-ordered implementation deadline, and to 
continue rebuilding the New England groundfish fishery.
Future Actions in the Fishery
    The implementation of Amendment 13 is not the end of our work. For 
example, I see opportunities for future changes in the management of 
the New England groundfish fishery through the potential of gear 
research. We all acknowledge the need for work to reduce bycatch and 
improve gear selectivity in this fishery. NOAA Fisheries believes we 
have a significant opportunity to address some of the problems in this 
fishery by working cooperatively with the fishing industry to utilize 
their extensive skill and expertise in developing gear that meets 
current and future regulatory requirements. Over the past 3 years, NOAA 
Fisheries has worked with the industry on 37 cooperative research 
projects, funded with $5.3 million. Through this type of work, if we 
can develop gear that reduces bycatch and that fishes more selectively, 
it will be possible to increase harvests of healthy stocks while 
allowing the weaker stocks to continue to rebuild. To facilitate this 
kind of research, NOAA Fisheries is considering issuing a rule that 
would propose that we distinguish research that is designed to improve 
gear selectivity for management purposes, such as reducing bycatch, 
from gear testing that is simply designed to improve how the gear 
captures fish. Depending on the outcome of that rulemaking, gear 
research may be able to proceed with much less delay.
    Finally, I suggest that we all need to think more creatively about 
the overall direction in which we would like to see the New England 
groundfish fishery move in future years. What is our vision of what 
this traditional fishery should look like in 10 years, or 20 years? 
Should it be a much smaller fishery, with fewer but more economically 
viable vessels? Or should it be a fishery in which a large number of 
boats operate, and all or most of the ports and communities continue to 
participate at or near historic levels? Additionally, what are the most 
appropriate means for accommodating recreational and conservation 
interests in these fisheries?
    Depending on our answers to these questions, and our vision of the 
future for this fishery, long-term remedies could include a wide 
variety of programs, such as limited entry, individual fishing quotas, 
cooperatives, community-based arrangements, trading and leasing of 
effort quotas, and vessel buyouts. Perhaps the Council could fashion a 
New England groundfish rationalization plan that combines various 
management tools. The alternatives and options under Amendment 13, 
while critically important, probably do not provide the whole answer. 
We will continue to work with the Council, the states, and all our 
constituents as we address these issues. But I believe that the tools 
do exist to promote the recovery of the New England groundfish. Working 
together,
    I think we can identify the right mix of programs that will get the 
job done. I thank you for your interest in these challenging issues, 
and will be happy to address your questions.

    Senator Snowe. Thank you, Dr. Hogarth.
    Is it correct that you will allow a more flexible approach 
to the National Standards in developing this alternative? What 
are you thinking about in terms of what would be allowable? I 
think that is one of the issues. The four proposals in and of 
themselves would be drastic to the community, as you have 
heard, in Maine and throughout the New England groundfish 
industry.
    Dr. Hogarth. Senator, I think there is some confusion, 
first off, on the economic side. There is a graph up here that 
I put here for you to look at. Any of the four alternatives 
that are being proposed will have an increase in both revenues 
and landings immediately. In the first 2 years, they do not 
meet the greater revenues of no-action, but the no-action will 
not be approved. The no-action has already been kicked out by 
the courts, so that is a nonstarter, so to speak.
    But all the alternatives that we have on the table do have 
increased revenues, do have increased landings. So it is not 
the dire straits that we hear.
    Senator Snowe. That is not true, Dr. Hogarth. I mean, at 
whose expense? Who will be left? Who can survive? That may well 
be true in the aggregate. Revenues are going to go up for the 
industry as a whole, but it is going to be a fraction of the 
industry that is left that stands to gain.
    You have not identified in your reports who will be 
benefit, what the impact will be, and what happens to the 
inshore businesses. The Portland Fish Exchange, for example, 
has already seen a 20 percent decline in catches and in their 
landings, as may fishermen are taking them to Gloucester 
because of the steaming time issue.
    We are finding ourselves in difficult straits as we speak. 
A lot of the smaller boats are in trouble. I have heard from 
them, you have heard from them, and the Council has heard from 
them repeatedly. There is no way that they can survive. There 
is no identification of short-term strategies by the National 
Marine Fisheries Service with respect to the economic impact.
    I happen to believe, talking about balance, yes. But there 
is no balance when the National Marine Fisheries Service has 
constructed this approach between the National Standard 1, 
which is to address the overfishing, and National Standard 8, 
which is to assess the economic impact. You are saying that 
National Standard 1 takes precedence over National Standard 8 
on the economic effects, but that does not mean to say it 
should be to the exclusion of assessing the impact on the 
communities. That has not been done, other than some focus 
groups. And that is insufficient to address this problem, 
totally insufficient.
    The National Marine Fisheries Service has not been as 
aggressive in assessing the economic effects. If you had 
assigned I think an equal value in terms of aggressively 
pursuing a strategy that helps to minimize the effects, to 
understand the implications and the flexibility under the law, 
I think it would be an entirely different scenario. But we are 
exacting a very high price.
    At the end of the day who will be left? Who will be left 
that will stand to gain for whatever increases there are in 
revenues?
    Dr. Hogarth. Well, for each one of the alternatives the 
Council is looking at additional flexibility, such as access to 
special areas where they will be able to catch fish differently 
if they can show that they can not have the impact on those 
stocks that are fished. They are looking at the steaming time 
that it is taking to get to some of the fishing grounds.
    Senator Snowe. That is not accounted for. There has been no 
approach put forward on the steaming time issue. Going back to 
the Portland Fish Exchange, you are talking about steaming time 
that is now counted as fishing. Are you going to be including 
that in any approach?
    Dr. Hogarth. They will be looked at as part--they are part. 
Any of these alternatives, the Council is looking at the 
flexibility that they can add on to minimize the impacts, yes. 
If you have to stay so many days at sea, reduce the days at 
sea. There is flexibility, like restarting the clock and such. 
I do not know that we ever started the clock, but anyway, 
started it at 10 years; looking at FMSY rather than F-rebuild, 
which will give us some flexibility; the adaptive management 
approach; looking at special access programs for the special 
access, looking at steaming time.
    All of these are things that the Council in the November 4 
meeting when they adopt their final or their final version will 
look at all of these sort of things that are in those 
alternatives to minimize the impact. It is very difficult right 
now to say who wins or who loses, if you want to use those 
words.
    Senator Snowe. Yes, but you are saying and you are using 
charts to say the revenues are going to go up. On the one hand 
you are saying that the economic analysis is sufficient to make 
that determination. On the other hand, you are saying we do not 
have enough data. The agency has not really done anything to 
assess and evaluate in a constructive fashion by talking to 
those in the community, those in the industry.
    Everything is consolidated within your agency, discussing 
the peer review and now the regulations. These include what in 
the final analysis will be included in the rules and 
regulations governing this industry. It is all concentrated in 
your agency, and there has been no independent analysis outside 
of your agency with respect to the effects.
    If you are saying that one takes precedence over the other 
one when it comes to standards, you are right. It does sort of 
say that in the law, but it does not say to the exclusion of 
the other standards. It may well be that we will rebuild the 
stocks, but at what price? Who will be left at the end of the 
day? And we ought to be able to know that, because my small 
boaters are not going to be able to do it. I mean, they are 
just simply not going to be able to do it. We saw that with the 
Candy B II. Obviously, we do not know the circumstances, but we 
do know that that boat was bought for one purpose and had to be 
used for another. It had not been in the industry, so it had to 
come down to 8 days after buying a boat for fishing.
    We are dealing with some very strenuous circumstances here 
for those who are participating in the fisheries, and this 
Amendment 13 as it stands and how it has been applied has been 
very, very tough.
    Dr. Hogarth. Senator, I agree.
    Senator Snowe. We do not have answers here and we should 
have answers by now.
    Dr. Hogarth. Let me try to explain a little. This economic 
impact analysis that has been done has been probably the most 
thorough that has been done anywhere in the country. What it 
does first, biologically it looks at what will take place as 
far as landings and revenues biologically if you have to reduce 
the days at sea or whatever you have to do to meet the 
overfishing criteria. That is what has been done.
    The first thing it says is, yes, the revenues will 
increase, yes, the landings will increase. The second part of 
it when you get into it, then as you define the alternative, 
then you can refine, well, does it affect the small boats more 
or does it affect the large boats.
    We know for a fact that it will affect the fishermen who 
are closest to the resource, so to speak. So some of those 
fishermen will be greater impacted. Right now about 69 percent 
of the vessels in New England, 131 vessels, depend on 
groundfish for 69 percent of their income. Of the 808 vessels 
we have, about 30 percent of them depend on groundfish for 
their revenue, or 30 percent of their revenue. So you have 69 
percent of revenues for groundfish for 131 vessels, you have 
808 vessels that have 30 percent of their revenues come from 
groundfish.
    There are many other fisheries there. In Maine you do have 
lobster, but that does not help you in groundfish. But all of 
these fishermen will have to depend on the number of fisheries 
they have to make a living.
    Now, we are going to have this peer reviewed. You asked for 
it to be peer reviewed. I think we looked at all the things 
yesterday----
    Senator Snowe. Well, I understand you are considering it 
still and I hope that you have gotten past that.
    Dr. Hogarth. We I think got all the details worked out 
yesterday.
    Senator Snowe. Yesterday. Is that going to be in time for 
November?
    Dr. Hogarth. I am not sure if it is November, but we are 
doing our best to speed it up.
    Senator Snowe. I know, but I sent my letter on September 
17.
    Senator Lott.
    Senator Lott. I am enjoying your questions.
    Senator Snowe. I have more.
    Senator Lott. I still am having trouble understanding why 
the National Marine Fisheries in this administration is not 
doing a better job in some of these areas, including 
considering economic impact on those now trying to survive, and 
a lot of that is happening in the Gulf, too. So we are hoping 
that that will change.
    Let me ask you to respond to this, the makeup of the 
fisheries management council and its appointments. You do 
understand that we have had a serious problem in the Gulf. I do 
not know that there are similar problems in the Northeast or 
the Northwest, but are you going to work with us to make sure 
that those councils are balanced? And we can even support 
legislation if we have to to give the flexibility, more 
flexibility, where the Governors will not cooperate.
    Dr. Hogarth. Senator, we will work with you. I think we 
were very concerned in the last go-around in the Gulf that we 
were trying to find a shrimper to go on the Council because of 
all the shrimp issues and we ended up having to take a seat 
from another State to put a shrimper on it to make sure we got 
it.
    Yes, we need to work with the councils to make sure they 
get full representation. The people who depend on this need to 
be involved in it, no doubt. And we will work with you. I have 
called many Governors in the last 2 years and asked them to 
change their list. I have not gotten a lot of success out of 
calling them, but that is the way it starts.
    Senator Lott. Well, we ought to change--if we cannot get 
cooperation, we ought to change the legislation to give the 
Secretary some discretion there, because you cannot have--I 
mean, the way it is going in the Gulf, the sports fishermen and 
the conservationists will exclude commercial completely if they 
had their way. I know because I know how aggressive they are in 
the Gulf. We cannot put up with that.
    What are you going to do about these fisheries research 
vessels, which we of course build in my home county, and then 
they go to Alaska and----
    Senator Snowe. Maine.
    Senator Lott.--and Maine, and various and sundry other 
places, but none to the Gulf. It looks to me like we are 
entitled to one of these next two.
    Dr. Hogarth. Well, I think my understanding is there is a 
study that was commissioned to look at the vessels within NOAA. 
Out of that it came that I think we probably need four new 
vessels that are deep draft, so to speak, and silent, super-
quiet, and then there are two shallow draft that would come. 
That is number five and six.
    I understand that the first one does go to Alaska, the 
second to Maine, but the Admiral has committed the third one to 
the Gulf.
    And I understand your concern with the shallow draft. The 
problem we have with this is that we now have a contract with 
Alta Marine for four vessels. As long as you can get Congress 
to fund these boom, boom, boom, boom, you can get four in the 
same contract without changing design. If we are going to 
change design in the middle to build the third one as a shallow 
draft, we would lose that contract. We would have to go back 
and redesign, sign a new contract, and go through all of that.
    So our goal was hopefully to get the four built under this 
contract. They cut the steel for the second one last week. They 
launched the first one last week. But the third one my 
understanding is goes to the Gulf. It may not suit the overall 
needs----
    Senator Lott. Well, we will take the deep draft provided--I 
realize that it is a monumental problem trying to design a 
shallow draft. I could probably do it this afternoon on a piece 
of paper. But we are going to get fair treatment or we are 
going to legally impound the next vessel.
    [Laughter.]
    Dr. Hogarth. In Mississippi you could do that, could you 
not?
    Senator Lott. We sure could.
    Now, let us see here. You are aware that the shrimp 
industry is really in distress in the Gulf with the turtle 
excluder device, the imported shrimp, and it is causing a real 
problem. Are you looking at anything? I am going to be meeting 
with the leaders of the industry next month to hear them out. I 
guess some of them will say, we want a cotton subsidy. And I 
would tell them, well, it has not done the cotton industry a 
lot of good, so are you sure that is what you want?
    But they are in a lot of hurt and we need to try to figure 
out some way to help.
    Dr. Hogarth. Senator, I am extremely concerned about the 
shrimp industry in the Gulf and in the South Atlantic. They are 
both suffering the same thing. There are a lot of imports 
coming into this country. Imports are up 300 percent. The 
aquaculture prices I would say are really low. They are having 
a hard time competing. We are harvesting now the same number of 
shrimps we harvested in 1998. We do have too much effort in the 
shrimp fisheries, no doubt about it.
    We just got a permit last year for the first time. We are 
importing now about 90 percent of the shrimp utilized in the 
U.S. We import 75 percent of all the seafood utilized in the 
U.S., which is of great concern to me.
    We had a summit with SeaGrant to talk about the shrimp 
industry. They asked us to put together business plans. We have 
been working on that. You know now they have taken a different 
approach. They want to go to the imports, the lawsuit on 
imports. I understand yesterday that the Texas--that Commerce 
is going to look at some of the pricing from imports, 
competition.
    The TED issue is an issue, but it is not causing the 
problem in the shrimp industry. We are working with them. We 
gave out 90 research permits to the industry and I found out 
yesterday that I think the industry has done a great job on 
modifying the TED that we had to make it even work better.
    I just do not know. I think the industry is somewhat 
divided right now. I guess NFI and the shrimp industry had sort 
of a fallout last weekend. I am really concerned about it 
because we need our industries together. I do not know what to 
do. We do not control imports, we do not control aquaculture 
prices. I am concerned that the U.S. is not sampling the 
imports as well as we should for the antibiotics and I 
sometimes wonder if we are getting some of those shrimp into 
our system.
    We have just signed or are in the process of signing two 
MOUs with the FDA to let us do the initial testing of some of 
these imports to see if we can speed up the process and make 
sure it is getting done.
    But I am extremely concerned. That is one of our oldest, 
biggest industries. Right now it is the number one seafood in 
the country. It has replaced tuna. But it is coming from 
imports, and I am extremely concerned that the U.S. is not--we 
are not more self-reliant for a healthy food like seafood. I 
will do anything I can. I have told the industry, I will 
facilitate, I will work with them any way I can do it to try to 
work together.
    But it is not regulations. There is no poundage limits, 
there is no quotas. There is some seasons and some of the 
States try to regulate time of year to get bigger shrimp. I 
think our industry does have to look at quality control a 
little bit more and that niche in the market, and I am hoping 
that some of the money that Congress made available to the 
States is now taken to look at the safety aspects, the quality 
control, and develop that niche.
    We will have--we are sponsoring, by the way, a National 
Seafood Cookoff for U.S. seafood that is going to start next 
year. We want to try to emphasize American seafood or all 
seafood, and we will be working with industries all over to try 
to do that. But if you have any suggestions, to be honest with 
you, I am sort of at a loss. I think we know what the concerns 
are and the issues are, but I do not think the industry is 
ready now for some of them, like limited entry or buybacks. But 
some of that stuff, IFQs and all, will have to be looked at. We 
are going to have to rationalize that fishery to make it 
competitive for the future.
    Senator Lott. Two other quick questions. The 1994 
amendments to the Marine Mammal Protection Act clearly gave 
responsibility for overseeing public display of marine mammals 
to USDA's Animal and Plant Health Inspection Service. Yet your 
agency has proposed regulations that would impose new burdens 
on the display at these marine mammal facilities. Again, it 
seems like there is duplication in regulation, in effect I 
guess two different agencies saying two different things.
    The law is clear, though, that USDA has this 
responsibility. How do you respond to that?
    Dr. Hogarth. We are all working with the industry. There 
have been some concerns that have come up with the law. We have 
from the Endangered Species Act and the Marine Mammal 
Protection Act, we have several responsibilities. But for the 
display there are some concerns how we are getting involved. 
That is under advisement right now. We are looking back at what 
we proposed.
    Senator Lott. I think your regulations exceed your 
authority. So I hope you will take a closer look at it.
    Also, your agency received $12 million during the past 3 
years for the Prescott marine mammal stranding program. The 
legislation for that program requires you to balance the 
expenditure of those fund regionally and take into 
consideration the location of the marine mammal populations. We 
have a huge population in the central Gulf of Mexico and we 
have a highly experienced research facility in Gulfport, 
Mississippi. However, we do not seem to be receiving much 
funding out of this $12 million.
    Can you give us some assurances of some balance in that 
regard, too?
    Dr. Hogarth. Definitely. I have talked to a couple people 
in Mississippi recently. We have had meetings with them. We are 
looking at the Prescott.
    Senator Lott. One of the premier experts in the country in 
that area is Mobi Solange. He has got a wealth of experience 
and knowledge and we ought to take advantage of it.
    Dr. Hogarth. He was in a couple of weeks ago, Senator.
    Senator Lott. Thank you, Madam Chair.
    Senator Snowe. Thank you, Senator Lott, for your questions.
    Again the question that Senator Lott raised about research 
vessels is instrumental, because we need to receive that type 
of research in order to make some of these management 
decisions. I know you mentioned in your testimony about using 
strategies regarding cooperative gear research, days at sea 
leasing, or buyout and so on, but were these strategies ever 
employed in the development of Amendment 13?
    Dr. Hogarth. They are being considered, yes.
    Senator Snowe. They are being considered.
    Dr. Hogarth. The leasing of days at sea is one of the 
options that the Council is looking at.
    Senator Snowe. Was it considered in the past? Was it 
considered in the past by the Council?
    Dr. Hogarth. Senator Snowe, I do not know the answer to 
that, but I will get you the answer.
    Senator Snowe. I know it is important to incorporate these 
ideas, because it gets back to the whole issue of assessing the 
economic effects. It is one thing if the National Marine 
Fisheries Service is determining with certainty certain 
conclusions about the economics. In this case, the service 
believes that revenues will go up and the industry will 
benefit, but is unable to identify who will benefit. But on the 
other hand we do not have enough information and the agency is 
using this as relevant data to ultimately reach the conclusions 
incorporated in Amendment 13. That is going to be disastrous.
    I have testimony here submitted for the record from Dr. 
Ilene Kaplan of the Woods Hole Oceanographic Institution, Union 
College, and it raises a number of issues with respect to the 
socioeconomic impact of Amendment 13. One of the issues she 
raises, is that she and the other members of the Social 
Sciences Advisory Committee were never consulted for official 
comments or review by the National Marine Fisheries Service in 
the development of Amendment 13. Why would they not have been 
consulted on this?
    Dr. Hogarth. Well, I do not know exactly why they were not. 
Socioeconomic is part of the draft environmental impact 
statement that went out for public comment also, so everyone 
had an opportunity to comment. I do not know why specifically 
this person was not.
    Senator Snowe. This advisory committee was not consulted. A 
member of the Committee was not. Why would not this committee 
be engaged in this process early on?
    She raises a number of issues that are I think are 
disturbing. Again, there were no checks and balances in the 
process implemented by the National Marine Fisheries Service. 
There are many stakeholders involved here--the industry is 
diverse and they have not been asked to participate in the 
process. Many types of harvesters, processors, dealers, marine 
services, families, and social groups were not asked to 
participate in this process. So there was a rush, as she 
indicated, for these new proposals that on the surface do not 
appear to be fair and appropriate because there was no input. 
NMFS has just not assessed the community stability that really 
is a requirement under National Standard 8.
    Dr. Hogarth. There is a social science component to the 
council. That is a council committee.
    Senator Snowe. Right, there is, but they were not involved 
in this process. Dr. Kaplan was Co-Chair, but her committee has 
never been asked to officially review or comment on Amendment 
13's draft environmental impact statement.
    Dr. Hogarth. We had 100 public meetings. I can find the 
details on it----
    Senator Snowe. But you see that there is not a standard. 
That is the problem here. When we are talking about balancing 
goals, there clearly was not--the economic effects were not 
ever essentially included. I mean, we just have no specifics 
with respect to who will be affected, who will be able to 
survive this, who will not, who will gain, who will not, and 
what can we do to minimize the effects on the community.
    I mean, fishermen are being decimated. When you talk about 
Down East Maine, we are down to 17 permits. What we are talking 
about is serious. This is serious. This has a reverberating 
effect throughout all of these communities.
    It was not considered in any shape or form as far as I can 
discern from the information that has been given to us. It is 
erratic at best, and there has not been an in-depth 
exploration.
    Did the lawyers argue, as Dr. Kaplan indicated, before 
Judge Kessler that the biological assessment deadlines are in 
conflict with the requirements to meet social and economic 
assessments and maintain stable conditions? It would seem to 
me, if you have a lot of valid data it would help our case in 
court. But if you do not, you cannot make a case. You cannot 
make a case without data, and that is obviously what has 
happened in this instance.
    So to balance things out in some way and I do not say they 
have to be totally equal. But clearly due consideration should 
be given to the economic effects to the multiple communities 
that will be affected by this in Maine and throughout New 
England.
    Dr. Hogarth. Senator, we do have all--we have looked at all 
the participation in groundfish since back in the 1980s. We 
have it by counties in Maine and numbers. The question today is 
when the Council decides on the alternative we will have to go 
back, once they finalize that. We do look at where does this 
have the impact.
    Right now we know for a fact that those States, those 
people that are closest to some of these resources like cod 
will probably pay a bigger price. So you would have to look at 
what the alternative that the Council chooses. The latest one 
that the industry put forward, we have not had a chance to look 
at that at all. The council yesterday sent it back and said: 
Take a good look at this and make sure that it meets the 
standard. So then you look at these alternatives, and if they 
are all equal then the Council should take the one that has the 
least economic impact, and we will have to look at it from that 
standpoint.
    Senator Snowe. You look at these biomass targets. I gather 
you are still looking to maintain these levels. When I 
mentioned in my opening statement about the fact in the midst 
of the court case, 3 years into the rebuilding timeframe, the 
agency came out with new biomass targets. I wish I had blown 
this up into a big chart, because the difference between the 
original target in this bottom yellow line and the top yellow 
line reflects the new biomass target. That is a dramatic 
change. It is a dramatic change, to have to move this entire 
bottom line all the way up to this new target.
    Additionally, our fishermen do not have any confidence in 
how these new targets were established. Even some of the peer 
review questioned the validity of these targets and on what 
basis they were determined. Basically what we have here is that 
you are using these new targets as a way of gutting the 
process, but there is still a lot of uncertainty. There is no 
confidence in these targets, and they are absolutely dramatic, 
particularly when you see the major difference between the 
original and the new targets that you proposed midstream.
    Dr. Hogarth. Senator, a couple things I think could explain 
that. We used the same model that was used with the groundfish 
work, the scallop work. What has happened is that these 
fisheries have really been overfished for such a long time that 
it has had an impact. The harvest of juveniles--the biomass has 
never really been seen because we have kept fishing so hard and 
so long that it has been overfished.
    Magnuson says that we should rebuild the stocks to levels 
that are capable of producing on a continued basis maximum 
sustainable yield. That to us is what it is capable of. You 
look at scallops. Everyone said we would never reach the level 
that we said would be the biomass of scallops. We have exceeded 
that. Through management we have exceeded it, and the fishermen 
are making more money and doing better.
    What we are saying under these is that these are what it 
appears that we are capable of producing if we manage. We have 
not managed the stock in over 20 years. It has been overfished, 
severely overfished. And now, if you look at management it 
seems very practical to us that you will reach this level. We 
think that you can harvest in 10 years 320 million pounds of 
groundfish. That is a lot of fish. That is three times what we 
are harvesting now, and that is strictly from managing and 
meeting the law.
    You gave us a good law in Magnuson-Stevens, we think. We 
may not have interpreted it exactly the way you want. By the 
way, we are looking back at National Standard 1. It is out for 
comment. We are looking at that. We are having a best available 
science peer review by the National Research Council.
    I am taking these things one by one and trying to address 
the concerns I have heard. I do not think that the peer 
review--personally, we could argue about the peer review, I 
guess. I do not think we got a large--it did not give us really 
definite answers on a lot of things. But I think they did not 
question the validity of the targets. They have some concerns 
about uncertainty. That is why we are doing the adaptive 
approach. There is uncertainty and that is why we ought to use 
the adaptive approach.
    These biomass targets for the first 5 years on the adaptive 
approach really have very little, if any, impact because we are 
going to manage to FMSY.
    Senator Snowe. Do you think it will be different than where 
we are today?
    Dr. Hogarth. I think if we manage properly at the end of 5 
years I think that you will see, if we are right, that there 
will be very little impact on the fishermen at the end of this 
5-year period.
    Senator Snowe. Are you including the adaptive approach in 
Amendment 13?
    Dr. Hogarth. Yes, ma'am.
    Senator Snowe. You are?
    Dr. Hogarth. Yes, ma'am.
    Senator Snowe. So you expect there will be something 
different than where we are right now?
    Dr. Hogarth. Yes.
    Senator Snowe. Will it be better in 5 years of the 
rebuilding?
    Dr. Hogarth. Yes, ma'am. Yes, ma'am.
    Senator Snowe. You can understand how this would erode 
confidence. In midstream, all of a sudden the agency is saying: 
not only did we make a mistake, we really made a major mistake, 
and here is the difference. I mean, that erodes confidence in 
the industry. You naturally would question whether they really 
know what they are talking about. At one point agreeing and 
then disagreeing and then saying: It was not only bad, it was 
really bad that we were off target.
    That is the problem here.
    Dr. Hogarth. Senator, we used some new approaches, I think 
the better approaches, the same ones we used in scallops. I 
understand quite a bit fishermen. I know they have a concern. 
You look at--you can take part of the socioeconomic data and 
you can make it very dramatic and I think it would be very 
concerning.
    Change is also very concerning to fishermen. Amendment 5 
and Amendment 7, they were very concerned that this was the end 
of the industry. The industry has not been ended. We have to 
work with industry through this process.
    I have tried my best, working with the councils, to use 
everything that we have possible from a flexibility standpoint, 
adaptive, phasing in, because we know--we are the only country 
right now, by the way, Senator, that still has COLEC. I do not 
know if you have been reading all the controversy lately about 
COLEC. We have COLEC. I was at a meeting last week with 
international countries and they talked about that the U.S. 
management is head and shoulders above any other country in 
managing; indeed, that is why we think we have COLEC.
    Now, we want fishermen. We want the industry. There is no 
way the National Marine Fisheries Service does not want a 
stable, long-term commercial industry and recreational 
industry. I think to meet National Standard Guideline 8, by the 
way, I do not know how you do it, because it really says that 
you have to--what are the words--you have to have a healthy 
fishing community, and if we do not comply with the National 
Standard 1 then we cannot have healthy fishing communities 
either.
    So I can assure you that this agency is going to do 
everything it can to stabilize this fishery and to work with 
the council.
    Senator Snowe. The National Standard 8, says ``minimize 
adverse consequences.'' I just do not see where National Marine 
Fisheries Service has minimized that. So on the one hand, as I 
said earlier, you are saying that you did not have sufficient 
economic data from fishermen in order to make those decisions, 
and then yet on the other hand you are saying that, 
irrespective of that incomplete data, the economic information 
is not relevant to developing Amendment 13.
    Dr. Hogarth. And it is relevant, I think, because when we 
get through with these, when we look at these alternatives, we 
are going to have to choose the one that, if they all meet the 
Magnuson standard, the rebuilding, then we have to choose the 
one with the least economic impact.
    There are some problems, by the way, with economic impact 
that we need to talk to Congress about. There are so many 
confidentiality clauses that it is very difficult to get the 
information on processes and communities. They do not have to 
provide that data due to the confidentiality.
    Senator Snowe. There are ways in which to go about getting 
that data. I just do not see that there has been an aggressive 
outreach on the part of the agency to go out there and do that, 
by all accounts. That has generally been the characterization 
of the agency toward these economic issues. Everybody has said 
the agency has not done its job when it comes to accurately 
evaluating how this amendment will affect the fishing industry 
and the fishing communities.
    I mean, there are ways you could go about getting better 
information such as reaching out and soliciting input in terms 
of the effects. I just do not think that there has been any 
effort to do that, and each of the proposed alternatives have 
wide-ranging impacts.
    Dr. Hogarth. We do have a socioeconomic plan internally and 
we are implementing that now, and we are trying to work with 
the councils. Of the 1800-page document, I think you will find 
most of it is devoted to socioeconomic analysis, and we are 
able to compare between alternatives.
    One thing I wanted to thank you, the Congress, for, and I 
am sorry it went so far before I did that, is the cooperative 
research. We have had 37 projects in research in the New 
England area of over $5 million over the last 3 years, and that 
has helped us in Amendment 13, some of the gear stuff and all. 
The cooperative research has made a big difference.
    Senator Snowe. The point I am making on this is that I just 
have not seen the empirical statistical data that would 
validate the conclusions reached with respect to the economic 
and social impact of these four alternatives. That is the 
point.
    Dr. Hogarth. And I take the point, Senator.
    Senator Snowe. And I think it has really been to the 
exclusion of everything else. I do not want to gloss over these 
issues. Because in the short run, given what we know today, and 
given the effects of these four proposals, if we do not do 
something entirely different in the sense of how we approach 
this people are going to go out of business. This new approach 
could include a mix of the alternatives or adjustments made as 
a result of the council's decision. I hope it will be something 
you can approve, as well. I mean, that is the bottom line here.
    I believe that there has got to be a better way of doing 
it. I want to make sure that we are clear on that, because the 
New England fishermen stand to lose and more specifically, my 
fishermen in Maine are going to lose dramatically. They already 
have. We are not satisfied with the approach that has been 
taken with respect to National Standard 8. This is documented 
by Dr. Kaplan's testimony as well.
    I am saying that we really have to look at the socio-
economic effects very carefully, and we cannot do it to their 
exclusion. The fishermen are interested in rebuilding their 
particular species for fishing. They are. It is in their 
interest. And the question is how can we best do that in a 
rational approach that does not devastate everyone who is 
participating in the fishery. That means having conclusive 
data. It means doing outreach. It means doing a lot of things 
that just simply are not being done right now.
    I would like to ask you a few questions regarding multi-
species management versus single species management. This is 
another dimension, related to being able to flexibly interpret 
the Act. Right now managers are regulating for the least common 
denominator and as a result a great deal of surplus biomass in 
healthy stocks cannot be harvested. That is another important 
issue.
    Why are you implementing Amendment 13 on a species by 
species basis, rather than as a unit? Because again, looking at 
these targets, that is what we are dealing with here. This has 
exacted a huge price on the industry as well in terms of how 
you have approached it. I think there is no question you have 
chosen to interpret that standard very differently than I think 
could have.
    Dr. Hogarth. Well, first off, the Council did discuss it 
yesterday and I think they will discuss it again at their 
November meeting. We probably did in Amendment 7--we do 
somewhat of a mixed species approach there. We established five 
key stocks, and then with the remaining grouped into one group. 
The results of that have not been very good. In fact, those 
stocks that were overfished are even more overfished at the 
present time.
    Looking at the national standard guidelines under CFR 600, 
it gives us I think it is about three or four standards that 
you have to meet, three standards that you have to meet. It is 
very difficult to meet those. I will not read them to you 
because you probably know them as well as I do. But the Council 
is going to look at it. It is probably something we will 
continue to look at.
    We are concerned that those stocks, such as cod and 
yellowtail, that are severely overfished, will only be worse 
off if you go this route. But it is an option that is still on 
the table. It is an option that the Council will be looking at 
again in November.
    Senator Snowe. Is that something that you would accept, 
particularly if it is implemented differently? Because I think 
it is clear from the Act that it is possible to address it as a 
unit in the aggregate as opposed to doing it based on the 
lowest common denominator and the most severely depleted 
stocks. I think that is really an almost impossible threshold 
to meet.
    Dr. Hogarth. Yes, we will look at it very carefully. I 
think for yellowtail it may be something that would help 
particularly. Personally, if I would be honest with you, I 
think that the mixed stock exception, I am not sure that it 
does what we need to do in the long term. I am concerned that 
those stocks that are overfished will continue to go downhill.
    Senator Snowe. Why would you say that?
    Dr. Hogarth. My personal opinion does not count. It is what 
meets the law. I want to tell you that.
    Senator Snowe. But why would you say that?
    Dr. Hogarth. I am just saying that if you are not careful 
those stocks that are severely overfished right now, if you do 
not give them any protection, the protection they need, that 
they are going to continue to drop, and those stocks are also 
important in the fishery. So we are concerned that for three or 
four stocks--I mean, for some stocks there may be improvement, 
but the others will have more of a devastating impact. That is 
my opinion. I think the Council is going to look at it in 
November. If they meet the standards we will approve it. My 
personal opinion does not count.
    Senator Snowe. But again on this particular issue, why were 
not these issues previously examined so we could avoid the 
drastic situation that we are in today?
    Dr. Hogarth. I think the Council had discussed it. We think 
it is very difficult to meet the standards. Legally, we think 
they have a tough time meeting the standards. But they did talk 
some more about the yellowtail in particular, the yellowtail 
flounder. They want to discuss it again in November and we do 
think it is worth them continuing to discuss.
    Senator Snowe. I honestly think it depends how you argue it 
in court. If you have enough data, you are interpreting it 
correctly, and are making a very aggressive, forceful case in 
the court, I think that it could have ultimately different 
results. Obviously, we would like to avoid this litigation. 
That is what we are facing time and time again. This is this 
whole litigious nature that Senator Stevens mentioned in his 
opening statement.
    But the question is the National Marine Fisheries Service 
is grounded in all the independent data and scientific data and 
a valid empirical basis for the decisions it makes and 
interpreting the law, because the law does provide some 
flexibility, and I think the record speaks to that. In addition 
to the statute, I think the record, the legislative record, 
speaks to that, on the specific standard. So it could be a very 
different outcome than where we are today.
    Dr. Hogarth. Could I address one thing you mentioned?
    Senator Snowe. Yes.
    Dr. Hogarth. Just for the record, I would like to do this 
because we keep talking about litigation and we are also very 
concerned. But if you look at--we are all making progress in 
the agency. In 1999 we had 60 new cases filed. We had in 2001 
36. In 2003 we have only had 16.
    Senator Snowe. Unfortunately, one is ours.
    Dr. Hogarth. Ma'am?
    Senator Snowe. I said, unfortunately one is ours.
    Dr. Hogarth. In 2003, 16.
    But of the last 36 cases that have been resolved in 2003, 
24 of them have either been we have won, been dismissed, or a 
settlement. So we have only lost 12. A lot of them have been in 
the NEPA arena, which we are getting much better on the 
process. We do not lose very often on science. We lose on NEPA. 
So I am very, very interested.
    Senator Snowe. I am sorry; you lose on what?
    Dr. Hogarth. The NEPA analysis, the process. So we have a 
list of them, but we now have less than 100 cases.
    Senator Snowe. What have you learned from that process that 
you could apply to Amendment 13 so we could avoid this type of 
court cases in the future?
    Dr. Hogarth. I think we will. I think we have learned quite 
a bit in the process.
    Senator Snowe. We are exacting a toll on the whole industry 
and devastating it. The key here is how we go about doing it 
and accomplishing our mutual goal.
    Dr. Hogarth. But to go back to the mixed stocks, there are 
three things we have to meet and I think it is very difficult, 
but I think that it is open, it is not a closed case. That is a 
flexibility that is there.
    Senator Snowe. Do you think they are utilized with the 
development of Amendment 13?
    Dr. Hogarth. I do not know. I do not know.
    Senator Snowe. I do not know either. You see, I do not 
understand why it was not used the last time. That is what is 
bothering me, because it could have been used last time. I 
believe the Council will use it this time, but I am not 
understanding the process enough to determine why they did not 
believe they had this kind of flexibility in the past when 
developing these alternatives.
    Dr. Hogarth. Well, like I say, I think they tried it in 
Amendment 7 and I think the result of that was that those that 
were not protected had such a devastating as far as overfishing 
is concerned. We are trying to look at those 18 stocks, and 
they all are important and we want to rebuild them. We have got 
stocks that are overfished as we regroup them. The yellowtail 
seems to be more in grouping.
    Senator Snowe. Now, you mentioned the Council addressed the 
issue of steaming time be counted as days at sea. Do you think 
that will be incorporated?
    Dr. Hogarth. The council is discussing that.
    Senator Snowe. To do otherwise is really going to affect 
the ports in Maine and certainly the Portland Fish Exchange. 
Also, with regards to the flexibility in the 10-year rebuilding 
rule, will you be reviewing that? I know that you have agreed 
to restart the clock in this instance, but is there not enough 
flexibility in the law? I mean, it says ``to the extent 
practicable.''
    Dr. Hogarth. I do not know how we get past the 10 years 
unless it physically cannot be done and then we can use half-
time mean generation, in which you can extend some. Those that 
can be rebuilt and continued, we have no choice in my opinion, 
the way the courts have ruled.
    Senator Snowe. How do you view it in terms of what is 
justified to warrant changing the 10-year rebuilding timeframe?
    Dr. Hogarth. It is due to the biology of the species and 
whether it can actually rebuild or not, the generation time, 
maturation, generation time. With some of these groundfish we 
are dealing with, it is going to take 80 years. It depends on 
the stocks. I do not know the exact one of each one of them. If 
you want to, I can probably tell you; we can get to you those 
that can be rebuilt, we think, and those that cannot.
    Senator Snowe. Is it your understanding that this is a tool 
that can be utilized?
    Dr. Hogarth. Yes, ma'am.
    Senator Snowe. That you can?
    Dr. Hogarth. Depending on the biology of the species, you 
can utilize it, yes. But if it can be rebuilt in 10 years, we 
have no choice but to use 10 years.
    Senator Snowe. I appreciate your restarting the clock in 
this instance because of the changes in the biomass targets. 
But again, my question is why this flexibility has not been 
utilized previously. Obviously, it had to be something that we 
had to prod you on.
    Dr. Hogarth. May I ask John Boreman a question?
    Senator Snowe. Yes, go right ahead.
    [Pause.]
    Dr. Hogarth. Senator, there are several species, like cod 
and redfish, that we do use a longer time-frame than 10 years 
based on the biology. I just did not know which ones they were, 
but there are some that we are using----
    Senator Snowe. OK, so we can expect that to be used? And do 
you interpret that it is permissible under the law, because 
that is also a critical issue?
    Dr. Hogarth. Yes, ma'am.
    Senator Snowe. The agency published a proposed rule on 
National Standard 1 and the definition of overfishing. And it 
was issued back in February?
    Dr. Hogarth. That is correct.
    Senator Snowe. So what is its status?
    Dr. Hogarth. It is now in the final stages of going through 
all the comments. It created lots of comments. It has been 
certainly one of the--I am very proud of the agency, how they 
worked with that. It has been a very controversial one to work 
with internally. It has taken a lot of time, a lot of effort. 
Their final recommendations right now are on my desk and I hope 
this week to move that forward.
    The next thing I would like to do is discuss it with the 
councils, and then it will go out to the public for comment. So 
the earliest you will probably see something on that would be 
next spring, just the way the process works.
    But we are seriously--I think it is an issue that I have 
heard from you and I have heard from others on the Hill on how 
we may have interpreted it. So we are taking a very hard, 
serious look at this. It is something we cannot rush. But we 
are looking at environmental conditions, mixed stocks, a whole 
gamut of things, overfishing definitions. We are taking a very 
serious look and we have had our best people internally working 
on it, and we had a meeting with all of our leadership to go 
over it. It is interesting.
    Senator Snowe. Well, I think one of the issues in terms of 
overfishing and what contributes to a decline of a stock or a 
species, there are other factors aside from fishing. It could 
be environmental factors, other non-fishing factors. How would 
that work into what you are planning to do on these proposals?
    Dr. Hogarth. One of the concerns was about environmental 
conditions, what happens with clamming regimes, with sieves. 
Like this year we had cold water on the East Coast and it 
looked like the haddock were doing great; you look at the West 
Coast, we had some ocean currents very different and great 
salmon populations. You have to look at that and how that 
factors in. That has been one of the big issues in how you do 
that.
    Also, we have got to learn how to predict that and how you 
take that in. We plan on having some workshops this spring on 
environmental conditions and how you measure those and how you 
take them into management aspects.
    Senator Snowe. One final question, on National Standard 10, 
which pertains to the safety of human life at sea. As I 
mentioned previously about the Candy B II that disappeared 
tragically a little more than a week ago, we have a legal as 
well as a moral obligation to ensure that fishermen's safety is 
not unnecessarily compromised by fishing regulations and 
certainly not by Amendment 13.
    How has the draft environmental impact statement accounted 
for the impact of the four alternatives on safety? The 
pressures do exist for fishermen to shift to other species of 
fishing, such as we heard in the description of the Candy B II. 
Do you think that enough information was factored into the 
environmental impact statement on this issue, just in general 
on safety?
    Dr. Hogarth. I think probably in general it is an issue 
that I am still concerned about. By the way, we did have I 
think it was the IG looked at the Council process and that is 
one of the questions that they have come back to us with, is 
safety aspects, enforcement, inputting into the rules, and that 
is under consideration right now, is how we get more input from 
enforcement and Coast Guard as we develop rules. It is 
something we will be discussing with the council.
    I think one of the real concerns is how do you provide 
this? The days of sea sort of lets the fishermen fish when they 
want to. It is not a hard tack that says we are going to shut 
the fishing down. But somehow or another, safety is--we have 
the worst safety record of any industry, I think, the fishing 
industry. It is a concern.
    People have talked about do IFQs do a better job so people 
can fish when they want to, go to their markets when they want 
to. I think it is somewhat of the nature of fishermen to fish 
and the fact that regulations probably do not help them in that 
aspect. I am concerned about the safety aspects of fishing and 
I am concerned because the second step is a lot of our industry 
is not making money. They are on a shoestring, there is no 
doubt about it. You go across the country, the shrimp fishery, 
some in New England, some in the West, if you look at the 
vessels they are not being maintained even from a safety 
standpoint. You talk to the Coast Guard and the Coast Guard 
says: They will not come to us to get the safety inspections 
because they know they have not really had the money to put 
into maintaining it.
    So this is sort of--it is a big picture issue that is very 
concerning to us.
    Senator Snowe. The pressures they face in making those 
types of decisions, in this regulatory environment that they 
are confronting forces them to make some very difficult 
choices. These include switching over, buying a boat, and then 
all of a sudden the regulations change the requirements. You 
cannot predict it. It is a different proposition for these 
fishermen and there they are holding a mortgage to a boat.
    Dr. Hogarth. I would love to see it come to the point where 
they had more control over when they fish, and that is one of 
our goals, for you to sign up when you are going to fish.
    Senator Snowe. Obviously we have a number of issues here. 
Before I conclude, I want to ask you another question. You 
mentioned IFQs and you had an issue with IPQs. Does the 
administration have a position on individual processing quotas?
    Dr. Hogarth. Individual processing quotas?
    Senator Snowe. Yes, that is correct.
    Dr. Hogarth. The administration has said that presently 
they are not allowed, that they are not eligible to participate 
because it is not in the law. But in the Magnuson 
reauthorization we did send, transmitted to Congress that 
included language for councils to allow them to participate in 
that IFQ process, because we think that if a council wanted to, 
because again we believe that if you are going to look at IFQs 
you have to look at the social and economic impact. that 
includes the processors, it includes all sectors, the 
communities, the processors, the fishermen. So that is our 
position.
    Senator Snowe. It should be determined by the councils?
    Dr. Hogarth. Right.
    Senator Snowe. So you would like to have legislation that 
would govern these issues on a national basis in terms of the 
regional councils make the decisions, but within a certain 
process?
    Dr. Hogarth. Senator, I would love to see Congress move on 
the IFQs. We need them in some areas, not all of them. I would 
say two, but we really need them in some areas very badly. I 
think our shrimp industry right now needs them. But I would 
encourage the Congress working with us and trying to put some 
criteria on those IFQs.
    Senator Snowe. Right. I think it is essential that we have 
criteria that is going to dictate a process.
    Dr. Hogarth. I would love to work with you. I would love to 
work with you.
    Senator Snowe. Dr. Hogarth, I appreciate you being here 
today. I think you know the dire circumstances that the 
groundfish industry in New England and certainly my state of 
Maine is facing with these four proposed alternatives. I just 
encourage you, urge you, to do everything within the capacity 
of your position as Administrator, to utilize the flexibility 
that is in the law to devise a different proposal that would 
not exact such a drastic price and toll on the fishing 
industry, their families, and their communities.
    We have to find a better way, not only in this instance but 
in the future, because there is no question that this has been 
a wrenching process from start to finish. At the very least, I 
hope in this particular chapter of Amendment 13 that we can 
find a way to minimize the impact on the industry and come up 
with a better proposal. I know that the State is working with 
the industry and I know yesterday's council meeting was crucial 
in that process. I appreciate you being there.
    We are going to do everything that we can to find a better 
solution than each of those alternatives because I think they 
would devastate the industry. If not, We will have very few 
fishermen left. There may be some left that will enjoy those 
revenue increases you testified, but they will be few and far 
between.
    For those who continue, this form of livelihood, handed 
down from generation to generation, they want to go out there 
and they want to fish. That is what they want to do. And they 
are just hampered by this onerous, restrictive regulatory 
environment and the litigious circumstances that we continue to 
find ourselves in. We have to find a better solution to the way 
we implement this Act.
    Here is another issue. If there are specifics within this 
Act that you do not think help, I want to know. We have to 
begin to decide where they are, because they are different 
interpretations with respect to the flexibility and the ability 
to interpret some of these national standards. We also must 
improve the means by which we assess the economic impact.
    Dr. Kaplan I think provided some very good examples as to 
how socio-economic analysis could be done better. We really 
have to, because I want to preserve this industry. I know you 
do. It is a real way. These are not mutually exclusive goals in 
terms of preserving the fish and preserving fishermen in the 
industry.
    So again, I want to thank you for your time and 
consideration, and I will be working with you in the remaining 
upcoming days to do what we need to do specifically with 
respect to Amendment 13.
    Dr. Hogarth. Thank you for taking the time. We need to 
discuss these issues. We need to manage this and get it out of 
the court system. I am determined to meet May 1 with something 
that minimizes the impacts to the fishermen and is in 
compliance with the act. I think that there is hopefully one 
proposal that I looked at that shows promise and I am hoping 
that the Council as it looks forward will do something with 
that proposal.
    Senator Snowe. I appreciate that and the fishermen will 
appreciate that. So thank you very much.
    Dr. Hogarth. Thank you.
    Senator Snowe. Thank you. The hearing is adjourned.
    [Whereupon, at 11:09 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    Good morning. I want to thank Chairman Snowe for holding today's 
very timely oversight hearing on NMFS' implementation of the National 
Standards of the Magnuson Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act).
    Following passage of the 1996 amendments to the Magnuson-Stevens 
Act, NMFS issued revised National Standard Guidelines to provide 
technical guidance to the Councils in developing fishery management 
plans. However, implementation of these National Standards has been 
inefficient and a number of problems have been identified. The primary 
concern is that the Guidelines have not allowed for the management 
flexibility intended by Congress. In particular, we need to take a hard 
look at how NMFS and the Councils have implemented two of the National 
Standards:

  <bullet> National Standard 1, under which overfishing and rebuilding 
        standards are set;

  <bullet> National Standard 8, under which socio-economic effects on 
        fishing communities are addressed.

    These implementation issues have come to light in ports around the 
nation, but no where are they more acute than in New England, where 
NMFS and the New England Fisheries Management Council are under court 
order to develop a Magnuson-compliant management plan known as 
Amendment 13.
    The development of Amendment 13 has been plagued by conflict, 
scientific controversy, delays, and overly-stringent and inconsistent 
interpretations of the 1996 law.
    Throughout this time, New England has had to cope with significant 
environmental and economic instability. Overfishing has continued on 
certain stocks, and fishing communities have experienced an ever-
changing set of management decisions that have contributed to economic 
stresses on fishermen and fishing-dependent communities. In real terms, 
that means commercial fishermen cannot implement even a two-year 
business plan because they do not know how, when or where they will be 
allowed to work in the fishery. This uncertainty extends to the multi-
million dollar shore-side infrastructure and local economies. In these 
difficult economic times it is imperative that NMFS bring about a 
reasonable and stable management plan that will allow businesses--from 
the small boat entrepreneur to the national seafood processor the 
opportunity to compete in the American and world marketplaces.
    The Magnuson-Stevens Act (MSA) calls for a balanced approach to 
fisheries management which is designed to sustain and grow this 
Nation's fishing industry through necessary conservation and reasonable 
management measures. That means we must reduce fishing mortality to end 
overfishing and restore stocks to sustainable levels, but such 
reductions must be technically justified and effects on communities 
minimized to the greatest extent possible. Consistent with the 
conservation requirement to end overfishing, National Standard 8 
mandates that management plans developed by the Councils and approved 
by NMFS take measures to provide for the sustained participation of 
fishing communities and minimize the adverse economic impacts of 
management measures on these cities and towns.
    Nevertheless, NMFS' Draft Economic Impact Statement analyzing the 
four alternatives under consideration for Amendment 13 demonstrates 
that economic losses to vulnerable New England fishing communities were 
not specifically identified in the document--and thus, no mitigation 
measures are proposed. The analysis simply projected that, on a 
regional basis, each of the four alternatives before the Council would 
result in short-term economic and job losses, with surprisingly little 
economic or environmental net benefit over the long term. Massachusetts 
alone is expected to shoulder between 55 and 68 percent of all expected 
losses in income, revenues, and jobs in the region. Commercial fishing 
is an important economic engine in cities like New Bedford and 
Gloucester, where hundreds of jobs stand to be lost. Analyses provided 
by NMFS suggest that the ``no action alternative'' (representing 2001 
fishing effort) could achieve more than 85 percent of the economic and 
biological benefits of any of the four alternatives. Analyses of 2002 
fishing effort are expected to demonstrate even greater strides.
    If this course is followed to its conclusion, Amendment 13 could 
require significant economic losses in certain communities with little 
future economic and conservation benefit today or tomorrow.
    The 1996 revisions to the Act were not intended to result in a 
paper exercise plagued with unworkable rules; it was intended to result 
in better management and better decisions to benefit real people. We 
believed that successful management would involve measurable increases 
in biomass, smarter management, modem techniques, and increasing 
opportunities for our coastal communities. However, it is my view that 
NMFS is not fully taking advantage of the flexibility in the law, and 
that, in part, is the cause of our current problems in New England.
    The MSA allows NMFS and the Councils sufficient flexibility to 
create a workable management plan for New England, so long as we ensure 
there will be an end to overfishing and return to sustainable stocks. I 
believe there is plenty of room for establishing common-sense rules 
under the Act. For example, the Senate unanimously approved my 
amendment to H.R. 1989 last Congress, which clarifies that the agency 
has the discretion to extend existing rebuilding timelines when new 
assessment information increases targets well above the previous goals. 
This is a rational interpretation of the Act that an expert agency can 
make, and we are glad to see that this approach is reflected in the 
Amendment 13 alternatives.
    The MSA also provides plenty of room for Councils and the agency to 
develop a range and combination of reasonable management approaches 
that can both end overfishing and provide benefits to the fishery. 
These include multispecies management approaches that provide 
incentives for harvesting of plentiful stocks and avoiding vulnerable 
stocks, adaptive management rules to accommodate new information, 
community-based sector approaches, real-time reporting that will 
improve timeliness of stock information, and cooperative research to 
improve the quality and quantity of scientific information on our 
stocks.
    The agency must work with the Councils to use the discretion 
afforded to it to meet the requirements of the law to both end 
overfishing and keep fishing communities strong. Any management plan 
must take account of the good work already done in New England, and 
target mitigation measures to the port communities at greatest risk of 
economic downturn as a result of NMFS' actions. In addition, I am 
concerned that fishermen have complained that NMFS has failed to 
provide oversight to ensure Council designed management plans meet 
other National Standards (4 and 5). These standards require that 
management measures not discriminate among residents of different 
states; not have economic allocation as their sole purpose; and, if 
they result in allocation, that such allocation be fair and equitable. 
I believe this is an area that needs additional attention, or the 
future of the entire management and Council system will be called into 
question.
    I thank Dr. Bill Hogarth for joining us to today in order to help 
us better understand NMFS' implementation of the MSA and to guide the 
agency in meeting its obligations to create a fair and responsible 
management plan for New England, and for fishing communities around the 
United States.
                                 ______
                                 
  Prepared Statement of Hon. Susan M. Collins, U.S. Senator from Maine
    I want to thank my colleague, Chairman Snowe, for holding a hearing 
on this issue, which is of great importance throughout the Northeast 
but particularly to our home state of Maine.
    No one issue weighs more heavily on the minds of New England's 
fishermen than the future of our groundfish industry. Currently, the 
New England Fishery Management Council is crafting a fishery management 
plan that will regulate the Northeast Multispecies Fishery. 
Unfortunately, the New England Council has little room to create a 
reasonable plan due to excessive litigation and the improper 
interpretation of the Magnuson-Stevens Act by the National Marine 
Fisheries Service.
    Although I was not a Senator when the Sustainable Fisheries Act 
became law in 1996, I know that this legislation is not being 
interpreted as Congress intended. Fisheries management does not mean 
that we protect fish stocks without consideration of our fishermen and 
our traditional fishing communities. Fisheries management is only 
successful when it ensures the survival of both the fish and the 
fishermen.
    The northeast groundfish fishery is not in crisis. Fish stocks are, 
in fact, rebounding at a tremendous rate. Still, the New England 
Council is saddled with alternatives that will jeopardize the 
livelihood of thousands of fishermen and related businesses.
    I have continued to urge the National Marine Fisheries Service to 
provide the flexibility the industry needs when developing amendment 
13. This what Congress envisioned with the passage of the Sustainable 
Fisheries Act.
    There are further avenues of flexibility that must be explored by 
the National Marine Fisheries Service. Industry members and members of 
the New England Council itself have advocated the use of the mixed-
stock exception, a concept developed by the National Marine Fisheries 
Service itself. Unfortunately, the National Marine Fisheries Service 
has been reluctant to explore this management tool.
    Further, many industry members are troubled by the rebuilding 
targets established by the National Marine Fisheries Service. These 
targets stand well above any biomass numbers that have been recorded 
for groundfish. Nevertheless, more realistic targets have been rejected 
by the National Marine Fisheries Service. At a time when the trend of 
ecosystem-based management is gaining favor, the Service is insisting 
on goals that do not take into account predator and prey relationships, 
climatology, the effects of pollutants, and other factors that 
influence ecosystems.
    While I am encouraged that the industry has been given the 
challenge to create its own alternative to Amendment 13, this challenge 
was issued with a number of constraints. Most notably, this alternative 
must be comprised of components found within the current Amendment 13 
document. This only guarantees ``more of the same.'' I encourage the 
National Marine Fisheries Service to be more open to true alternatives 
and to accommodate any proposal that the industry may develop.
    Again, I would like to thank the Committee for holding this 
hearing. A unique way of life is hanging in the balance.
                                 ______
                                 
        Prepared Statement of U.S. Representative Barney Frank, 
                        House of Representatives
    Thank you, Chairwoman Snowe, for convening this hearing on fishery 
managementissues. I appreciate having the opportunity to submit my 
comments on changes that I believe are needed in the Sustainable 
Fisheries Act (SFA), as well as my thoughts on the current progress 
toward developing Amendment 13 to the Northeast Multi-species Fishery 
Management Plan.
    The commercial fishing industry in Massachusetts and throughout New 
England is currently facing the prospect of potentially devastating 
restrictions on fishing. All four Amendment 13 options that are 
formally under consideration by the New England Fisheries Management 
Council at this time are projected to have extremely negative economic 
impacts, on the fishing industry directly, and also on the other 
sectors of the region's economy that benefit indirectly from commercial 
fishing activity. Indeed, estimates prepared by the National Marine 
Fisheries Service suggest that job losses as a result of Amendment 13 
could run as high as 3,000.
    While it is essential that we do everything possible to prevent 
that kind of economic loss, the difficulties we are facing with 
Amendment 13 underline the need to change the SFA, the law that is 
partly responsible for where we are now in this process. In particular, 
the law needs more flexibility and improved science. It stretches the 
bounds of logic for the government, during a period when most New 
England stocks are rebuilding at a healthy pace, to require fishermen 
to make deep additional reductions in their fishing efforts. Yet. that 
is precisely what New England's commercial fishermen are facing. 
largely because the law lacks necessary flexibility.
    The SFA should permit longer rebuilding periods when appropriate, 
particularly in eases where biomass targets have been substantially 
increased (an extension was recently permitted by NMFS after New 
England biomass targets were increased, but this was done on an ad hoc 
basis), We also need to consider changes to the definitions of 
overfishing that will allow for greater flexibility in rebuilding. And, 
we need to develop procedures for ensuring that the science used to 
establish biomass targets and measure fish stocks involves greater 
levels of independent peer review, and more cooperative research that 
includes fishermen in the data gathering process. Finally, we should 
try to find new methods for helping species that are not doing as welt 
when others are rebuilding, and continue to explore ways of reducing 
capacity in the industry.
    If we can develop a consensus on these and other fishery management 
issues there is a good chance that in the future we can avoid the sort 
of contentious situation we now face with Amendment 13. I was pleased 
with the initial progress we made in the House in the last Congress on 
reauthorization of the SFA. and I am hopeful that we will be able to 
complete the reauthorization process in this Congress. Indeed. if we 
can enact a new version of the law that addresses some of the concerns 
I have outlined above, I would expect to see changes to whatever 
version of Amendment 13 is put in place for next year.
    Regardless of what form Amendment 13 takes initially, I will of 
course be doing all that I can--working with my colleagues in Congress 
who share representation of New England and others active in the 
industry--to try to mitigate any negative economic effects that may 
occur. In that connection, I am submitting with this statement a copy 
of a letter sent on September 15 by Senator Edward Kennedy, Congressman 
John Tierney and myself to Commerce Secretary Evans and NMFS Director 
Hogarth urging them to allow alternatives to the four Amendment l3 
plans that are under consideration. I am pleased that Dr. Hogarth 
indicated his willingness to have such alternatives considered as the 
process for developing Amendment 13 moves forward.
    A number of organizations representing various segments of the 
fishing industry in New England have now submitted their own Amendment 
13 proposals. and I am hopeful that components of these alternative 
plans will be able to be incorporated into the ultimate Amendment 13 
plan that is adopted. I believe it is essential that the process by 
which these alternatives are considered is as broad and flexible as 
possible, so that new elements--not expressly within the four options, 
but included within the overall range of analyses prepared by the 
Council--are given fair consideration. I submit a second letter which I 
sent to Or. Hogarth on October 14 recommending that a flexible approach 
be taken on this point.
    Again, I appreciate having the opportunity to submit testimony to 
the Subcommittee on this important matter, and I look forward to 
working with you, Chairwoman Snowe, Ranking Democrat John Kerry; and 
others who are concerned about these issues in the attempt to develop 
appropriate fishery management legislation.
                                 ______
                                 
                              Congress of the United States
                                 Washington, DC, September 15, 2003

Hon. Donald L. Evans,
Secretary of Commerce,
Washington, DC.

Dear Secretary Evans:

    Because of our serious concern over the projected disastrous 
economic impact of the groundfish management options that are currently 
under consideration by 1he New England Fisheries Management Council, we 
urge you to take the necessary steps to ensure that additional 
scientific and economic analysis is conducted before the Amendment 13 
process moves forward.
    Specifically, before any further decisions are made on management 
options, we believe it is essential to: (1) conduct a more detailed 
comparison of the potential benefits of the options currently under 
consideration by the Council and options involving the restrictions 
that have been adopted under the terms of the settlement in 
Conservation Law Foundation et. al. vs. Donald Evans et. al.; and (2) 
incorporate alternative scientific models including the Age-Structured 
Production Model (ASPM), into the scientific analysis that is 
undertaken as part of the process for developing Amendment 13.
    As you are aware, each of the options before the Council is 
projected to have a devastating impact on the New England fishing 
industry, with job loss estimates running as high as 1,300-3,000, with 
more than half of those potentially in Massachusetts alone. In 
addition, it is likely that, at the conclusion of the rebuilding 
process envisioned under these options, the industry itself would look 
very different, with a much greater level of consolidation.
    While some have argued that these harsh economic effects are 
necessary to ensure the long-term viability of New England's groundfish 
stocks, the resource population and health gains that are projected to 
result from the draconian restrictions under the various options are 
likely to be relatively modest when compared with options that are 
considerably less severe from an economic point of view. For example, 
NMFS's own estimates suggest that the ``benefit'' at the end of the 
options' rebuilding periods win be somewhere in the range of a 10 
percent improvement when compared with the pre-settlement restrictions 
(the ``no action'' option).
    In other words, under the no action model, the rebuilding of New 
England. stocks could end up at a level close to 90 percent of what it 
would be under the current options, meaning that implementation of any 
of the options is Likely to impose great pain for relatively minimal 
gain. We understand that the no action model does not fall within the 
Sustainable Fisheries Act (SFA) guidelines. However, we are not 
convinced that sufficient analysis has been conducted on the comparison 
between the current options and the existing, post-settlement 
restrictions (the ``status quo''). While the differences are projected 
to be still less, it is possible that a more modest modification of the 
status quo, with less severe economic impact, could reduce the 
differences even further, and be consistent with the SFA. Accordingly, 
before we move forward with a set of restrictions that are widely 
expected to have a ruinous economic impact on the industry, we believe 
it is essential that this more detailed comparative analysis be 
completed.
    Furthermore, we believe the scientific analysis associated with the 
Amendment 13 process should draw from the widest possible range of 
models. The ASPM approach has been shown to be useful for some species 
and, with the stakes as high as they are, we do not believe that a 
potentially valuable approach should be removed from the debate, simply 
because there are some questions about its application to certain 
species. There are legitimate differences of opinion within the 
scientific community about how to measure the population and health of 
the relevant fish stocks and over what may be the best management 
approaches for achieving an appropriate level of rebuilding, and 
responsible alternatives should continue to be part of the debate.
    We understand that, given the Federal Court ruling, the Amendment 
13 process cannot simply be stopped, and we are not proposing that. 
Rather, we urge you to work with the Council and the relevant 
stakeholders to see that the sort of additional analyses and models 
discussed above are incorporated into the Amendment 13 process as soon 
as possible. We recognize that there is a limited amount of time, but 
that is no reason to adopt the wrong plan. In fact, with the SFA up for 
reauthorization next year, we are likely to see additional changes in 
the fairly near future in the way New England's fishery will be 
managed, regardless of which management option is selected by the 
Council and the Department.
    We believe a logical approach is to have in place on May 1, 2004 a 
management plan that will allow us to consider the SFA reauthorization 
without having already imposed unnecessarily harsh restrictions that 
will devastate the New England fishing industry in the near term. This 
will give us the opportunity to amend the law to allow for the 
development of an appropriate long-term management plan that includes 
the proper balance between economic growth and resource protection. 
Again, we urge you to do whatever is necessary to ensure that these 
additional steps are undertaken before the Amendment 13 process moves 
ahead any further.
    Thank for your attention to this request. We look forward to your 
response.

Sen. Edward M. Kennedy

Rep. Barney Frank

Rep. John F. Tierney


    cc: William T. Hogarth; Assistant Administrator for Fisheries, NOAA
                                 ______
                                 
           Testimony on behalf of the Trawler's Survival Fund
    The Trawler's Survival Fund (TSF) would like to thank Senators 
Olympia Snowe and John Kerry for holding this hearing and for the 
opportunity to submit testimony for the record. We sincerely hope that 
this hearing will provide a mechanism to call for common sense and 
balance in the process for approving new regulations for the New 
England groundfish fishery.
    The Trawler's Survival Fund represents over 100 boats, both large 
and small, as well as local shore side businesses including fuel 
companies, fish wholesalers and gear suppliers, all of whom depend on 
groundfish to make a living for their families. Our members range from 
Provincetown, MA to Point Judith, RI, with the majority docked in the 
Nation's largest fishing port--New Bedford, MA. We have worked 
diligently throughout the process, at all levels, to influence 
Amendment 13 to the Multispecies (Groundfish) Fisheries Management 
Plan. We have attended and testified at New England Fisheries 
Management Council (the Council) meetings, worked with our 
Congressional delegation, met with the National Marine Fisheries 
Service (NMFS), and offered alternative scientific approaches, all in 
the hope of avoiding the situation we now find ourselves in a proposed 
Amendment 13 that creates economic devastation while providing no 
significant payoff in the future.
    It is important to note that the deep cuts proposed in Amendment 13 
come at a time when groundfish stocks are increasing dramatically, 
having tripled in biomass overall in just the last eight years. 
Fishermen have already made significant sacrifices under the current 
suite of restrictions put in place by the court settlement. The 
question before the Council, NMFS, and ultimately Congress, is not IF 
the stocks will recover, but what will be the cost to industry to reach 
never-before-seen biomass targets by the ten year timeframe required 
for most stocks by the Magnuson Stevens Fishery Conservation and 
Management Act.
    The release of the economic analysis of Amendment 13 by NMFS and 
the Council has validated the fears and predictions of the fishing 
industry. In its current form, Amendment 13 offers economic 
devastation, a loss of up to 3,100 jobs and over $200 million, while 
resulting in only about a 10 percent increase in landings and revenues 
10 to15 years down the road. The initial loss of fishing infrastructure 
makes it highly unlikely that the industry will exist in its current 
form by the time the predicted ``benefits'' are realized.
    Faced with the harsh economic realities, the fishing industry 
across New England has come together in an unprecedented way. While 
there is not complete unanimity in position, there is tremendous 
agreement on broad themes and suggested approaches.
    Biomass Targets--The New England Fisheries Science Center (NEFSC) 
has developed new biomass targets for each species within the 
groundfish complex using new and untested science. The new targets are 
in some cases double or even triple the size of the previous targets, 
and in many cases are significantly higher than any observed biomass 
level. Concerns about these new targets have been raised by the Peer 
Review and by an alternative scientific model, the age structure 
production model (ASPM), which has yielded significantly different 
results. Dr. Douglas Butterworth, an internationally known and 
respected fisheries scientist, has offered to assist NMFS and NEFSC in 
applying ASPM to the groundfish stocks. This model is used around the 
world, including for Alaska Pollock, our Nation's largest fishery. In 
response to requests from Senators Olympia Snowe, John Kerry, Susan 
Collins, and Edward Kennedy; Representatives Barney Frank, Tom Allen 
and Michael Michaud; TSF and Associated Fisheries of Maine; and two 
requests from the Council; Dr. Hogarth responded ``Age-structured 
population models will routinely be considered, as appropriate, when 
future benchmark assessments of groundfish resources are considered.'' 
Despite this recognition that ASPM is clearly a useful model and may be 
used in the future, NMFS and NEFSC have refused explore ASPM as a 
viable alternative for the current drafting of Amendment 13, instead 
insisting on science that is unproven and will have devastating effects 
on the fishing industry.
    Fishing Effort--It is generally agreed within the fishing industry 
that any significant cut in the Days at Sea (DAS) will have an 
irreparable impact on the nature of the fishing industry in New 
England. We acknowledge that some stocks need further protection, but 
generally believe that rather than significantly cut DAS, fishing 
effort can and should be shifted from weaker to stronger stocks. For 
instance, while Georges' Bank cod may need further restriction such as 
a lower trip limit, George's Bank haddock and yellowtail have 
sufficiently rebounded to allow higher fishing mortality.
    Mixed Stock Approach--For some time, TSF and others have asked NMFS 
to investigate a ``mixed stock'' approach to managing the groundfish 
complex, recognizing that each of the 15 species (19 stocks) contained 
within the groundfish complex are not independent of each other, and 
that it may not be ecologically possible to rebuild each individual 
stock to its maximum biomass. This approach would mean the development 
of a single biomass target, overfishing definition, and other reference 
points that apply to all the groundfish in aggregate. Since NMFS has 
refused to investigate this approach at this time, there is agreement 
within the industry to push for this analysis at the earliest possible 
opportunity after completion of Amendment 13.
    Flexibility--Given the limited options in the Amendment 13 document 
and the strict deadlines imposed by the court, TSF joins with others in 
the fishing industry, and in Congress, in strongly encouraging NMFS to 
allow the Council great flexibility, particularly in choosing biomass 
targets and fishing mortality rate reduction strategies. It will only 
be through creative and cooperative efforts that the end result will be 
a plan that the fishing industry will survive.
    TSF again thanks the Committee for its interests and efforts in 
this matter and looks forward to working for a common sense solution 
that BOTH rebuilds the stock and allows New England's heritage of 
fishing to survive.
                                 ______
                                 
    Prepared Statement of Corey R. Lewandowski, Executive Director, 
               New England Seafood Producers Association
    Madam Chairwoman. Thank you for the opportunity to offer my 
testimony here today regarding Amendment 13 and the economic 
ramifications that any of the pending four options would have on the 
New England economy. For the record, my name is Corey R. Lewandowski 
and I am the Executive Director of the New England Seafood Producers 
Association (NESPA).
    To provide you with background on our organization, the New England 
Seafood Producers Association (NESPA) is a non-profit organization 
representing the interests of New England's shore-side seafood 
industry. Formed in 2002, we seek to sustain the seafood industry by 
defending and promoting the historical right to harvest and process 
seafood in New England by educate consumers on the benefits that come 
from consuming seafood.
    NESPA is comprised of shore-side professionals in the seafood 
industry including, processors, distributors, wholesalers, importers, 
exporters, packagers and specialists in serving, selling and preparing 
seafood.
    NESPA's is here to submit to you that throughout the New England 
area, if Amendment 13 were implemented, just how detrimental it would 
be to the economic livelihood of the region and the overall fishing 
industry of New England.
    As the Executive Director of NESPA, I would like to share with you 
on behalf of our members, some statistics that support the economic 
impact that will be felt on shore side facilities. Madam Chairwoman, a 
study conducted covering the period 1992-1998, by the University of 
Massachusetts-Dartmouth indicated that the New England shore side 
industry has already lost 40 percent of capacity. Since that study was 
conducted, specifically, in the state of Maine, the number of Wholesale 
Seafood Dealers' licenses, excluding lobster licenses, from 2000 to 
2003 has dropped from 210 to 173. That is an additional decrease of 
17.6 percent in issuances of licenses alone. If Amendment 13 is 
implemented, we can expect a much more dramatic decrease over the next 
five years.
    The socioeconomic effects of Amendment 13, if implemented would 
decimate the New England economy. Decreases in gross sales were 
calculated on each port as well as on the overall impact on the economy 
and here's what was determined.
    Port by port industry sales would be affected as well as sales on 
Non-Maritime businesses. For example, Non-Maritime businesses in New 
England would witness sales decreases of9.5 percent, the Upper Mid-
Coast of Maine would see decreases of 1.9 percent, the lower Mid-Coast 
of Maine 11.4 percent, Southern Maine, because of its strong economy, 
would witness only Y2 of 1 percent decrease. The New Hampshire seacoast 
would witness sales loses of 5.1 percent. Gloucester Massachusetts 
would be hit with 13 percent decreases, Boston with a massive 20 
percent decrease, on Cape Cod and the Islands we would see a decrease 
of 3.6 percent, The New Bedford economy might not be able to survive 
with expected losses of 19.1 percent. The state of Rhode Island would 
see a decrease in sales of 5.8 percent, and the Connecticut Seacoast 
would see 9.1 percent decline.
    As you know, there is a direct correlation between sales and jobs 
in any industry and the fishing industry is no different. As you can 
tell from the aforementioned statistics, with the expected sales 
decrease as a result of the implementation of Amendment 13, there will 
also be job loss due to cut backs and layoffs. The employment impacts 
on Massachusetts Fishing ports will be a decrease of 58.5 percent and 
the personal income impacts, meaning the amount of wages lost, in the 
Massachusetts fishing ports alone, will be 58.1 percent of all industry 
wages.
    There is no doubt that Massachusetts will be hardest hit if 
Amendment 13 is implemented under any of the current options but, all 
states will feel the impact. Maine will see decrease in jobs in the 
lower Mid-Coast of 14.8 percent, Rhode Island will see job losses at a 
rate of 5.4 percent and Connecticut will feel a 5.8 percent employment 
impact. But, perhaps most importantly is the Non-Maritime impact that 
will be felt. The current estimate stands at 8 percent in New England. 
How many more statistics do we need to cite to demonstrate the 
importance of the fishing industry on the New England economy?
    While these numbers are staggering, I am not here today to advocate 
for one alternative or another regarding Amendment 13 because currently 
no fair alternatives have been set forth. More importantly, I am here 
today to help educate you, the Subcommittee, the New England Fisheries 
Management Council (NEFMC), the National Marine Fisheries Service 
(NMFS) and others in attendance as to the overall economic 
ramifications that ALL four proposed alternatives will have on the New 
England seafood industry. The fact remains Madam Chairwoman the current 
regulations are working. Stocks are rebuilding. And the small gain 
projected by NMFS opposed to no new action is not worth the real 
economic impact that will be incurred at the onset.
    Like all other industries, the fishing industry has evolved to 
become more professional, run by business minded individuals. Gone are 
the days when the market was dominated by small supermarket chains, 
old-fashioned fish markets and independent restaurants that could react 
quickly to significant fluctuations in supply and pricing. Today, 
people have to write business plans and work with the food service 
industry which is dominated by larger corporate end-users and 
professional managers who value planning and predictability and have a 
wealth of options to choose from. We no longer work on a day-by-day or 
week-by-week basis, customers require us to forecast our sales plans 
months ahead of time. Any further disruption in our supply will force 
these corporate giants to find other, non-local products to provide 
their customers.
    It is critical to realize that the proposed new regulations reach 
beyond the ocean and affect thousands of shore side individuals that 
have worked in this industry for generations. Many of us have heard the 
statistic that for each job on a fishing boat, there are seven jobs on 
land.
    With that in mind, last year, NESPA commissioned an economic report 
on the seafood industry in New England. The report aggregated 
information on company size, the number of full time employees and the 
wages generated by these entities. Some of those findings are included 
in my testimony today.
    According to the National Marine Fisheries Service, the seafood 
industry in the U.S. accounts for 250,000 jobs and contributes $27 
billion to the U.S. GNP. According to NESPA's own study, there are 
approximately 488 seafood companies in New England with combined annual 
sales of over $5.7 Billion. Sales from the New England industry alone 
are four times greater than the annual operating budget of the City of 
Phoenix, AZ ($1.4 Billion).
    The New England seafood industry plays a pivotal and important 
economic role both in our region and throughout the world. Hundreds of 
fishery products are produced from New England waters, from eels to 
lobsters, and have been sought by retailers and restaurant operators 
both nationally and internationally for over 200 years. The fishing 
ports of New Bedford, MA; Point Judith, RI; Portland, ME; and 
Gloucester, MA have consistently ranked in the top 15 ports in the 
United States. Perhaps most importantly, the seafood industry in New 
England employs almost 14,000 full-time workers and generates annual 
wages totaling almost $430 million. Where will these individuals go if 
Amendment 13 is implemented? People will lose their jobs, become 
reliant on state assistance and have to be retooled after spending most 
of their lives in the only industry they have known.
    Our shore side industry doesn't have the ability to look elsewhere 
to supplement its business. Supplementing business began 8 years ago 
and now they have exhausted all the opportunities available to them. 
When times were tough, processors became more reliant on frozen at sea 
whole fish. But, because we are in a truly global economy, and we have 
witnessed a strong rise in the value of the Euro, more product is 
landing in Europe leaving less supply for domestic shore side 
facilities to process. Where else can these processors go?
    I hope what I have conveyed to you Madam Chairwoman through these 
staggering economic figures is that the seafood industry is much more 
than just the boats. It is critical to keep in mind just how large in 
scope the New England seafood industry is and remember how the fish on 
your dinner plate came to be.
    Amendment 13 will not just affect those of us working in the New 
England region; it will have global economic implications. It is 
attributed to the harvesters, the processors, packagers, distributors, 
buyers and retailers that people around the world are able to enjoy our 
healthy, locally product. People's lives will be profoundly and 
irrevocably changed forever if the National Fisheries Management 
Council advocates or implements any of the four alternatives in 
Amendment 13.
    Our own government studies acknowledge that we will lose 2,100 jobs 
in the first year alone. I would like to be on the record stating that 
this number is grossly understated. The fact is, no one knows precisely 
how many jobs will be lost but I can assure you of one thing, many of 
these jobs will come from the shore side community. As you may know, 
shore side facilities operate on increasingly small margins and any 
interruption in the supply of fish will devastate these margins. 
Moreover, the disruption caused by the implementation of Amendment 13 
will increase operating costs and will force processors to reduce the 
number of skilled workers they employ. Once these individuals are gone, 
and the fish are harvested again, there will be massive costs to 
retrain unskilled workers. Candidly, our shore side facilities cannot 
sustain the impact that Amendment 13 will have on their markets for 
fresh fish and many will be forced out of business.
    As a former Congressional staffer who was involved in the 
Sustainable Fisheries Act of 1996 and professional staff member of the 
U.S. Senate Environment and Public Works Committee (EPW), I would like 
to clarify the intent of the Sustainable Fisheries Act. I submit that 
the management options under Amendment 13 as currently proposed do not 
satisfy the requirements of the Sustainable Fisheries Act. They may 
indeed satisfy the NMFS guidelines but they do not, in any logical 
interpretation of the SFA, satisfy the law itself.
    Because such conflicting advice has been presented to the NEFMC, 
their role should be as arbiter of ``best available science'' and, I 
believe, it has a statutory responsibility to recommend reasonable 
biological goals and understand that the biomass targets are within the 
realm of historic observation. It is also incumbent upon NEFMC to take 
into account the needs of the fishing communities and the socioeconomic 
effect when attempting to make their recommendations to the National 
Marine Fisheries Service. The fact remains the current management plan 
is working and will allow the core industry to survive. This option 
will satisfy the Sustainable Fisheries Act.
    In conclusion, I have heard from shore side employers all over New 
England and they have informed me that they cannot support any of the 
current alternatives in Amendment 13. We must take a long hard look at 
the economic impact that these alternatives will have on our present 
and future infrastructure, our dependence on foreign product and our 
own livelihoods. The National Marine Fisheries Service (NMFS) must be 
made aware of what will happen to shore side facilities and their 
employees should any of these options be implemented. Madam Chairwoman, 
I asked you to relay these messages to NMFS on behalf of the shore side 
industry, on behalf of the harvesting industry and on behalf of the men 
and women who have risked their lives in order to allow us to consume a 
healthy, sustainable and local product.
    Lastly, I would like to reiterate four recommendations to the 
Subcommittee. First, the Sustainable Fisheries Act (SFA) clearly states 
that the Council must balance all national guidelines; it is our 
contention this is not be followed. Second, the SFA grants a multi-
species exemption to single stock Maximum Sustainable Yield (MSY) 
management. Third, the SFA requires we take optimum yield from the 
fishery-MSY not 75 percent of MSY. And lastly, the Subcommittee should 
encourage the Council to choose the three highest average methods of 
setting rebuilding goals. Thank You.
                                 ______
                                 
                                  New Bedford, MA, October 17, 2003

    To the respected Americans who may have any impact on Amendment 13:

    I am here today to address a serious concern. I am concerned about 
the families that will be affected by Amendment 13, and especially the 
children of those families. I am concerned about the children with 
visions and dreams. I want those children to feel secure that the 
opportunity to accomplish their dreams does exist. I can say this 
because I have accomplished my goals and I am continuing to conquer my 
dreams that I had as a child. I would not be able to succeed without 
the support of my family, a family that is supported by the industry 
that we are fighting for, here today.
    Growing up I knew that my father was not a doctor, nor a lawyer, 
nor did he have any form of higher education. This did not concern me. 
As long as I knew that this industry could stay alive, he could provide 
sufficient money to raise our family. Knowing this, I felt secure and 
my mind could remain focused on my education.
    I am graduating this May, from Northeastern University as a 
mechanical engineer. I will graduate as a cum laude student. I have 
already started a business, and pursue a career as a pure entrepreneur. 
I could not say this without the existence of this industry. I am here 
today as a product of the industry that has supported my family and 
helped me to accomplish my dreams.
    I am very proud to live in this land of opportunity where dreams 
may be explored. However, there has existed many moments throughout the 
history of this country that has made the United States of America what 
it is today. I must say that today is one of those moments.
    Amendment 13 is an amendment made by critics. Amendment 13 is a 
plan, developed by a regime that wants to take control of the fishing 
industry. By cutting more days and limiting more areas, only the vessel 
owners with many vessels will survive. More restrictions will eliminate 
the large majority of fishing contributors, hence making the industry 
easy to control. In order to study the behavior of fish growth, 
extensive research is required, which the regime that have developed 
Amendment 13 have failed to do. Scientists in Iceland and Greenland 
have heavily studied ground fish reproduction and they say that ground 
fish will not reach extinction. Ground fish have a survival instinct to 
spread evenly across the ocean floor during their reproduction period. 
Even with these studies, man still cannot predict fish growth.
    Man cannot predict, man can only prevent. Man only wins when he 
does what is right to benefit the people of his surroundings. The 
Soviet Union was a regime. A regime with a plan that did not benefit 
the people . . . they failed. Hitler was the master of all critics. He 
also had a regime with a plan. A plan that did not benefit the people . 
. . it failed. Saddam Hussein also had a regime with many plans. Plans 
that did not benefit his people and only hurt our people. Thanks to 
President Bush, Saddam's plans are now failing.
    Man only wins when he does what is right. Right is not developing a 
plan that controls and limits the lives of the people. Right is to do 
whatever it takes to benefit and protect the people of our 
surroundings. Right is realizing that man cannot predict. I can proudly 
say that The United States of America is the strongest nation in this 
world because we have decided not to predict, not to be critics and not 
to develop regimes. Instead we do what is written on every piece of 
currency made in the United States of America, ``In God We Trust.'' 
With this in mind we do not feel the need to be critics, instead we do 
what benefits and protects the people of our country.
    As Franklin Delano Roosevelt said on April 23, 1910

        ``It is not the critic who counts; not the man who points out 
        how the strong man stumbles, or where the doer of deeds could 
        have done them better. The credit belongs to the man who is 
        actually in the arena, whose face is marred by dust and sweat 
        and blood; who strives valiantly; who errs, and comes short 
        again and again, because there is no effort without error and 
        shortcoming; but who does actually strive to do the deeds; who 
        knows the great enthusiasms, the great devotions; who spends 
        himself a worthy cause; who at the best knows in the end the 
        triumph of high achievement, and who at the worse, if he fails, 
        at least fails while daring greatly, so that his place shall 
        never be with those cold and timid souls who know neither 
        victory nor defeat.''

    It is not the critics who have developed Amendment 13 who count. 
The credit belongs to the fisherman, true Americans whose faces are 
marred by dust and sweat and blood, so that their children may enjoy 
the fruits of their labor and live up to their dreams. We Americans 
have this opportunity because we live in a country that protect and 
benefit the people, not one man or regime. Amendment 13 is simply a 
plan made by a regime that wants to control the fishing industry. This 
plan predicts that we are losing fish. I cannot predict, but I can 
prevent our country from losing pride in what it takes to say ``I am an 
American.''
                                              Robert Nunes.
                                                       New Bedford, MA.
                                 ______
                                 
                              Portland Fish Exchange., Inc.
                                     Portland, ME, October 18, 2003
Hon. Olympia Snowe,
Chair,
Subcommittee on Oceans, Fisheries, and Coast Guard,
Washington, DC.

Dear Senator Snowe,

    The Portland Fish Exchange is Maine's primary offloader of 
groundfish, handling nearly 90 percent of all product landed in the 
state. We respectfully submit these comments as the Portland Fish 
Exchange's testimony for the Senate's Subcommittee on Oceans, 
Fisheries, and Coast Guard hearing of October 22 regarding the National 
Marine Fisheries Service's (NMFS) interpretation of the Magnuson 
Stevens Fishery Conservation and Management Act (MSA).
    There appears to be general consensus that NMFS' interpretation of 
the law, as most recently expressed in the development of Amendment 13, 
is often at odds with Congressional intent. We note that as far back as 
1998, Senator Snowe, you were expressing concern over that 
interpretation, and emphasizing the importance of exercising 
flexibility and common sense in management of a multispecies complex. 
You have periodically reiterated those principles in the years since. 
To be blunt, your concerns have not been addressed. Had they been, we 
would not be here today.
    The MSA is fundamentally a well crafted piece of legislation, and 
is in fact widely supported by fishing interests in Maine. The National 
Standards are sound. The decision to delegate responsibility for 
attaining them to regional Councils is a very logical method of 
utilizing regional expertise to address regional issues. The MSA 
emphasizes the importance of resource conservation but ensures that 
responsible use of the resource for the Nation's benefit is a prominent 
part of the equation. Balancing these competing interests is indeed 
difficult, but Congress never thought it would be otherwise. Thus the 
MSA very deliberately and explicitly grants the NMFS the ability to 
exercise flexibility in achieving that balance. This is a good law.
    Regrettably, a barrage of litigation from the environmental lobby 
has resulted in a very narrow interpretation of the MSA by NMFS and the 
courts. In New England's groundfishery, the NMFS appears to be focused 
almost exclusively on National Standard 1. A quick comparison of 
Amendment 13 to the MSA suggests that Standards 2, 4, 5, 6, 8, and 10 
are receiving scant attention. The result of this imbalanced 
interpretation is shown in the economic analysis of Amendment 13: 
Thousands of lost jobs and tens of millions in lost wages, for a 
negligible gain in resource productivity 20 years hence. Senator Snowe, 
we respectfully submit that just as surely as the MSA's vision was not 
being realized 15 years ago when harvesting effort was virtually 
unlimited and the groundfish resource was in decline, it is not being 
realized again when the resource is skyrocketing but the majority of 
Maine's fleet will be put out of business. The NMFS is overcorrecting 
for a course error made long ago. It needs some navigational guidance, 
and a more deft touch at the helm.
    The NMFS has consistently ignored your reminders to balance all of 
the National Standards. It has refused to develop a New England 
multispecies stock biomass model and associated overfishing definition. 
It has declined to analyze specific conservation measures brought 
forward by industry--measures more restrictive than those currently in 
place--to alleviate fishing effort on species such as Georges Bank 
codfish. It presses for unrealistic and possibly unattainable biomass 
targets even in the face of independent scientific skepticism. And its 
courtroom capitulation in defense of balancing the National Standards 
in the Northeast multispecies fishery is frankly shameful.
    The news is not all bad. We have made remarkable progress in 
restoring populations of fish. Our scientific understanding of the 
resource, though still inadequate, is improving. We are now proactive, 
rather than reactive, in addressing conservation issues.
    But the course the NMFS has set does not include restoration of our 
fishing communities along with the fish. In fact, it won't even retain 
them. And we believe Congress must oversee the helmsman to ensure that 
the course Congress plotted is the course that is followed.
    There is precious little time before the NMFS' continuing 
m1smterpretation of the Magnuson Act results in irrevocable harm to 
Maine's fishing communities. The time has come for clear instruction. 
We hope you will provide it.
            Sincerely,
                                                Hank Soule,
                                                   General Manager,
                                                Portland Fish Exchange.
                                 ______
                                 
To: Senator Olympia Snowe
From: Dr. Ilene M. Kaplan
Woods Hole Oceanographic Institution and
Union College

October 19, 2003

Re: Amendment 13/Social and Socio-economic impacts

    My research program focuses on socio-economic trends in the New 
England commercial fishing industry (my cv is attached) and I am 
writing to you concerning the problems with Amendment 13. For purposes 
of clarity for the upcoming hearing with Dr. Hogarth, I will keep my 
assessments of the issues short and in list form:

  1.  Amendment 13 does not use the best social science available; the 
        social impacts that it discusses suggest only ``the tip of the 
        iceberg.'' Proper social and economic impacts should be based 
        on representative, random sampling techniques of the diverse 
        groups in the commercial fishing industry. Such methodological 
        sampling was not done for this important amendment. The focus 
        groups referred to are not representative and only ``suggest'' 
        the concerns of the people who are able to attend such 
        meetings. This should be unacceptable for such an important 
        regulation.

  2.  There does not seem to be any checks and balances regarding the 
        role of the National Marine Fisheries Service in this process. 
        NMFS makes the final judgment regarding what research is 
        conducted, NMFS carries out the research, NMFS has the final 
        decision in picking who reviews their research, and NMFS, in 
        the current organization of the Council system, has a major 
        influential, and ultimate role, in what regulations are 
        accepted.

  3.  The diverse commercial fishing industry with many types of 
        harvesters, processors/dealers, marine services and family/
        social groups has not been fully asked to participate in the 
        process. The ``last minute'' rush for new proposals is not a 
        fair or appropriate way to ask for input--comanagement, the 
        basis for the Council system, has not been used reasonably or 
        fairly in this process.

  4.  Congressional Acts such as Magnuson (including National Standard 
        8), NEPA, RFA and various Executive Orders call for socio-
        economic assessments and/or sensitivity to community stability, 
        yet NMFS has not given such assessments priority. It is rare 
        for the New England region of NMFS to allocate time or 
        resources for its social science staff to go into the 
        communities to conduct research for most fisheries management 
        questions. Such social and socio-economic assessments must 
        include surveying people--the Social Science Advisory Committee 
        to NEFMC has officially stated and written this to the Council.

  5.  The short term problems created by Amendment 13 alternatives are 
        not ``efficient'' from a social perspective-they increase 
        unemployment with a snowballing negative effect on family life 
        and community economic status.

  6.  Did the NOAA lawyers argue, before Judge Kessler and in other 
        court cases with resulting biological assessment deadlines, 
        their intention and requirements to meet social and economic 
        assessments and maintain stable conditions-if not, why not?

  7.  In particular, the Regulatory Flexibility Act protects small 
        businesses. The problems that are already red-flagged in the 
        DSEIS Amendment 13 make it obvious that the alternatives are 
        not the appropriate ones to reach conservation goals. Why 
        weren't other alternatives pursued, in a more timely fashion, 
        that did not have such significant social and economic 
        problems?

  8.  I am currently the co-chair of the Social Science Advisory 
        Committee to NEFMC but our committee has never been asked to 
        officially review or comment on Amendment 13 DSEIS. This 
        committee, consisting of expert social scientists, should have 
        been consulted early in the process.

    Thank you for the opportunity to write to you and your community. I 
hope that these issues can be addressed at the upcoming hearing. I 
would be happy to meet with you to work on improving the role of social 
science in the fisheries management process.
                                 ______
                                 
                              Associated Fisheries of Maine
                                South Berwick, ME, October 20, 2003
Hon. Olympia Snowe,
Chair,
Subcommittee on Oceans, Fisheries, and Coast Guard,
Washington, DC.

Dear Senator Snowe:

    Associated Fisheries of Maine is a trade organization of fishing 
and fishing dependent businesses including harvesters, processors, 
fuel, gear and ice dealers, and other individuals and businesses with 
an interest in commercial fishing. The majority of our members are 
principally or solely dependent on the New England groundfish fishery 
for business and personal income.
    Associated Fisheries of Maine would like to thank you for your 
recent visit to Portland, ME and for the extraordinary amount of time 
you spent listening to members of Maine's groundfish industry about the 
pending Amendment 13 to the groundfish plan. We appreciate your 
commitment to help minimize the unnecessary but certain economic 
disaster that will occur if any one of the proposals in Amendment 13 is 
approved.
    We understand that you have scheduled a hearing before the Commerce 
Subcommittee on Oceans, Fisheries and Coast Guard on October 22, 2003 
for the purpose of questioning the National Marine Fisheries Service 
(NMFS) regarding Amendment 13, as well as that agency's interpretation/
implementation of the Magnuson Stevens Fishery Conservation and 
Management Act (MSA). I respectfully request you enter this letter into 
the record as my testimony on these matters on behalf of Associated 
Fisheries of Maine.
    As you are well aware, the New England groundfish fishery has 
operated for many years under a highly restrictive suite of management 
measures. This management system has resulted in significant reductions 
in capacity and fishing effort, as well as dramatic increases in 
biomass levels for many species. The groundfish resource, as a whole, 
has tripled in the last eight years, and all indications are that it 
will continue to grow, and double again during the next 10 to 20 years, 
even if no additional restrictions are put in place. Some species in 
the groundfish complex, like Georges Bank haddock and Georges Bank 
yellowtail, are at the highest levels seen in 30 years. Others species 
such as Gulf of Maine cod, Georges Bank winter flounder and witch 
flounder are at the highest levels seen in 20 years.
    New England groundfishermen, and especially those in our home state 
of Maine, have sacrificed to achieve these remarkable results. 
Associated Fisheries of Maine has a longstanding and positive record of 
cooperation with fisheries managers to craft regulations that achieve 
conservation objectives, allow for economic stability, and minimize 
threat to human safety.
    The Maine groundfish industry, including the supporting 
infrastructure, is now at a critically low level. Additional losses of 
boats, processors, or support businesses will jeopardize Maine's 
ability to participate in the fishery both today and in the future. We 
share with you the goal of seeing the resource continue to grow and for 
our fishing communities to flourish. All of that, however, is at stake.
    The pending economic crisis in the New England groundfish fishery 
is not a result of stock decline or environmental disaster, but rather 
the result of a very narrow and rigid interpretation of the MSA by the 
NMFS and the courts. In fact. if not for the lawsuit brought by the 
Conservation Law Foundation and others, the New England groundfish 
management plan would be considered a model conservation plan. Sadly, 
it appears that unrelenting litigation has reduced the NMFS to a new 
level of incapacitation for which we all will suffer.
    Associated Fisheries of Maine offers personal and professional 
thanks to you, Senator Snowe, for your many letters to the NMFS 
detailing your expectations that the agency must take into account and 
balance all of the National Standards, and especially National Standard 
8, which directs the agency to consider and mitigate the social and 
economic impacts of fishing regulations on fishing communities. It has 
become clear to all, however, that not only is balance not being 
achieved, balance is not even being attempted. Our hope is that the New 
England groundfish situation will now crystallize the obvious need for 
amending legislation that clarifies that balance must be achieved.
    In the shorter term, we hope that the Subcommittee will give the 
NMFS clear direction regarding the goals of Amendment 13. As you know, 
the Northeast Fisheries Science Center recently recommended significant 
changes to previously approved groundfish reference points, changes 
that resulted in the doubling of biomass targets for some species. Some 
of these new targets are at levels higher than ever observed.
    An international peer review panel examined these new targets, 
raised serious doubts about their validity and practicability, and 
recommended proceeding with caution. We, therefore, ask that you and 
members of the Subcommittee direct the NMFS to exercise the greatest 
flexibility possible in approving more realistic biomass targets, ones 
that are much closer to population levels that have actually been 
observed. In addition, we hope the Committee will instruct the NMFS to 
approve the scientifically justified ``phased'' fishing mortality 
reduction strategy. This approach will provide New England fishermen 
with the best chance of surviving any additional cutbacks.
    Thank you for the opportunity to share our fear that Amendment 13, 
as written, may bring the end to New England fishing communities. As 
such, we remain hopeful that you and the members of your Subcommittee 
will provide clear direction to the NMFS that commonsense, good science 
and flexibility shall be the order of the day.
            Sincerely,
                                            Maggie Raymond,
                                         Associated Fisheries of Maine.
                                 ______
                                 
                                      Portland City Council
                                     Portland, ME, October 21, 2003

Hon. Olympia Snowe,
Chair,
Subcommittee on Oceans, Fisheries, and Coast Guard,
Washington, DC.

VIA FACSIMILE

Dear Senator Snowe:

    Thank you again for your recent visit to Portland, to personally 
hear members of Maine's groundfish industry discuss the Amendment 13 
proposal. It is plain to me that your personal involvement has finally 
focused some badly needed attention on the flaws in this plan. Portland 
recently joined many others in making a comprehensive proposal in 
substitution for Amendment 13.
    I am glad to learn that you have scheduled a hearing before the 
Subcommittee on Oceans, Fisheries and Coast Guard to review the 
National Marine Fisheries Service (NMFS) approach to Amendment 13, and 
their interpretation of the Magnuson Stevens Fishery Conservation and 
Management Act (MSA).
    We see two issues of great importance.
    First, the Council has described that its cannot function outside 
the new fisheries targets by order of the Fisheries Service. The state 
of Maine, after fully detailing all the flaws in this approach, 
actually acknowledges that the Council should use some elements of them 
because otherwise, the Fisheries Service will simply overturn the 
Council's action.
    This is the worst form of bureaucratic mismanagement.
    I hope you will press the Fisheries Service and the Commerce 
Department to reintroduce some common sense and judgment into this 
issue. The ``instructions'' to the Fisheries Council--these may be 
found in the public information documentation--are outrageous.
    Outside of the cocoon of the process leading to the fish target 
calculations, it is obvious that stock rebuilding that projects 
population levels higher than have ever existed is somewhat off.
    Use of the new targets will undermine the confidence and assent of 
the public and the industry in fisheries regulation. This is no small 
feat because, to date, the public and the industry, at great short term 
loss and pain, has supported the most stringent, and one of the most 
successful fisheries conservation programs in the world. Worst of all, 
use of those targets without far better validation of their 
presumptions will undoubtedly be viewed by many as an abject 
capitulation to any result from a rote process. The convenience of 
officialdom in seeking to avoid the discomforts of making an informed 
judgment and thereafter, possibly, defending it in litigation is not 
basis for proceeding differently than in the radical manner of 
Amendment 13.
    Second, the tenuous basis for these targets surely means that a 
flexible fishing mortality strategy, like a ``phased reduction'' 
strategy, is a prudent approach. I hope you will press the Fisheries 
Service to acknowledge this management tool, and others which will 
focus on the problem species instead of a broad brush approach.
            Very truly yours,
                                         James F. Cloutier,
                                                             Mayor.
    JFC:dps
                                 ______
                                 
Hon. Olympia Snowe,
Chair,
Subcommittee on Oceans, Fisheries, and Coast Guard,
Washington, DC.

Dear Senator Snowe:

    I join with the commercial fishing industry in Maine, in the other 
New England States, and on both coasts of the U.S. in thanking you for 
the interest you have shown in and the support you have extended to the 
New England groundfish industry. The severe problems in that fishery 
are a reflection of the shortcomings in the Sustainable Fisheries Act 
and in how it is being administered, and while other fisheries might 
not be affected as severely, they are all suffering from these 
shortcomings, and virtually every member of the fishing industry as 
applauding your and your colleagues' efforts to put things right.
    With the support of a number of commercial fishing businesses and 
organizations, I write and distribute a publication titled FishNet USA 
in which I examine various topical fisheries issues. Last month the 
issue was, not surprisingly, devoted to the groundfish situation in New 
England. It provides some background information which might be 
relevant to the hearing you are holding on October 22, so I have 
included it below.
    Thank you again for your efforts on behalf of the commercial 
fishing industry.
            Sincerely,
                                               Nils Stolpe,
                                                           FishNet USA.

<><><><><><><><><><><><>

    Is it really about saving the fish?
    At this point, thanks to a successful PR campaign by anti-fishing 
interests, anyone with a superficial knowledge of the New England 
groundfish fishery who lacks either the resources or the curiosity to 
find out what's really going on has been convinced that stringent 
cutbacks inflicted on commercial and recreational fishermen today will 
lead to an overabundance of fish tomorrow.
    New England fishermen and fisheries managers rightly see the 
survival of the many New England fishing businesses as being as 
important as the survival of the fish. The standard litany of the 
groups and individuals--the so-called ``conservationists''--aligned 
against them is that cutbacks in fishing effort today will yield 
tremendous returns to those same businesses, communities, fishermen and 
their families tomorrow. In the often repeated words of Pew Charitable 
Trusts funded Oceana lawyer Eric Bilsky, ``The short-term squeeze is 
worth getting three times more catch in the long term,'' (Every day 
you're open and there's no fish, you're hemorrhaging cash, Portsmouth 
Herald, 05/07/02). Of course, Mr. Bilsky's and the rest of the anti-
fishing claque's position ignores the impact that the irrevocable 
damage to hundreds of New England businesses, dozens of New England 
communities, thousands of New Englanders, and a centuries-old way of 
life will have on the possible rebuilding of the New England fishing 
industry, but will it eventually return two or three times more fish to 
the fishermen that remain?
    Their brand of fisheries management (or more accurately, of media 
manipulation) might sell in the Mary Poppins inspired world of 
foundation-funded NGOs where tens of millions of oil generated dollars 
may be had, it appears, simply for the asking. In the real world that 
the rest of us inhabit, confronted by realities like rampant coastal 
development, the onslaught of imported seafood products and the 
necessity of actually having to work productively for a paycheck, Mr. 
Bilsky's ``spoonful of sugar'' is more likely to choke the patient than 
to help him swallow the medicine. As can be made crystal clear by a 
quick examination of readily available government data, that 
``medicine'' is more akin to a placebo than to anything that will 
improve the fisheries more significantly than less stringent measures. 
And, if adopted, those less stringent measures would allow much of the 
fabric of New England's fishing communities to remain intact.
    Thanks to a series of amendments to the fishery management plan 
that controls recreational and commercial fishing of New England's 
groundfish (actually the Northeast Multispecies [Groundfish] Fishery 
Management Plan) most of those stocks are and have been on their way to 
recovery for several years.1 Unfortunately, this recovery wasn't rapid 
enough nor apparently the damage to New England's fishing communities 
severe enough for the ``conservation'' community. So some of its 
members filed suit in Federal court to help things along. Oceana, a new 
group self described as ``a nonprofit international advocacy 
organization dedicated to protecting and restoring the world's oceans'' 
and established with at least $13 million from the ``charitable'' 
trusts established by the family of the founder of Sun Oil joined in.
    In April of 2002 U.S. District Judge Gladys Kessler held that an 
amendment to the Northeast Multispecies Fishery Management Plan had to 
be promulgated by August 22, 2003 that ``complies with the overfishing, 
rebuilding and bycatch provisions of the SFA (Sustainable Fishing 
Act).''
    The various alternative amendments to the FMP now under 
consideration are a result of Judge Kessler's decision.
    In the materials prepared by the staff of the New England Fishery 
Management Council in support of Amendment 13 we find:

        The difference in present value between the No Action 
        Alternative and rebuilding (any strategy) is less than $300 
        million over 23 years. Mean total landings for the regulated 
        groundfish species, projected to be about 127 million lbs in 
        2003, were projected to be 289 million lb. in 2026 (when all 
        stocks are rebuilt) for the ``No Action'' alternative as 
        compared to 327 and 310 million lb. for the constant mortality 
        and phased reduction rebuilding strategies, respectively. 
        Nominal revenues under no action are expect to increase to $344 
        million in 2026, but will increase to $355 million under the 
        phased reduction strategy and $375 million under the constant 
        mortality or adaptive strategies. Net benefits would increase 
        to $280 million under no action, but would increase to between 
        $310 and $327 million under any rebuilding strategy 3. (Note 
        that the ``No Action Alternative'' is actually the continuation 
        of the stringent management measures that have been in place 
        and working in the groundfish fishery for several years.)

    Each of the alternative groundfish management regimes will result 
in a ``return'' of less than $300 million over 23 years above and 
beyond what would be realized by just maintaining the management 
program that is now in place. That's an average benefit of only $13 
million a year for each of the next 23 years.
    Of the three alternative strategies, two are expected to ``yield 
positive economic benefits'' by 2018 and one by 2021.

<><><><><><><><><><>

    Projected percentage change in groundfish landings relative to the 
``No Action'' alternative

Year F--Rebuild Phased F Adaptive

2004-30% -16% -19%

2005 -31% -23% -20%

2006 -30% -26% -17%

2007-28% -26% -14%

2008 -26% -26% -12%

2009 -22% -20% -15%

2010 6% 4% -12%

2011 6% 5% -7%

2012 5% 2% -6%

2013 5% 2% -3%

2014 5% 4% -1%

2015 10% 6% 12%

2016 9% 6% 11%

2017 9% 5% 11%

2018 9% 5% 10%

2019 9% 6% 10%

2020 9% 4% 10%

2021 10% 3% 10%

2022 10% 4% 10%

2023 10% 5% 11%

2024 11% 7% 11%

2025 11% 7% 11%

2026 11% 8% 11%

Total 1% -1% 2%

    In the three alternatives the cutbacks in the first 6 to 11 years 
will force landings lower than they would be with the ``no action'' 
alternative. By year 2026 one alternative would yield a decrease of 1 
percent in cumulative landings, the others increases of 1 or 2 percent.

<><><><><><><><><><>

    Total groundfish landings by 2026 will be a maximum of 13 percent--
certainly not the 300 percent projected by Mr. Bilsky--greater with the 
most stringent management measures being forced by Judge Kessler's 
decision than they would be with the continuation of the existing 
management program (the alternative somewhat misleadingly labeled ``No 
Action'' in the proposed amendment and supporting materials). The 
rigorous requirements of the management program that is now in place 
have already demonstrated they will rebuild the groundfish stocks while 
allowing New England's fishing communities to remain at least somewhat 
intact and fishing and support businesses--at least some of them--to 
remain economically viable. They just won't rebuild them as rapidly as 
Mr. Bilsky et al have decided they should be rebuilt4.
    And what do the New England economy, New England's fishing 
businesses and New England's fishing communities pay for this 
accelerated increase? The various alternative regimes would cost 
fishing and related/dependent businesses in the New England states from 
$94 million to $217 million in lost sales, $38 million to $88 million 
in lost personal income and from 1,300 to 3,000 lost jobs.5
    Obviously, the cutbacks proposed in any of the alternatives would 
force additional numbers of waterfront businesses into bankruptcy. 
These businesses, including those providing vessel and crew support and 
fish processing, handling and marketing services, are all necessary to 
viable commercial fishing communities. The idea that those businesses 
will reappear after eight or ten or more years, when stocks have 
``rebuilt'' to adequate levels, represents wishful thinking (or 
purposeful misdirection) of the most egregious sort. Considering 
waterfront development pressures in virtually every coastal community 
from New Jersey to Maine, what was a packing house or a chandlery today 
will be another tee shirt shop or condominium development next week. 
And that's a development trend that's only going in one direction.
    (It's important to note here what appears to be a significant fault 
in the economic analyses of the proposed alternatives. In each the 
assumption is made that the ``complexion'' of the groundfish industry 
will remain the same; that is, a fleet of vessels of various sizes will 
continue to supply primarily fresh products to a large number of New 
England ports, commanding a fairly high price per pound. When, however, 
the cutbacks force many vessels out of business, there is going to be a 
significant level of consolidation, both in harvesting and in on-shore 
activities. This could lead to a fleet composed of a much smaller 
number of larger vessels, some or all of which would be doing on-board 
processing and freezing. Were that the case, the overall revenues 
generated per pound of fish landed could be reduced significantly below 
that for equivalent production levels supplying the fresh market. It 
doesn't appear as if this scenario was considered in the economic 
impact analyses.)

<><><><><><><><><><>

    Annual groundfish landings (in pounds) for ``No Action'' and other 
Amendment 13 Alternatives
    No Action F-Rebuild Phased F Adaptive

2003 127,804,289 136,122,934 136,016,419 136,107,358

2004 171,357,040 120,783,934 143,581,433 139,108,546

2005 194,340,342 133,286,969 149,266,262 156,083,764

2006 212,107,481 147,960,545 157,666,202 175,898,965

2007 225,025,685 162,081,824 167,207,764 193,457,853

2008 237,947,702 175,725,247 175,911,042 209,612,463

2009 242,300,813 188,742,778 194,337,866 205,554,960

2010 249,212,086 264,344,897 259,349,802 219,187,800

2011 247,846,760 261,562,918 260,401,626 231,487,370

2012 258,184,021 269,992,449 262,465,170 243,009,582

2013 262,057,974 273,992,704 267,879,269 253,552,639

2014 265,465,591 279,174,949 275,964,679 263,118,177

2015 268,850,613 294,926,671 286,244,837 301,954,127

2016 272,056,805 297,310,203 288,700,132 302,574,913

2017 274,974,226 300,109,840 288,368,560 303,878,564

2018 277,409,640 302,725,153 291,908,857 305,696,991

2019 280,043,836 305,663,323 295,498,105 307,932,161

2020 281,677,263 308,349,134 294,143,640 310,146,927

2021 283,731,290 310,989,626 293,186,731 312,482,020

2022 285,073,016 313,182,799 297,000,077 314,647,981

2023 286,248,624 315,356,458 300,552,886 316,739,394

2024 287,450,500 319,393,177 306,227,377 318,575,116

2025 288,361,400 320,743,054 308,998,417 320,237,697

2026 289,315,950 321,848,493 311,309,289 321,652,892

Total 6,068,842,947 6,124,370,079 6,012,186,442 6,162,698,260

Difference plus 55,527,132 less 56,656,505 plus 93,855,314

    Note that in the 3 alternative measures being projected total 
landings will not exceed those of the ``no action'' alternative until 
2010 at the earliest. Also note that there is at ``best'' less than a 2 
percent difference in the cumulative landings between the ``no action'' 
alternative and the others.
    And all of this for some predicted economic benefits that won't 
begin to accrue until 2018 or 2021 and will have a probably 
negligible--and statistically insignificant--impact on annual and 
cumulative landings once the ``break even'' point is reached.
    Given a careful examination of the statistics underlying the 
alternative management measures offered in Amendment 13, it's 
impossible to see how such minor potential benefits so far in the 
future can offset what everyone agrees will be immediate and 
significant pain spread throughout New England's coastal communities 
and beyond. Yet the anti-fishing groups, still standing behind claims 
of immense future benefits, continue, and continue to expand, their 
well-financed campaign to punish the commercial fishing industry. The 
data provided in support of Amendment 13 shows that they're not going 
to be helping the fish and they're definitely not going to be helping 
the fishermen. That being the case, the questions need to be asked: who 
are they doing it for and why are they doing it?

<><><><><><><><><><>

    \1\ See the FishNet issue ``Of Blood and Turnips'' at http://
www.fishingnj.org/netusa20.htm and visit Barbara Stevenson's website at 
http://www.bdssr.com.
    \2\ In 2000, 2001 and 2002 Oceana received $4,032,000, $5,035,000 
and $4,500,000 respectively from the Pew Charitable Trusts (See http://
www.pewtrusts.com/search/search_item.cfm?grant
_id=4488, http://www.pewtrusts.com/
searchlsearch_item.cfm?grant_id=4854, and http://www.pewtrusts.com/
search/search_item.cfm?erant_id=5159)
    \3\ Northeast Multispecies Draft Amendment 13, I-xvi.
    \4\ While the so-called ``conservationists'' will argue that they 
have only intervened in groundfish management because the Secretary of 
Commerce wasn't effectively implementing the provisions of the 
Sustainable Fisheries Act, they were in fact responsible (with the 
concurrence of a very few token fishing organizations) for those rigid 
provisions.
    \5\ Ibid., I-666
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Dr. William Hogarth
    Question 1. NMFS has tremendous power in determining the course of 
action for moving forward--your agency determines what research to do, 
selects peer reviewers, decides what to do with research findings, and 
has final say in what the regulations will be. Is this concentration of 
powers appropriate? Should NMFS have greater separation between the 
processes of fisheries science and allocation--why or why not?
    Answer. While it is true that NOAA Fisheries fishery scientists are 
heavily involved in the stock assessments that are used in federally-
managed fisheries, we do not believe that this constitutes ``tremendous 
power'' or an excessive ``concentration of powers.'' NOAA Fisheries 
conducts stock assessment surveys in fulfillment of Magnuson-Stevens 
Act regulatory requirements, and coordinates the planning of such 
research activities with the Regional Fishery Management Councils 
(Councils). The New England Fishery Management Council has the Stock 
Assessment Workshop process that provides for the review and approval 
of all stock assessment reports by independent scientists before they 
are presented to the Council. In addition, and this is particularly 
true of New England, we are relying increasingly on cooperative 
research programs in which NOAA Fisheries scientists work with 
fishermen in the collection of data. Peer review is often handled by 
the non-government Center for Independent Experts, a University of 
Miami-affiliated entity that provides impartial reviews. It is worth 
noting, too, that NOAA Fisheries has, through a recent reorganization, 
enhanced the independence of its scientific functions by establishing a 
headquarters science coordinator who reports directly to the Assistant 
Administrator for Fisheries.
    Regarding the issue of the concentration of power, NOAA Fisheries 
and the Councils manage in concert to achieve the goals established by 
the Magnuson-Stevens Act. The Councils are mandated to develop 
management plans and regulations, while the Secretary is directed to 
review, approve and implement the regulations. It is particularly 
important to note that the Secretary only has the authority to approve 
the actions submitted by the Council, or disapprove an action if it 
violates the Magnuson-Stevens Act or other applicable law. This shared 
responsibility for management, with the checks and balances established 
by the Magnuson-Stevens Act, and the process of peer reviews and 
organization of science within the Agency effectively limits the 
possibility of an excessive concentration of power. It also places the 
responsibility for compliance with the Magnuson-Stevens Act on both the 
Councils and the Agency. We believe, therefore, that no further action 
is necessary to address this issue.
    Additionally, we do not believe that science and allocation 
processes should be further separated. NOAA Fisheries science supports 
the Councils' conservation decisions, while allocations are, by and 
large, decided through the Council-driven public process.

    Question 2. It appears that NMFS has not taken full advantage of 
the flexibility available to it under the Magnuson-Stevens Act, and 
that your agency acts on some important issues--like requesting court 
delays, using independent peer reviewers, and granting timeline 
extensions--only after Congress weighs in. What prevents NMFS from 
making these types of policy decisions, consistent with the law, on its 
own? What is NMFS doing to be more pro-active on fisheries policy 
decisions?
    Answer. It has been NOAA Fisheries' policy to take advantage of the 
flexibility of the Magnuson-Stevens Act. The development of Amendment 
13 to the Fishery Management Plan for the Northeast Multispecies 
Fishery presents a good example of NOAA Fisheries' utilizing such 
flexibility. NOAA Fisheries invited the public to submit additional 
management options to the New England Fishery Management Council 
(Council) for consideration during development of Amendment 13, which 
resulted in a revised version of the Amendment being approved by the 
Council for submission to the Secretary of Commerce. Mitigating 
measures were included, consistent with the law, to minimize the 
impacts on fishermen. Also, alternative approaches for rebuilding were 
explored. The amendment development process made full use of the 
Council system to develop these measures and, the public was 
instrumental in shaping the course of the document. These aspects of 
Amendment 13 reflect NOAA Fisheries' willingness to use any flexibility 
that exists within the Magnuson-Stevens Act to ensure that conservation 
and rebuilding of fish stocks are achieved while meeting the needs of 
fishermen and their communities.
    In the CLF v. Evans litigation, NOAA Fisheries was pro-active in 
seeking a Settlement Agreement with a number of parties to the lawsuit 
and gained consensus from some of the parties to the point that the 
Judge adopted the Settlement Agreement. In the AOC v. Daley case, we 
have also asked for extensions to complete several EISs related to 
Court Orders to better describe Essential Fish Habitat (EFH) and the 
need, or lack of a need, to implement new measures to protect that EFH. 
NOAA Fisheries often uses the Center for Independent Experts (CIE) to 
conduct peer reviews on controversial issues in fishery management and 
fishery science. In 2003, members of the CIE participated in peer 
review projects (1) on New England groundfish, (2) Gulf of Alaska 
pollock, (3) Southeast Data Assessment review, (4) review of several 
stock assessments for Pacific Coast groundfish, (5) bycatch modeling 
for Pacific groundfish, and (6) trawl protocols.
    Please note response in Question #3.

    Question 3. Please tell me, in as much detail as you can, how NMFS 
interprets its ability to amend the rebuilding timeline. For example, 
NMFS must consider the biology of fish and the needs of fishing 
communities in setting timelines--what does this mean as NMFS goes 
forward with rebuilding the New England groundfishery and learns more 
about the biological and social constraints of the fishery? Under what 
circumstances might additional changes to the rebuilding timeline be 
warranted?
    Answer. In terms of Amendment 13 to the Fishery Management Plan for 
the Northeast Multispecies Fishery, the Council considered a rebuilding 
option with an ending date of 2009 for most stocks, and another option 
with a starting date of 2004 and an ending date of 2014 for most 
stocks. The Council chose the option with 2014 as an ending date for 
most stocks, after hearing public testimony and reviewing written 
comments on draft versions of Amendment 13. The Council chose the later 
end date (2014), for a number of reasons, including the need to conduct 
additional scientific work on the status determination criteria that 
have considerably changed the understanding of the biology of the 
groundfish complex and because rebuilding measures were not implemented 
pursuant to NOAA Fisheries' National Standard 1 Guidelines in 1999. In 
addition, with respect to the length of the rebuilding time periods, 
the Council, where appropriate and consistent with the Magnuson-Stevens 
Act, utilized the shortest period of time for ending overfishing and 
rebuilding, while taking into consideration the social and economic 
needs of fishing communities and fishing participants. The Council also 
chose ending dates later than 2014 for three stocks given their recent 
stock condition (abundance of various age groups) and the biology of 
those stocks (years it takes for that species to produce mature 
reproducing individuals). The three stocks with ending date goals for 
rebuilding that go beyond 2014 are Georges Bank cod (2026), Cape Cod/
Gulf of Maine yellowtail flounder (2023), and Acadian redfish (2051). 
The Council believes that its management strategy for rebuilding this 
mixed stock fishery takes into account the Magnuson-Stevens Act's 
requirements to rebuild fish stocks, while taking into account the 
needs of fishing communities.
    Please note that NOAA Fisheries is drafting a proposed rule for 
possible revisions to the guidelines for National Standard 1. As noted 
in the NOAA Fisheries NSG1 Working Group report, that rule would 
explore in part various aspects of rebuilding timelines. Factors being 
evaluated include: how often rebuilding plans need to be revised, based 
on new scientific information, what parameter(s) would have to be 
revised when a rebuilding plan is changed, and how to comply with the 
objectives for rebuilding as currently described in the Magnuson-
Stevens Act. NOAA Fisheries expects to publish the proposed rule in the 
Federal Register for comment in early 2004.

    Question 4. NMFS Review of Amendment 13--How can you assure me that 
Maine fishermen will be able to access the rebuilt fishery in the 
future, in the near term and the long term? What kind of access will 
they have, and upon what factors will this access be based?
    Answer. Maine fishermen, like other participants in the groundfish 
fishery, will benefit from rebuilding the groundfish stocks. The 
rebuilding alternative selected by the New England Fishery Management 
Council in Amendment 13 would establish several categories of days-at-
sea (DAS)--Category A DAS would be available to fish on all groundfish 
stocks and Category B DAS would enable the fishery to target healthy 
stocks, while keeping effort at levels necessary to protect those 
stocks that require rebuilding. Additional Category B DAS would be 
available to fish on other stocks, once the stocks rebuild to levels 
that could allow effort to be increased. Category C DAS may be 
available in the future, as well. This appears to be a flexible and 
responsible approach that would allow the fishery to be prosecuted at a 
reasonable level in the short-term, while protecting the ability of 
participants to increase their effort as the stocks improve. Amendment 
13 also proposes implementation of several Special Access Programs 
(SAPs) and would establish a process for the Council to identify and 
implement additional SAPs in the future. This would expand the 
opportunities for fishing with selective gear types and in areas that 
would focus effort on the healthiest stocks. In addition, Amendment 13 
would establish a Sector Allocation Program, which would allow special 
sectors to be formed. Participants in these sectors could make their 
own management and business decisions, within certain constraints; they 
would have the flexibility to make the decisions on management and 
deployment of capital and effort they deem to be most efficient for 
their businesses. Finally, the DAS Leasing Program and DAS Transfer 
provisions proposed in Amendment 13 would also provide fishermen more 
flexibility in making decisions as to whether to fish their DAS 
themselves, or to derive economic benefits from leasing away or selling 
their DAS to another vessel. The DAS Leasing Program would allow the 
vessel leasing away its DAS to retain the participation history of 
those DAS, should that vessel decide to fish those days in the future. 
Vessels in Maine or elsewhere would also be able to acquire DAS through 
leasing or permit transfers, if they determined that such action was 
beneficial to their businesses.

    Question 5. Social and Economic Impacts--What did NMFS do to ensure 
that proper social science methods, techniques, and data were utilized 
for the draft EIS for Amendment 13? Do you think that just using focus 
groups constitutes the ``best social science'' that could have been 
done?
    Answer. The methods, techniques, and data used by the New England 
Fishery Management Council in conducting and preparing the social 
impact analysis included in the Amendment 13 draft SEIS were selected 
after extensive consultation with the Council's Social Science Advisory 
Committee, whose members include both sociologists and anthropologists. 
The NEFSC fisheries anthropologist monitored and reviewed this work 
throughout the process, along with an anthropologist at NOAA Fisheries 
Headquarters.
    Focus groups were just one of the sources of information about 
communities and individuals used in the analyses of Amendment 13 
alternatives. Socially-based data and information obtained from focus 
groups (or via participant-observation techniques) are indeed 
meaningful when considered in the proper context and interpreted in 
appropriate terms. The Council's Social Impact Informational Meetings 
were designed and conducted using scientifically-based methodologies, 
and the data and information obtained were analyzed using validated 
research techniques. In terms of their value to social impact 
assessments, focus groups are considered an appropriate and useful tool 
for understanding how widespread ideas and values are in a given group 
(Bernard, H. Russell. 1988. Research Methods in Cultural Anthropology, 
Newbury Park: Sage).

    Question 6. Overall, does NMFS' social science meet the scientific 
standards of the social science discipline--specifically, does it 
collect adequate social science data from representative stakeholders 
and undertake rigorous, systematic qualitative and quantitative 
analyses? If so, why have analyses for Amendment 13 proven to be so 
inadequate for understanding, identifying, and minimizing social 
impacts? If not, why not?
    Answer. NOAA Fisheries' Northeast Region has been expanding its 
ability to develop qualitative and quantitative social science 
databases that equitably represent the various stakeholder interest 
groups within the Region. However, what is required to detect and 
understand social impacts can be quite different from what is required 
to minimize or mitigate these impacts. NOAA Fisheries believes that the 
social impact analyses conducted for Amendment 13 are adequate for 
identifying and understanding the social impacts expected to arise from 
the proposed management measures.
    The DEIS includes several hundred pages of analyses, in geographic 
detail, on the cumulative and expected impacts of the alternative 
measures considered in Amendment 13. These analyses used several 
sources of data, including the information gathered during the Social 
Impact Informational Meetings. Records of individual vessel activity 
over time were also examined and considered. Research conducted by NOAA 
Fisheries academic partners (MIT and WHOI) funded by NOAA MARFIN grants 
provided the updated picture of New England fishing communities and 
their dependence on fishing, as well as providing the Nation's first 
Marine Economy Input/Output models. To further assist in FMP 
development, NOAA Fisheries also funded continuing reports on the 
processing sector (Georgianna, D. and J. Dirlam. 1994. Recent 
adjustments in New England groundfish processing. Marine Resource 
Economics, 9:375-384), and underwrote (through S-K and Northeast 
Consortium funds), recent fisheries social science research efforts 
using Community Panels, conducted by MIT, Rutgers University, the 
Massachusetts Fishermen's Partnership (``Institutionalizing Social 
Sciences Data Collection: A Pilot Project.'')
    With regard to mitigating impacts, the current provisions of 
Amendment 13 include several ways, new in this plan, for fishing 
businesses and communities to adapt to rule changes. Among these are 
provisions for days-at-sea leasing, permanent transfer of days-at-sea 
in some situations, allocation of annual harvest to sectors devised by 
industry members, a transboundary sharing agreement with Canada for 
some stock components, special access programs for targeting stocks 
that are performing well, extension of rebuilding timeframes for some 
stocks, as well as phased reductions in fishing mortality for some 
stocks.

    Question 7. In your written testimony, you say that NMFS' economic 
analysis is limited by a lack of data from fishermen. Specifically, 
what economic data are lacking? If these data were provided by 
fishermen, what would NMFS do with this information? How would it be 
utilized in a meaningful way and improve the lot of fishermen and their 
communities?
    Answer. Although I did indicate that a lack of economic data was a 
problem, I did not mean to imply that we have not been able to conduct 
impact analyses as called for by the Magnuson-Stevens Act, NEPA, E.O. 
12866 and the Regulatory Flexibility Act. Rather, I believe we have met 
all the requirements of these laws, but our intent is to improve the 
information and analyses provided to managers as the basis for fully 
informed decisions. NOAA Fisheries and the Councils have consistently 
prepared economic analyses that provided information to decision makers 
on the effects of alternate management programs under consideration. My 
comments were intended to indicate that the analyses are somewhat 
limited by a lack of certain data, including data on vessel revenue, 
variable costs (e.g., fuel, bait, crew costs, etc.), and fixed costs 
(repair and maintenance, vessel insurance, etc.). In addition, we are 
precluded by the Magnsuon-Stevens Act from obtaining economic 
information from processors. We have had some limited success in 
efforts to collect necessary cost and earning information; however, 
these data are still not sufficient to conduct comprehensive impact 
analyses for the many fisheries.
    We would note that these data are useful for a wide variety of 
issues and actions. The data would support a wide range of fishery 
economic models that may be used to analyze the economic impacts on 
fishermen from both environmental events (hypoxia, red tide, oil 
spills, etc.) and proposed management options, including gear 
restrictions, catch restrictions, TACs, ITQs, and area closures. These 
economic data may also be used to improve the robustness of our 
analyses, and could be used to provide an important metric of the 
economic health of the fishery and its participants. In addition, NOAA 
Fisheries also uses these data to conduct community impact analyses, 
which provide both a baseline assessment of the economic contribution 
of fishing to the local economy, as well as the effect of proposed 
management options.

    Question 8. Over the last decade, much of the academic community 
has embraced the concept that people and communities are part of the 
fisheries ecosystem. Does NMFS share this view? If so, as NMFS moves 
toward ecosystem-based management, what is NMFS doing to actually 
incorporate social systems in ecosystem modeling? If not, why?
    Answer. NOAA Fisheries does embrace the concept that people and 
communities are part of the fisheries ecosystem. Through its Economics 
& Social Sciences Program, NOAA Fisheries has undertaken commercial 
fisheries economic data collection and research; recreational fisheries 
economic data collection and research; and socio-cultural data 
collection and research on fishing participants and their communities. 
The recreational fisheries economic program is similar in spirit to the 
commercial fisheries economic program described in Question 7. That is, 
economic data are collected from participants (in this case, anglers 
and for-hire operators), and are then used to estimate the economic 
effects of proposed management options as well as to assess the 
contribution of recreational fishing to the local economy.
    To enhance our understanding of the economic and socio-cultural 
linkages between fishing participants and fishing-dependent 
communities, NOAA Fisheries has hired seven social scientists (one each 
in AKC, SWC, NWC, SEC and HQ; two in NEC) under its National Standard 8 
initiative, which is tasked with analyzing impacts on fishing 
communities. Agency efforts include identifying a list of key 
indicators that may be used to assess a community's dependence upon 
fishing, as well as its overall well-being. To accomplish this task, 
community profiling work is already under way in each NOAA Fisheries 
region. In addition, numerous regional economic impact models, as well 
as a national economic impact model, have been completed or are 
currently underway.
    An innovative project undertaken by NOAA Fisheries is the Local 
Fisheries Knowledge (LFK) Pilot Project that was launched in 2003 in 
Hancock and Washington Counties, ME. The pilot project is designed to 
be both an educational project for high school students and a vehicle 
for gathering commercial and recreational fishermen's local fisheries 
and environmental knowledge on a full range of fisheries-related social 
science topics, e.g., cultural and social organization of fishing and 
the fishing industry, business aspects of fishing, fishery economics, 
fishery management and governance. The interviews conducted by the 
students will be stored in a searchable database, thus allowing 
fisheries scientists to conduct systematic analyses of narrative texts 
and use this information in scientific analyses of management 
decisions. In the future, the database will include collaborative 
research conducted by professional social scientists, biologists and 
fishermen.

    Question 9. International Agreements--For Georges Bank cod, 
yellowtail, and haddock, the U.S. and Canada have an informal agreement 
for allocating these stocks. Under what circumstances would this 
informal agreement need to be re-negotiated as a formal, binding 
agreement? What, from your perspective, would be the advantages and 
disadvantages of doing so?
    Answer. The underlying motivation to reach an agreement was the 
recognition that, without such an agreement, each country's independent 
conservation actions could be compromised. Further, the parties 
realized that the full benefits of management actions were more likely 
to be realized if there was consistent management by the United States 
and Canada. As with any negotiated settlement, the agreement is a 
compromise. As part of the Sharing Agreement, the United States and 
Canada reconfirmed that the two countries develop a common fishing 
mortality rate based harvest strategy for the shared management units. 
In doing so, Canada agreed to follow the mandates of the Sustainable 
Fisheries Act (SFA). Therefore, it is expected that groundfish 
regulations in both countries will satisfy the terms specified in the 
informal agreement, while not compromising any of the mandates 
contained in the SFA. However, should either country fail to adhere to 
the Agreement, either country may elevate the regional, informal 
agreement to a more formal, national agreement.
    Throughout the development of the Sharing Agreement, both countries 
sought an informal, regional agreement. It was felt that developing a 
more formal agreement would be a very slow process that would likely 
result in complex diplomatic negotiations that would expand beyond the 
fishery issues within the Northeast Region. Both countries agreed that 
this time lag could cause further depletion of the shared resources. A 
formal, national approach would severely limit industry participation 
from each country and create controversy and hardship among fishers. In 
essence, a formal agreement would likely circumvent the public process 
and could result in measures that would not be compatible with the 
harvesting strategies of either country.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                          Dr. William Hogarth
    Question 1. Are you aware if NMFS has, or is currently formulating, 
a national policy with respect to in-river gravel mining operations? If 
so, under what statutory authority would NMFS take such an action? Is 
it your view that NMFS has the authority currently to prohibit the 
mining of aggregate in rivers as a general practice?
    Answer. NOAA Fisheries has an existing policy, issued in 1996, that 
offers guidelines and recommendations for conducting gravel extraction 
operations. The policy is internal to NOAA Fisheries, and is not 
binding on the general public. The 1996 policy is currently under 
review, and we hope to make a new draft available for comment by early 
2004.
    Depending on case-by-case circumstances, NOAA Fisheries has 
statutory authority over instream gravel mining operations under 
several Federal laws.

        Section 7 of the Endangered Species Act (ESA) requires Federal 
        agencies to consult with NOAA Fisheries whenever an action by 
        that agency may affect species listed under the ESA. In the 
        context of gravel extraction, operators generally apply to the 
        U.S. Army Corps of Engineers (COE) for a Clean Water Act 
        section 404 permit. The COE initiates section 7 consultations 
        with NOAA Fisheries to determine whether the proposed action 
        will present jeopardy to the listed species, and whether there 
        are reasonable and prudent alternatives to the proposed action 
        that will be less adverse to the listed species.

        Section 9 of the ESA prohibits ``take'' of a listed species, 
        regardless of whether there is a Federal action. Take is 
        defined as ``to harass, harm, pursue, hunt, shoot, wound, kill, 
        trap, capture, or collect, or attempt to engage in any such 
        conduct.'' If a gravel extraction operation is determined to 
        cause take, NOAA Fisheries has enforcement authority to 
        terminate the activity and issue fines, as appropriate.

        Other Federal laws offer NOAA Fisheries the opportunity to 
        comment and make recommendations on proposed gravel extraction 
        operations. The Essential Fish Habitat (EFH) provisions of the 
        Magnuson-Stevens Fisheries Conservation and Management Act 
        require Federal agencies to initiate consultation when a 
        Federal action may adversely affect designated EFH. NOAA 
        Fisheries makes recommendations to minimize impacts to the 
        habitat in question.

        The Fish and Wildlife Coordination Act allows NOAA Fisheries 
        and the U.S. Fish and Wildlife Service to comment on a proposed 
        action when that action may impact trust resources. For 
        example, under the Clean Water Act section 404, we can submit 
        comments in response to a permit application to the COE. NOAA 
        Fisheries can also elevate the issue if the action is 
        determined to cause unavoidable harm to trust resources.

    NOAA Fisheries does not have the authority to prohibit instream 
aggregate mining as a general practice. However, under the ESA, NOAA 
Fisheries has the authority to prohibit individual activities, if those 
activities cause jeopardy to a listed species.

    Question 2. As you know, the Mitchell Act Hatchery Program supports 
a significant sport and tribal fishery in the Northwest. In light of 
NMFS' recent hatchery review, what do you see as NMFS long-term 
commitment to the program? What is NMFS doing to ensure that the 
program remains viable and continues to support a strong sport fishery 
in the Region?
    Answer. The purpose of NOAA Fisheries' hatchery reviews is to make 
them more efficient, and more effective. There is no mistaking the 
Pacific Northwest's strong interest in and support for hatcheries. As 
long as artificial barriers block access to historically important 
spawning habitat (e.g., more than 50 percent of Columbia Basin Spring 
Chinook salmon production areas are behind dams and inaccessible to the 
fish) there will be obligations to replace the production that would 
have come from that habitat and expectations that hatcheries will be 
adequately funded for that purpose. The other role for hatcheries is to 
seed habitats that remain and are still productive and thus will 
support salmon recovery. More than 30 experimental supplementation or 
conservation programs like this (several are at least partially funded 
under the Mitchell Act) are now underway across the Northwest with NOAA 
Fisheries' full support.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Dr. William Hogarth
    Question 1. National Standard 1 Guidelines--NMFS has held numerous 
workshops (2000, 2001, 2002), conducted an internal review, issued an 
advance notice of proposed rulemaking for revising National Standard 1 
(2003), and commissioned a Report from the National Academy of Sciences 
on ``best scientific information available,'' due in January of 2004. 
After three full years of these activities, no changes have been 
recommended to the National Standard Guidelines.
    What have you learned from these reviews of problems or concerns 
with the Guidelines as written?
    What are your next steps with respect to the National Standard 
guidelines and what is the schedule to accomplish these?
    Answer. NOAA Fisheries learned from comments it received on its 
advance notice of proposed rulemaking regarding National Standard 1 
(published in the Federal Register in March 2003) that the public, the 
fishing industry, environmental organizations, fishery management 
councils and state fishery managers affected by Federal fishery 
management have a wide range of views and concerns regarding 
overfishing definitions and rebuilding plans for overfished stocks. 
Many commenters insisted that no changes should be made to the 
guidelines that would weaken National Standard 1 (i.e., reduce its 
ability to conserve fishery resources by making overfishing and 
rebuilding requirements less stringent). Other commenters felt that the 
current guidelines do not allow enough flexibility to more fully 
consider the needs (especially short term) of fishermen and fishing 
communities. Based on these comments and other information available, 
NOAA Fisheries is planning to publish a proposed rule in early 2004 
that would contain several proposed revisions to the guidelines. It's 
likely that NOAA Fisheries will re-emphasize the need to prevent 
overfishing immediately, provide more guidance on how to establish 
status determination criteria for data poor stocks, advise how often 
rebuilding plans should be revised, and revise the method for 
calculating rebuilding periods. NOAA Fisheries will also potentially 
clarify under what circumstances minimum stock size thresholds do not 
need to be specified for a given stock that is overfished.
    With respect to National Standard 2, the National Research Council 
began to address the issue of the best scientific information with a 
forum for a Committee on Defining the Best Available Science for 
Fisheries Management. On September 8 and 9, 2003, NOAA Fisheries 
sponsored a two-day workshop at the National Academy of Sciences where 
the Committee developed the main issues concerning best scientific 
information available, for further study by the Committee members in 
closed session. Issues included: (1) how should adherence to the 
standard be measured; (2) how and when should it be employed; (3) 
should information be ranked in relation to relevance and rigor; (4) 
how should best scientific information available be ranked; (5) what 
authority (statute, guideline) should decide what constitutes best 
scientific information available; and (6) how does anecdotal 
information fit in with best scientific information available. The 
National Research Council Working Group is continuing to work on this 
issue and has asked for an extension from January 2004 to April 7, 2004 
to submit their report and recommendations on what changes if any, need 
to be made to the guidelines for National Standard 2.

    Question 2. National Standard 8 Guidelines--There is criticism that 
NMFS has not adequately balanced all the National Standards in 
developing and analyzing Amendment 13, resulting in socio-economic 
impacts that could potentially be far greater than necessary.
    Has National Standard 8 (Socio-Economic Impacts of the Management 
Decisions) received sufficient attention in the development and 
analysis of Amendment 13 to allow the Council to understand effects of 
management actions on fishing dependent communities and design 
appropriate alternatives?
    Could you recommend practices and procedures to ensure National 
Standard 8 is considered as early as possible in the Fishery Management 
Plan development process and results in a Plan that ultimately complies 
with the obligation to minimize adverse economic impacts on fishing 
communities?
    Answer. We believe that the requirements under National Standard 8 
have been adequately addressed in Amendment 13. Compliance with 
National Standard 8 requires consideration of the impacts on fishing 
communities of various management alternatives that achieve similar 
conservation results. That is, once a sufficient range of alternatives 
that meet the biological goals and objectives of the FMP are 
established and analyzed, the Fishery Management Council and NOAA 
Fisheries must fully consider the adverse economic impacts to 
communities, to the extent practicable, that would result from these 
alternatives. The alternatives considered by the New England Fishery 
Management Council in Amendment 13 all address National Standard 1, but 
have different economic and social impacts, including impacts on 
fishing communities. These economic and social impacts were carefully 
assessed in the Draft Supplemental Environmental Impact Statement. The 
public and the Council have had a significant opportunity to discuss, 
comment on, and consider, the expected impacts of the alternatives, and 
the analyses of those alternatives. The Council has submitted its final 
recommendations for measures to be implemented in Amendment 13 to NOAA 
Fisheries for review. We will again carefully review all of the 
documents supporting Amendment 13 for compliance with all of the 
National Standards, and all other applicable law, as well as public 
comments received, before making decisions on the approvability of the 
proposed measures.
    NOAA Fisheries has recently bolstered its social science staff, and 
improved the quality of its impact assessments. We believe this is true 
of both assessments of economic impacts under the Regulatory 
Flexibility Act and E.O. 12866, and social impact assessments under 
National Standard 8. In many other ways, the agency has sought to 
develop and implement programs that promote economic benefits and 
protect fishing communities. Examples are individual fishing quotas, 
cooperatives, community quotas, and vessel and permit buybacks. The 
agency feels that it is not ignoring the human dimensions of fishery 
management. Additionally, NOAA Fisheries has made significant progress 
in developing new procedures for the rulemaking process under the 
Magnuson-Stevens Act that will ``frontload'' the process to ensure that 
all issues are considered and analyzed as early as possible.

    Question 3. Multispecies Management--The Magnuson-Stevens Act 
recognizes the complexity of managing multispecies fisheries and 
provides for greater flexibility in these circumstances. National 
Standard 3 provides, ``to the extent practicable, . . . interrelated 
stocks of fish shall be managed as a unit or in close coordination,'' 
and overfishing provisions provide for multispecies fisheries to be 
managed as a unit. Currently the Council manages New England stocks on 
a single species basis.
    How does NOAA currently apply this multispecies approach either as 
guidelines or in management?
    Are there any concerns with using a multispecies approach in New 
England?
    Would the New England fishing industry obtain more economic benefit 
in the groundfish fishery under a multispecies approach?
    Answer. The Northeast multispecies stocks are managed as a group 
under the FMP, but not as a mixed-species complex. The National 
Standard Guidelines (50 CFR 600.310(d)(6)) allow for harvesting one 
species of a mixed-stock complex at its optimum level at the cost of 
overfishing of another stock component in the complex, provided that: 
(1) it is demonstrated by analysis that such action will result in 
long-term net benefits to the Nation; (2) it is demonstrated by 
analysis that mitigating measures have been considered and that a 
similar level of long-term net benefits cannot be achieved by modifying 
fleet behavior, gear selection/configuration, or other technical 
characteristic in a manner such that no overfishing would occur; and 
(3) the resulting rate or level of fishing mortality will not cause any 
species or evolutionarily significant unit thereof to require 
protection under the ESA. Whether this exception to the requirement to 
prevent overfishing could be justified would depend upon the particular 
stock proposed for exemption, and whether net benefits could in fact be 
enhanced by utilizing this exemption.
    The Council did consider the mixed-species approach in Amendment 
13, as provided in the National Standard Guidelines, but did not pursue 
this issue further. Although not specifically invoking this exception, 
Amendment 7 to the FMP utilized a somewhat analogous approach. Under 
that amendment, target quotas were established for five key stocks 
(Georges Bank cod, haddock, and yellowtail flounder, Gulf of Maine cod, 
and Southern New England yellowtail), with the remaining groundfish 
stocks combined under one quota. At the time, it was thought that the 
management measures associated with the five key stocks would serve as 
sufficient measures for the remaining stocks. However, this system of 
managing the groundfish complex failed, since overfishing on several of 
the stocks falling under the combined quota continued to occur. Among 
the potential problems of mixed-species approaches is the possibility 
that overfishing of one or more stocks could become severe enough that 
the entire fishery would ultimately be compromised.
    It is not possible to answer the question of whether the fishing 
industry could obtain more economic benefit in the groundfish fishery 
under a multispecies approach without knowing what the approach would 
be. Again, if overfishing of one or more stocks became severe, it could 
cause great economic hardship if, for example, areas needed to be 
closed, or gear types prohibited. There also could be unintended 
impacts on predator-prey or other ecological interactions that are not 
yet well understood.

    Question 4. Amendment 13 Alternatives--The New England Fishery 
Management Council will consider the alternative developed by the New 
England fishing industry as it prepares for its vote on Amendment 13. I 
am pleased to see an industry proposal that seeks to end overfishing 
while using appropriate flexibility to maintain the multispecies nature 
of the fishery.
    Do you believe the agency can work with this proposal in the given 
timeline?
    How can we assist?
    Senator Snowe and I passed legislation last year allowing the 
extension of the rebuilding timeline from 2009 after the biomass 
targets were changed. One alternative within Amendment 13 allows for an 
extension of the rebuilding period to 2014.
    Do you support the extension?
    How will the timeline extension affect the impacts of Amendment 13 
on the fishing communities of New England?
    Answer. The Council adopted Amendment 13 on November 6, 2003, and 
submitted it to NOAA Fisheries for final review and approval. We were 
also very pleased that the industry came forward with a realistic and 
creative approach that considered both the conservation requirements 
and the needs of the industry and fishing communities. The Council 
voted to adopt that alternative as its preferred alternative in 
Amendment 13. Likewise, the Council voted to adopt the 2014 rebuilding 
timeframes for all stocks except those that require longer rebuilding 
times because of their biological circumstances. Both the industry-
developed alternative and the longer rebuilding timelines would provide 
greater flexibility to the industry and reduce short-term economic 
impacts to the extent practicable. The Council also adopted a number of 
other proposed measures, such as a Days-at-Sea Leasing Program, a Days-
at-Sea Transfer Program, Special Access Programs, and Sector 
Allocations, that could provide a good deal of flexibility to the 
industry to make rational business decisions based on their particular 
needs.

    Question 5. Adequacy of NMFS Economic Analysis--NMFS produced an 
Economic Analysis of the Amendment13 Alternatives, however many 
questions remain unanswered. In order to determine the impacts of the 
final selection, it would be useful to know the following:
    If stocks are rebuilt in 2026 and you assume the stocks are fished 
at Fmsy, what are the landings and revenues going forward? How does 
this compare to no action and status quo?
    The short-term analysis shows significant losses while the long-
term analysis shows increasing revenues and landings each year. Which 
analysis is correct? Explain.
    What are F's and revenues generated during the 2002 fishing year? 
How do they compare to Fmsy?
    What would the effects of the alternatives before the Council be on 
shore-side industry and infrastructure?
    There has been criticism as to the adequacy of the quantity and 
quality of socio-economic research in the analysis. Dr. Kaplan of Woods 
Hole Oceanographic Institution submitted testimony for the record 
stating, ``Proper social and economic impacts should be based on 
representative, random sampling techniques of the diverse groups in the 
commercial fishing industry. Such methodological sampling was not done 
for this important amendment. The focus groups referred to are not 
representative and only `suggest' the concerns of the people who are 
able to attend such meetings. This should be unacceptable for such an 
important regulation.''
    What is your response?
    Is it true the Social Science Advisory Committee to the NEFMC has 
never been asked to officially review or comment on Amendment 13 DSEIS? 
If not, why not? Do other Councils utilize SSACs more effectively? If 
so, which?
    Answer. If stocks are rebuilt in 2026 as contemplated in the 
rebuilding portion of Amendment 13, the projected landings from all 
stocks fished at Fmsy would be 320 million pounds and estimated 
revenues would be $375 million. Projected landings in 2026 under no 
action would be 290 million pounds and revenues would be $348 million. 
Projected landings under status quo would be 282 million pounds and 
revenues would be $338 million. Thus, Amendment 13 would produce higher 
sustained yields of 30 and 40 million pounds compared to no action and 
status quo, respectively, and would produce sustained revenues that 
would exceed no action and status quo revenues by $27 and $36 million, 
respectively.
    Regarding the question about the short-term and long-term analyses, 
we believe that both analyses are correct. The short-term losses shown 
in the analyses are the difference in landings and revenues for each 
alternative in comparison to reverting to the FMP in effect during 
fishing year 2001 (i.e., the ``No Action'' alternative). Under all 
alternatives, revenues within 2-3 years will be at least as great as 
those estimated for 2004 in the `No Action' alternative. With at least 
80 percent probability, rebuilding will yield higher net benefits 
(consumer benefits plus industry sales less the cost of fishing) than 
the ``No Action'' alternative, once all stocks are rebuilt. The long-
term analysis looked at how landings and revenues changed at particular 
harvest rates over particular time periods. Under all proposed 
Amendment 13 alternatives, the stocks gradually increase to Bmsy; 
therefore, the long-term analysis shows rising returns in landings and 
revenues during the rebuilding period. We would also note that the 
short-term analysis provides information useful in understanding which 
regulatory alternatives (consistent with the selected rebuilding 
strategy) would be least burdensome, and how the resulting impacts 
would be distributed among different components of the groundfish 
fleet. The long-term analysis was designed to address questions related 
to the choice of rebuilding time frame, as well as to provide 
comparisons of net economic benefits among the alternatives.
    In terms of the calculation of F, it is important to understand 
that fishing morality rates are calculated by calendar year. This means 
that the full biological impact of the regulations in the 2002 fishing 
year (May 2002-April 2003) will not be known until sometime in calendar 
year 2004. The table below provides estimated fishing mortality rates 
(F) for calendar year 2002, as well as MSY fishing mortality rates 
(Fmsy) for stocks where analytical assessments are possible. Of the 
stocks in this table, only Georges Bank haddock, Georges Bank 
yellowtail flounder, Acadian redfish, and Gulf of Maine winter flounder 
were fished at or below Fmsy in 2002. The remaining stocks were fished 
at levels higher than Fmsy.

    Estimated Calendar Year 2002 Fishing Mortality Rates (F) and MSY
                    Mortality Rates ( Fmsy) by Stock
------------------------------------------------------------------------
                          Stock                            F2002   FMSY
------------------------------------------------------------------------
Cape Cod Gulf of Maine yellowtail                           0.68    0.17
Georges Bank cod                                            0.43    0.18
SNE-Mid-Atlantic yellowtail                                 0.85    0.26
American plaice                                             0.27    0.17
Gulf of Maine cod                                           0.33    0.23
Georges Bank haddock                                        0.20    0.26
Witch flounder                                              0.41    0.23
Acadian redfish                                             0.01    0.04
SNE Mid-Atlantic winter flounder                            0.44    0.32
Georges Bank yellowtail                                     0.15    0.25
Gulf of Maine winter flounder                               0.10    0.43
------------------------------------------------------------------------

    It is possible to look at landings and revenues by fishing year 
(FY). In FY 2002, total combined groundfish landings were 85.7 million 
pounds valued at $102 million; less than one-third of the estimated 
landings and revenues expected once all groundfish stocks have been 
rebuilt. Note that FY 2001 landings were 106.3 million pounds valued at 
$106.2 million. Thus, compared to FY 2001, groundfish landings declined 
by about 19 percent, but revenues declined by about 4 percent. In 
addition, FY 2002 DAS use fell by nearly 35 percent, indicating that 
operating costs in FY 2002 probably declined proportionally more than 
revenues did. This means that industry profits were probably higher in 
FY 2002 than FY 2001. If this pattern holds for FY2004, revenues to 
fishing vessels may be expected to be higher than those predicted in 
the short-term impact assessments.
    Regarding the effects on the shore-side industry and 
infrastructure, NOAA Fisheries does not maintain a database on shore-
side industry and infrastructure. The agency's Northeast Fisheries 
Science Center (NEFSC) has developed impact assessment models using 
Input/Output methods that include 528 industrial sectors in the New 
England region. The underlying data, however, are aggregated at a 
regional industry level. Thus, impacts on specific establishments, or 
in specific ports, cannot be identified. This means that predictive 
models could not be developed, and discussing realized effects on 
shore-side infrastructure is a matter of conjecture.
    As noted earlier, we believe that the socio-economic analyses are 
adequate to support this action. There is no consensus in the 
qualitative social sciences on the absolute merit of ``random sampling 
techniques'' versus other sampling methods. While commonly used by 
sociologists, random sampling techniques have often been criticized by 
anthropologists for actually misrepresenting different cultural worlds 
in their own terms.
    There are reasons why methodological sampling techniques are 
frequently impractical for use in FMP analyses. The government must 
obtain Paperwork Reduction Act (PRA) clearance whenever an agency 
addresses identical questions to 10 or more members of the public. Such 
clearance takes time, usually more time than is available for 
collecting data to support development of a particular plan action. A 
recent Agency initiative seeks generic OMB approval for certain types 
of social scientific analyses which would mitigate this problem. Still, 
many FMP amendments are considerably altered during development, making 
it difficult to devise relevant socio-economic survey instruments and 
complete the associated sampling in a timely enough way to be useful.
    With regard to the statement about focus groups, ``focus groups'' 
were just one of the sources of information about communities and 
individuals used in the analyses of Amendment 13 alternatives. The 
Council's Social Impact Informational Meetings were designed and 
conducted using scientifically-based methodologies, and the data and 
information obtained were analyzed using validated research techniques. 
Focus groups are considered an appropriate and useful tool for 
understanding how widespread ideas and values are in a given group 
(Bernard, H. Russell. 1988. Research Methods in Cultural Anthropology, 
Newbury Park: Sage).
    Regarding the use of the Social Science Advisory Committee (SSAC), 
the SSAC is an advisory committee to, and is tasked by, the Council. 
The NEFMC does not require its SSC (Scientific and Statistical 
Committee) or SSAC to review DEIS documents, and did not specifically 
ask the SSAC committee to review or comment on the DSEIS for Amendment 
13. Members of the SSAC were free to comment on the DSEIS, and some did 
so during the comment period.
    Other Councils use a variety of means for obtaining input on social 
science issues. Some Councils receive social science advice through 
their SSCs, whose membership includes social scientists, rather than 
using separate committees for biological advice and social science 
advice. Other Councils with designated social science advisory groups 
are the Gulf of Mexico Council and the South Atlantic Council. In the 
Southeast region, the Socio-economic Advisory Panel or SEP serves both 
the Gulf and South Atlantic Councils.

    Question 6. Economic Impacts--NMFS' economic analysis of Amendment 
13 shows that smaller vessels will experience a larger economic impact 
than the larger vessels in the fishery.
    What is the number and location of vessels under 30ft and vessels 
30ft and 50ft that will be adversely affected by the Amendment 13 
alternatives?
    Given the unequal distribution of economic burden that Amendment 13 
will impose on the smaller vessel fishers, the agency and the Council 
need to explore creative means to lessen the blow to these fishermen.
    How can the agency help the Council identify and reduce these 
unequal regulatory burdens? and What are management measures that may 
be helpful in addressing this inequity?
    NMFS' economic analysis show that New Bedford, Boston, and 
Gloucester will be among the hardest hit ports when Amendment 13 is 
implemented, due to their reliance on groundfish fisheries.
    Assuming Amendment 13 is implemented, what assistance would be most 
useful to fishermen and the ports of New Bedford, Boston, and 
Gloucester?
    How do you justify dismantling significant portion of the industry 
for a comparatively small long-term economic benefit?
    Answer. The economic analysis of Amendment 13 does not show that 
small vessels will be disproportionately affected compared to larger 
vessels. The magnitude of adverse effects of Amendment 13 correlates 
more to a vessel's dependence on groundfish and fishing practices 
(gear, area, and season fished) than to vessel size. Estimated revenue 
impacts on small vessels tend to be most sensitive to changes in the 
timing and size of area closures, as well as to trip limits.
    Based on FY 2002 permit application data, there were 116 permitted 
limited access multispecies vessels that were 30 feet or less in 
overall length, and 797 vessels that were between 31 and 50 feet in 
overall length (state by state numbers are summarized in the table 
below). Of these, 521 were located in Massachusetts ports. During FY 
2002, 56 percent of vessels 30 feet or less reported landings of the 10 
regulated groundfish species, while about 23 percent of vessels 31 to 
50 feet reported groundfish landings. Thus, overall, about 27 percent 
of these small vessels could be adversely affected by Amendment 13, a 
majority of which are located in Massachusetts.

   Number and Home Port State Location of Small Limited Access Permit
                            Holders (FY 2002)
------------------------------------------------------------------------
                      Vessels <= 30 feet LOA   Vessels 31 to 50 feet LOA
  Home Port State  -----------------------------------------------------
                     Permits   Active Permits   Permits   Active Permits
------------------------------------------------------------------------
Maine                      8                2       138               39
New Hampshire              7                5        61               27
Massachusetts             80               52       441              100
Rhode Island               7                3        31                3
Connecticut                0                0        12                1
New York                   9                2        63                6
New Jersey                 3                1        36                5
Delaware                   1                0         0                0
Maryland                   0                0         2                0
Virginia                   0                0         3                0
North Carolina             1                0         3                0
Other                      0                0         7                0
------------------------------------------------------------------------
Total                    116               65       797              181
------------------------------------------------------------------------

    NOAA Fisheries has assessed the distributional effects of the 
amendment and the DSEIS suggests that small vessels would not, on 
average, be disadvantaged relative to larger vessels. The Council's 
preferred alternative already contains a number of features that would 
mitigate economic impacts for all vessels. These measures include 
provisions for DAS leasing or DAS transfer that would enable small 
vessels to increase their fishing income. The Amendment would also 
implement at least one sector allocation for the Georges Bank cod hook 
sector, a group of small Massachusetts vessels operating principally 
out of Cape Cod ports. The Amendment specifies a process by which other 
groups may also develop sector allocation proposals. Small vessels may 
also able to use additional ``B'' DAS, an issue scheduled for 
discussion at an upcoming Council meeting. Other measures in Amendment 
13 that may provide some relief to smaller vessels include the increase 
in the Gulf of Maine cod trip limit, the relaxation of some gear 
restrictions for gillnet vessels, and an expansion of the shrimp 
exemption area in the Gulf of Maine.
    To take advantage of several of the Amendment 13 mitigating 
measures, some vessels may need to make investments to obtain and 
operate new equipment. For example, participation in several Special 
Access Programs would require VMS. Vessels may also need to secure 
financing to lease DAS or to finance a DAS transfer. Groups of 
individuals interested in forming a sector allocation may need 
assistance to develop a sector plan. Assistance in the form of grants 
or low-interest loans may be helpful to communities to retain or make 
improvements to shoreside facilities in the early years of the 
Amendment 13 rebuilding period.
    Regarding the question of dismantling a portion of the industry, we 
believe there is little reason to expect that a significant portion of 
the industry will be dismantled owing to Amendment 13; tripling the 
current landings, as is contemplated under the plan, is a large long-
term benefit.

    Question 7. Fisheries Observers--NMFS currently deploys observers 
to collect fishery dependent data in only 28 of the 100 Federal 
fisheries that it manages under the authority of the MSA. We have long 
urged the Administration to improve observer coverage, and now 
increased coverage is being required by court decisions--such as the 
one in New England.

  <bullet> hat is being done to increase this coverage?

  <bullet> Have you identified how much it will cost to provide 
        adequate observer coverage, nationwide?

  <bullet> Will you be able to get the required number of observers out 
        for the New England fishery this season?
    Answer. Intensive efforts by the agency to increase the level of 
funding for fishery observer programs has been underway since 2000, 
with necessary increases identified in the President's annual Budget 
requests. This has contributed to a steady increase in funding 
appropriated and available for additional observer coverage, as 
indicated in Table 1. Some funding has also been made available for 
observers through related lines in the NOAA Fisheries budget.

                Table 1.--Program, Project, or Activity (PPA) Funds related to Observer Programs
----------------------------------------------------------------------------------------------------------------
                              Observer PPA                                                            TOTAL  (in
       Fiscal Year           Sources (in $M)             Non-observer PPA Sources  (in $M)               $M)
----------------------------------------------------------------------------------------------------------------
1999                                     2.7                                                   5.3           8.0
----------------------------------------------------------------------------------------------------------------
2000                                     7.7                                                   5.9          13.6
----------------------------------------------------------------------------------------------------------------
2001                                     8.0                                                   8.5          16.5
----------------------------------------------------------------------------------------------------------------
2002                                    13.8                                                   6.9          20.7
----------------------------------------------------------------------------------------------------------------
2003                                    13.8                                                   7.5          21.3
----------------------------------------------------------------------------------------------------------------
2004                       President's Budget                      President's Budget Request: 9.5          29.5
                               Request: 20.0                  (includes 2M under Reducing Bycatch)
----------------------------------------------------------------------------------------------------------------

    NOAA has identified funding estimates for full observer coverage. 
These estimates will be reviewed in future budget request processes. In 
FY 2003, 28 fisheries were observed with 20 fisheries at an adequate 
level of coverage and in FY 2004, assuming funding at the President's 
Budget request level, 33 fisheries will be observed with 24 at an 
adequate level of coverage. This does not include coverage of fisheries 
with low levels of bycatch that may not require monitoring by 
observers, but may still require reporting of bycatch via logbooks or 
other sources. Nor does it include projections for observer coverage 
paid for by the fishing industry, which is currently estimated at $14.7 
million annually, and which may need to be increased over time to meet 
expanding demands for vessel-specific catch accounting and monitoring 
of exempted or experimental fishing activities.
    Initial FY 2003 observer funding levels for New England groundfish 
observers were inadequate to meet court-mandated coverage requirements, 
and therefore were supplemented by other sources of funds in FY 2003. 
This allowed NOAA Fisheries to obtain the 5 percent level of coverage 
that the agency has determined is adequate for meeting the court's 
requirement for observer coverage in the New England groundfish 
fishery. However, these supplemental sources of funds were not expected 
to be available in FY 2004 and beyond. Therefore, the President's FY 
2004 request includes a $3 million increase for New England groundfish 
observers, which will allow 5 percent coverage to be obtained in 2004. 
The FY 2004 conference report indicates that up to $9.5 million may be 
made available in FY 2004, which will allow the agency to obtain an 
even higher level of coverage in 2004, consistent with concerns about 
the accuracy and precision of bycatch estimates obtained at 5 percent 
coverage levels.

    Question 8. Socioeconomic Analysis--From reading the report 
prepared for the NOAA Deputy Under Secretary in 2000, An Independent 
Assessment of the Resource Requirements for the National Marine 
Fisheries Service (the ``Kammer Report'') and other reviews, we appear 
to lack the infrastructure necessary to systematically conduct 
socioeconomic analyses mandated under the Regulatory Flexibility Act 
and National Standard 8 of the SFA. Each Stock Assessment and Fishery 
Evaluation (SAFE) report is required to summarize the social and 
economic condition of the fishery's recreational, commercial and 
processing sectors, as well as the most recent biological status of the 
fishery.

  <bullet> Does NMFS currently perform any social science evaluations 
        at the regional or national scale?

  <bullet> Are Councils better equipped for this?

  <bullet> What is the agency's current staffing capacity to collect 
        and analyze social and economic information relating to the 
        marine activities NMFS regulates under SFA and RFA?

  <bullet> What plans are there to address this increasing need to 
        employ enough qualified economists, sociologists, and 
        anthropologists?

    Answer. As outlined in NOAA Fisheries' Social Science Plan, which 
was developed nationally and which is implemented regionally, NOAA 
Fisheries routinely conducts a host of social and economic analyses, 
including those required under National Standards 1, 5, 7, and 8 of the 
Magnuson-Stevens Act; the Regulatory Flexibility Act (RFA); the 
Endangered Species Act; Executive Order 12866; the National 
Environmental Policy Act; and the Marine Mammal Protection Act. For 
each proposed regulatory action, NOAA Fisheries is required to analyze 
the economic impacts of the proposed regulation, as well as a suite of 
management alternatives.
    At the national level, NOAA Fisheries has completed a qualitative 
assessment of fishing capacity. The agency also plans to complete a 
quantitative assessment of over-capacity. In addition, NOAA Fisheries 
is engaged in a nationwide community impact analysis, which will assess 
commercial fisheries' contribution to local employment and regional 
economic impacts, as well as a national employment survey to determine 
the number of individuals participating in commercial and for-hire 
fisheries.
    The scientific basis of NOAA Fisheries' socio-economic analyses 
depends upon several factors, including the ability to collect 
appropriate economic data. Current restrictions in the Magnuson-Stevens 
Act against the mandatory collection of certain kinds of economic data 
constrain the agency's social science research program at both the 
national and regional levels in meeting its objectives.
    Although the Councils contribute to the analysis of socio-economic 
impacts, NOAA Fisheries is responsible for conducting the majority of 
technical analyses used to inform fishery decision makers. In this 
context, it would be highly irregular to shift the sole responsibility 
for conducting this research (data collections as well as social and 
economic analyses) to the Councils. Further, such a move could be 
burdensome to the Councils and not improve the status quo, since 
Councils have significantly less social science staffing than their 
counterparts in the NOAA Fisheries regional offices.
    There are currently 57.5 social science FTEs in NOAA Fisheries, up 
17 in the last three years, coinciding with budget increases for 
economics and National Standard 8 implementation. The FY 2004 
President's budget requests an additional $1.7 million for its social 
science programs.

    Question 9. Flexibility in Decisionmaking--With all this talk of 
process, it feels like we are going down a path of less flexibility in 
management decisionmaking. The lack of flexibility is incredibly 
frustrating both to fishermen and--I would assume--to managers. For 
example, I understand that last year when stock assessments came back 
with better news than expected for Monkfish, the agency could not issue 
a rule that would change the 0 harvest default rules in time for the 
season, and the fishery was closed.
    Let me repeat: We have had to close a fishery that could have had 
increased harvest! This makes no sense.

  <bullet> Doesn't the agency have enough discretion to change 
        management measures when the news is good? What is the sticking 
        point?

  <bullet> How can we inject flexibility in this process?

  <bullet> How can you expect to meet procedural requirements like NEPA 
        and still make quick decisions that respond to new information?

  <bullet> It has been suggested that the public hearing requirements 
        of NEPA and MSA are duplicative. How could the requirements of 
        NEPA and MSA be reconciled to allow for public input as well as 
        flexible in-season decision-making?
    Answer. In the situation regarding monkfish, the New England 
Fishery Management Council submitted a framework action that had to be 
disapproved because it was inconsistent with the Fishery Management 
Plan, although it did reflect the most recent stock assessment for 
monkfish. NOAA Fisheries then published an emergency rule that did 
allow an increase in catch and a resumption of the fishery.
    NOAA Fisheries has undertaken two efforts that will be useful to 
provide more flexibility and improve the management process: the 
Regulatory Streamlining Project (RSP), for which we provided a report 
to Congress last year, and a review of agency guidelines for National 
Standard 1 under the Magnuson-Stevens Act.
    The RSP is focused on ensuring that all parties participate in the 
development of a Fishery Management Plan or amendment early in the 
process to ensure that all requirements of the Magnuson-Stevens Act and 
other applicable law are met. We have worked particularly hard to 
ensure that MSA and NEPA requirements are simultaneously addressed and 
that we mesh the procedural requirements of these two laws to the 
greatest extent possible to avoid duplication. NOAA Fisheries is 
completing the revision of its Operational Guidelines to implement the 
RSP in 2004.
    With respect to National Standard 1, public comments regarding 
problems and suggested changes to the guidelines were sought under an 
advanced notice of proposed rulemaking earlier this year. In addition, 
a NOAA Fisheries working group conducted a review of the guidelines and 
suggested changes that would serve to update, simplify, clarify, and 
also provide additional flexibility to the development of management 
measures to prevent overfishing and rebuild depleted stocks. Based on 
public comments and the recommendations of the working group, NOAA 
Fisheries is developing a proposed rule to revise the guidelines, which 
it intends to publish in the Federal Register for public comment in 
early 2004.

    Question 10. The Rx for Fishery Disasters--Regional Plans?--Sadly, 
New England has been the site of a very difficult transitional process 
starting with the closure and fishery disaster declaration. I look back 
on the ways we have tried to help our fishing communities get through 
this trying time, and now that have another crisis, I wonder if we 
could have done it better.
    Penny Dalton has worked through this issue both on the Committee 
and in the agency, and Dr. Hogarth is now struggling with this issue. 
We have learned a lot over the past 6 years. Since we are rethinking 
how we do business, I'd like your thoughts--

  <bullet> How can we best streamline Federal assistance when a 
        ``disaster'' is declared?

  <bullet> What must be included for communities to successfully 
        transition?

  <bullet> What are the top 3 barriers to getting there? Can we help 
        break through them?

    Answer. As used here, ``disaster'' seems to encompass all the 
situations NOAA Fisheries has faced where fisheries are in need of 
assistance. In some cases, NOAA Fisheries has, on behalf of the 
Department of Commerce, determined a commercial failure under sections 
308(b) or 308(d) of the Interjurisdictional Fisheries Act (IFA), or 
section 312(a) of the Magnuson-Stevens Act (MSA). Section 308(b) of the 
IFA requires determination of a commercial fishery failure, or serious 
disruption affecting future production due to a fishery resource 
disaster arising from natural or undetermined causes. Section 308(d) of 
the IFA provides for assistance to commercial fishermen, either 
directly or indirectly through state and local government agencies and 
nonprofit organizations, to alleviate harm from a fishery resource 
disaster arising from named hurricanes or any other natural disaster. 
Section 312(a) of the MSA requires determination of a commercial 
fishery failure due to a fishery resource disaster as a result of 
natural causes; man-made causes beyond the control of fishery managers 
to mitigate through conservation and management measures; or 
undetermined causes. The Federal grant share under both section 308(a) 
of the IFA and MSA is limited to 75 percent of cost (no cost-share in 
IFA 308(d)). The 25 percent non-Federal recipient cost-share 
requirement can be met with funds or non-cash contributions such as 
participation in research or other activities.
    The New England multispecies groundfish is a case where we have 
commercial failure determinations (under IFA 308(b) and 308(d)), and 
also the need for community transition due to impacts of fishery 
management measures. In fact, the FY 2003 appropriation provided funds 
under ``disaster assistance'' to address several such situations.
    As for how we can best streamline Federal assistance, NOAA 
Fisheries is looking at a number of options for streamlining 
assistance, including stimulating earlier constituent involvement and 
planning, reviewing cost-share requirements. Where Congress designates 
recipients and indicates urgency, NOAA Fisheries can disburse funds 
without requiring the preparation of proposals and merit reviews, thus 
greatly speeding up the delivery of disaster assistance to specific 
recipients.
    What communities need to successfully transition varies with the 
specific situation. The response needed to address a normally 
sustainable fishery affected by a hurricane is different from the need 
to rationalize capacity in a fishery that is transitioning to 
sustainability. For those fisheries where overcapacity is the problem, 
capacity reduction is essential. MSA capacity reduction can help 
harvesters transition. Capacity reduction authority should be focused 
on reducing active capacity and latent capacity to ensure long-term 
fishing effort is reduced. Successful transitioning from a fishery 
resource disaster arising from either natural or man-made causes can be 
facilitated by grants to compensate fishermen for gear losses, loss of 
income, etc.; grants to assist fishermen and fishery dependant 
businesses in leaving the affected fishery for other fisheries or 
occupations; to assess status of the affected resource; and to assess 
socioeconomic impacts of disasters and provide mitigating funds.
    Barriers to success include the timeliness of assistance, which has 
been affected by the use of grants mechanism, as opposed to direct 
payments, to provide assistance. Lack of agreement by all stakeholders 
on how best to address a given situation, and lack of social science 
data, as well as fisheries data, are also barriers that NOAA Fisheries 
is attempting to address.

    Question 11. Innovative Techniques--The North Pacific Council has 
outlined some impressive accomplishments in the Alaska groundfish 
fishery that seem to be entirely appropriate for use in all parts of 
the country--including New England. I am particularly impressed by the 
bycatch reduction and the independent scientific review process in the 
North Pacific Council. I also understand that they are also pioneering 
work in ecosystem management.

  <bullet> What are the barriers to making these techniques work in a 
        fishery like the New England groundfish fishery?

  <bullet> How close are we to getting to multispecies management in 
        the North Pacific?

  <bullet> Would it be beneficial to get the North Pacific Council 
        together with our New England Council to discuss strategies 
        that might be transferable?

  <bullet> What would you propose to move us along this path?

    Answer. The eight Regional Fishery Management Councils have the 
responsibility to develop and propose fishery management plans and plan 
amendments that address the unique circumstances of regulated fisheries 
in their respective areas. The fisheries in Alaska and New England are 
indeed different in several respects, and the two Councils have 
approached their responsibility differently. Most federally managed 
fish resources in the North Pacific are larger, are in relatively 
healthy shape, and are managed by individual transferable quotas 
(ITQs), individual fishing quotas (IFQs), or other exclusive quotas, 
such as community quotas and fishing cooperatives. The Alaska industry 
also produces a wide variety of finished and semifinished products and 
competes in the world marketplace; processors are key players in both 
the fishery and the management process. In New England, many of the 
stocks are fairly small and in poor, although improving, condition; the 
fishing industry is more traditional in structure, featuring large 
numbers of owner-operated small vessels; ITQs and IFQs are not in 
place; and processors play a relatively smaller role. The over-riding 
priorities in the New England groundfish fishery are stock recovery and 
reduction of overcapacity. In addition, the number of states involved 
with the respective groundfish fishery varies greatly--three states 
(Alaska, Washington, and Oregon) in the Alaska groundfish fishery, 
while up to 11 states (Maine, New Hampshire, Massachusetts, Rhode 
Island, Connecticut, New York, New Jersey, Pennsylvania, Maryland, 
Virginia, and North Carolina) in the New England groundfish fishery.
    The North Pacific Fishery Management Council works closely with the 
NOAA Fisheries Alaska Region and the State of Alaska to consider the 
known effects of management measures of one fishery on other fisheries, 
protected species, and the environment. While there is not yet what 
might be termed an ``ecosystem-based plan,'' all the elements are taken 
into consideration in the management process. Still, continued research 
into interspecies interactions is needed to make progress towards 
ecosystem-based management.
    All of the Chairs and Executive Directors of the eight Regional 
Fishery Management Councils already conduct regular meetings, and we 
believe that these meetings are highly useful. NOAA Fisheries also 
holds meetings to orient new and current members of the Councils on 
requirements of the laws, biological terminology, methods used in 
fisheries management, and the full range of their responsibilities. 
NOAA Fisheries would be happy to propose to the Councils that future 
Council Chairs/Executive Directors meetings should include a session 
that enables each Council to discuss strategies to address bycatch, 
scientific reviews, and ecosystem management.
    NOAA Fisheries will continue to work with the Regional Fishery 
Management Councils, States, industry, and other constituents to 
develop effective management measures. We are actively reviewing our 
bycatch policies with a view towards making them more effective in 
avoiding or reducing the effects of bycatch. We will continue to 
conduct research and develop new methods of integrating additional 
environmental and fisheries data into our calculation of optimum yields 
in the fisheries. We will also be looking at best practices and how to 
share those practices among the Councils.

    Question 12. The Future of U.S. Fisheries--Some suggest that an 
agency straining to meet legal mandates, respond to litigation and 
implement administrative changes, is not in the best position to take a 
long, critical look at needed reforms over the next 5 to 10 years. Do 
we know what the goals of U.S. fisheries are over the next 10-25 years? 
Is there a plan in place to develop or pursue long-term goals for 
fisheries and reconcile some of the difficulties created by the 
multiple statutes?
    Answer. NOAA Fisheries has given considerable thought to its needs 
over the next 5 to 10 years and its longer range goals. The agency 
developed a draft assessment of these critical needs for the five-year 
period from FY 2004 to FY 2008, focusing on (1) fisheries and related 
science, including ecosystems and the social sciences, (2) management 
improvements, with an emphasis on reducing bycatch and overfishing/
overcapacity, and (3) upgrades in infrastructure. This assessment draws 
on several other recently completed studies on the agency's 
programmatic and budget needs.
    NOAA Fisheries has also commented on these matters in testimony at 
Congressional hearings on Magnuson-Stevens Act reauthorization over the 
last two years. Matters that we have identified for reform include: (1) 
IFQs; (2) observers; (3) economic and social information; (4) Council 
processes and procedures; and (5) law enforcement. Proposals in these 
and other areas were transmitted to Congress in June 2003.
    With respect to long-term goals (10 to 25 years ahead), our 
fundamental objective is to manage the Nation's marine fisheries 
resources sustainably and for the maximum benefit of all users. How 
NOAA Fisheries can reach that goal will depend, over the long term, on 
a number of factors, including amendments to the Magnuson-Stevens Act 
and other laws that drive our missions and activities.

    Question 13. Tools Needed to Improve Compliance--Ms. Iudicello 
states that the existing compliance system isn't always well 
implemented. She also concludes that while the system does not need to 
be changed, we do need to change the tools and resources we provide to 
NMFS and the Councils.
    Do you agree?
    What are the tools and resources you see as being essential to this 
task?
    Given the current litigation burden, is this possible?
    Do you see statutory changes being needed to accomplish this?
    Answer. NOAA Fisheries agrees that the system does not need to be 
changed or overhauled, but we are always working to make improvements 
and advancements, some of which are described below in response to this 
question.
    The NOAA Fisheries Office for Law Enforcement (OLE) is the primary 
enforcement agency responsible for the protection of our Nation's 
living marine resources. The primary tools and resources essential to 
this task are investigations, vessel monitoring, at-sea patrols, and 
enforcement partnerships, all of which increase compliance with 
regulations, provide more effective prosecution of violations, and 
decrease vulnerability to litigation. Our most critical partner in this 
mission is the United States Coast Guard (USCG) which generates nearly 
18 percent of the 3,000+ cases handled by OLE annually. While the OLE 
conducts extensive investigations, inspections, shore-side, and limited 
near-shore patrols, the USCG provides at-sea patrol coverage.
    OLE currently has 164 sworn personnel to cover 3.4 million square 
miles of jurisdiction. OLE is experiencing an expansion of enforcement 
responsibilities as a result of new regulatory schemes, more complex 
criminal and civil investigations, expanded levels of contacts as a 
result of our Joint Enforcement Agreements with the States, an 
amplification of international investigations, expanded use of VMS, and 
the impact on fisheries enforcement by U.S. Coast Guard as a result of 
their expanded duties and responsibilities under Homeland Security.
    The OLE has and will continue to emphasize and support programs and 
strategies that serve to magnify and supplement its law enforcement 
capabilities such as partnerships, the use of technology and other 
strategies that significantly enhance the services provided by the OLE 
and USCG for fisheries enforcement.
    The Vessel Monitoring System (VMS) program greatly enhances the 
ability of the OLE to improve compliance and enforcement in a manner 
that is extremely significant. Dedicated annual allocation of funding 
for the VMS program at the level supported through the President's 
request will support the expansion, completion, and ongoing maintenance 
of the national VMS program and thereby makes VMS services available 
throughout the country.
    The Cooperative Enforcement Program with the coastal states became 
operational under FY 2001 funding. This partnership-based initiative 
has already provided extensive supplemental enforcement services in 
support of the OLE mission. Thousands of additional patrol hours are 
being provided monthly in the coastal states in support of the 
conservation and protection of our mission.
    The USCG is funded to support the OLE mission through at-sea 
patrols. The NOAA Fisheries mission is not always their primary role 
and marine resource related operations are conducted as part of broader 
operations. Such operations are often overshadowed by the necessity to 
direct USCG assets toward higher priority missions. More intensified 
Homeland and Port Security patrols would be a current example. The 
development of a more structured and reliable system to assure the 
dedication of USCG assets to marine resource related patrols would be a 
useful tool. Ensuring compliance with regulations requires specified 
levels of ``at-sea'' or aerial patrol time available only from the 
USCG. This precludes the assurance that specific areas and fisheries 
will be patrolled in accordance with the level of enforcement support 
anticipated when regulations are written. The role of the USCG in 
domestic fisheries enforcement is very critical. However, depending 
upon USCG's role in the new Department of Homeland Security, it may be 
necessary to clarify their role in fisheries.
    OLE also attempts to suppress violations through patrols and 
inspections (monitoring and surveillance) and through outreach and 
education of users of marine resources.
    In addition to the above, current program planning is exploring 
ways to increase the resources available to improve compliance with 
resource protection measures, provide alternative at sea surveillance/
enforcement resources and expand enforcement services in a number of 
areas. Expanded investigative resources would also include financial 
analysts and computer forensics support. In addition to an expanded 
presence which will increase investigations, prevention patrols, 
compliance inspections and public outreach and education, we are also 
exploring ways to leverage existing and new technology to meet our 
enforcement mission.
    The current level of litigation directed toward NOAA Fisheries is 
not a direct burden on the Office of Law Enforcement (OLE). Agency 
litigation is directed primarily at the agency's programs, not OLE 
activities. Thus, OLE is not altering priorities nor unable to pursue 
enforcement cases due to the litigation.
    The MSA reauthorization developed by NOAA Fisheries contains a 
number of improvements to strengthen our ability to gain compliance, 
including increased maximum penalties and investigative administrative 
subpoenas.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
